<html>
<title> - ALLEGATIONS OF MISCONDUCT AT THE GENERAL SERVICES ADMINISTRATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
    ALLEGATIONS OF MISCONDUCT AT THE GENERAL SERVICES ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2007

                               __________

                           Serial No. 110-35

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform




                     U.S. GOVERNMENT PRINTING OFFICE

40-153 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 28, 2007...................................     1
Statement of:
    Doan, Lurita A., Administrator, General Services 
      Administration; and Brian D. Miller, Inspector General, 
      General Services Administration............................   126
        Doan, Lurita A...........................................   126
        Miller, Brian D..........................................   209
    Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa..   117
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, Congressional Research Service 
      report.....................................................   161
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia:
        Prepared statement of....................................   114
        Minority staff report....................................    72
    Doan, Lurita A., Administrator, General Services 
      Administration, prepared statement of......................   129
    Miller, Brian D., Inspector General, General Services 
      Administration, prepared statement of......................   212
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California:
        Prepared statement of....................................    62
        White House PowerPoint presentation......................     4

    ALLEGATIONS OF MISCONDUCT AT THE GENERAL SERVICES ADMINISTRATION

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Maloney, Cummings, Davis 
of Illinois, Tierney, Clay, Watson, Lynch, Higgins, Braley, 
Norton, McCollum, Van Hollen, Sarbanes, Welch, Davis of 
Virginia, Burton, Shays, Mica, Platts, Duncan, Turner, Issa, 
Foxx, and Bilbray.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Kristin Amerling, general 
counsel; Karen Lightfoot, communications director and senior 
policy advisor; David Rapallo, chief investigative counsel; 
John Williams, deputy chief investigative counsel; David 
Leviss, senior investigative counsel; Susanne Sachsman, 
counsel; Molly Gulland, assistant communications director; Mark 
Stephenson and Daniel Davis, professional staff members; Earley 
Green, chief clerk; Teresa Coufal, deputy clerk; Caren Auchman, 
press assistant; Zhongrui ``JR'' Deng, chief information 
officer; Leneal Scott, information systems manager; Will 
Ragland, Kerry Gutknecht, Sam Buffone, Bret Schothorst, and 
Lauren Belive, staff assistants; David Marin, minority staff 
director; Larry Halloran, minority deputy staff director; 
Jennifer Safavian, minority chief counsel for oversight and 
investigations; Keith Ausbrook, minority general counsel; Ellen 
Brown, minority legislative director and senior policy counsel; 
John Brosnan, minority senior procurement counsel; Steve Castor 
and Charles Phillips, minority counsels; Edward Kidd, minority 
professional staff member; Patrick Lyden, minority 
parliamentarian and member services coordinator; Brian 
McNicoll, minority communications director; and Benjamin 
Chance, minority clerk.
    Chairman Waxman. The meeting of the committee will please 
come to order.
    Today's hearing has been called to investigate allegations 
of misconduct at the General Services Administration. There are 
probably plenty of Americans who have never heard of GSA, but 
it is the Government's premier contracting agency. It focuses 
on the nuts and bolts of Government's logistics. GSA manages 
nearly $500 billion in Federal assets, including Federal 
buildings, courthouses, and other facilities, and it handles 
the purchase of billions of dollars worth of services on behalf 
of other Government agencies.
    The Administrator of GSA is Lurita A. Doan, and she is with 
us today. Also with us is Brian Miller, the Inspector General 
of GSA. And we are pleased to have, as well, Senator Charles 
Grassley, who has been following these issues closely, joining 
us, as well.
    We welcome all three witnesses and look forward to their 
testimony.
    One of Congress' most important oversight goals is to 
ensure that our Government serves the interests of the American 
taxpayer, not the interests of favored contractors, a 
particular Federal agency, or a single political party. The 
American people expect Government officials to uphold a public 
trust. That is what the taxpayers are paying them for, and 
nothing else.
    Over the past several months, however, multiple allegations 
have surfaced about actions by top GSA officials that do not 
serve the interests of the taxpayers. These are the allegations 
we will investigate today.
    The first issue we will examine is a political briefing 
that took place at GSA on January 26th of this year. This 
briefing was conducted by Scott Jennings, Karl Rove's deputy at 
the White House. Mr. Jennings has been in the news for his 
involvement of the firing of the U.S. Attorneys, and is one of 
the White House officials that both the House and Senate have 
asked to testify.
    Also at this briefing were Administrator Doan and 40 other 
political appointees at GSA, some of whom participated by 
videoconference. The briefing was held at GSA facilities during 
the work day, but there were no career GSA officials allowed at 
the briefing.
    We have obtained the PowerPoint presentation that Mr. 
Jennings gave to the GSA officials that day. This is the White 
House Office of Political Affairs.
    It would be perfectly appropriate for a meeting at the 
Republican National Committee or with campaign operatives, but 
it is the last thing taxpayers would expect at a Government 
agency like GSA.
    Here is one of the slides. I think we have it on the 
screen. This is from Mr. Jennings' presentation. In this slide 
Mr. Jennings identified by name the 20 Democratic Members in 
the House that the White House is targeting for defeat in 2008. 
We have another slide. This one identifies by name 20 
Republican Members that the White House considers most 
vulnerable in the upcoming election. The White House briefing 
was partisan. It was strategic. And it had absolutely no 
connection to GSA's Government mission. When the White House 
presentation was over, Ms. Doan asked her staff, ``How can we 
help our candidates in the next election?''
    Well, here are the facts as we know them: One, GSA's top 
political appointees were assembled to hear a confidential 
White House briefing on the Republican campaign strategic for 
2008; two, they were asked to consider how GSA resources could 
be used to help Republican candidates; three, they did this in 
a Federal building during work hours at taxpayer expense.
    This appears to be a textbook example of what should never 
happen at a Federal agency. Unfortunately, the January 26th 
briefing may not be the only example of politicization of the 
Government's premier procurement agency. Inspector General 
Miller will testify today that GSA's Administrator Doan and her 
top staff intervened in a contract with SUN Microsystems to 
reverse the judgment of three career contract officers. 
According to the Inspector General, the Administrator's 
personal intervention resulted in a sweetheart deal for SUN 
Microsystems that will cost taxpayers tens of millions of 
dollars.
    I want to read one sentence about the SUN contract from the 
Inspector General's testimony. ``As a direct consequence of her 
intervention and in breach of GSA's fiduciary duty to the U.S. 
taxpayers, the pricing concessions made to SUN means that the 
U.S. taxpayers will inevitably pay more than they should.''
    That is a remarkable finding, but it appears to be 
corroborated by evidence received by our committee, including 
the statements of contracting officers involved in the 
negotiations.
    Perhaps even more disturbing, the information we received 
appears to directly contradict statements that Ms. Doan made to 
Senate Grassley about her involvement in the SUN contract. Ms. 
Doan wrote Senator Grassley that, ``I had no knowledge of the 
negotiations or basis for decisions made regarding this 
contract.'' But, as will become apparent today, there is a 
written record documenting Ms. Doan's personal involvement in 
reversing the position of career contracting officials.
    A third issue we will explore is the no-bid contract that 
Ms. Doan gave to her former business associate and friend, Edie 
Fraser. According to the Inspector General, this is a serious 
violation. In his testimony he states, ``We are talking about 
the violation of a key contracting principle: promoting open 
competition and avoiding any appearance of personal favoritism 
in awarding Government business, by the leader of Government's 
premier civilian contracting agency.''
    On this issue, too, there is a troubling question about Ms. 
Doan's candor. The Inspector General found, ``The record paints 
quite a different picture than what Administrator Doan told the 
OIG investigators.''
    In our own investigation, we also found striking 
discrepancies between the assertions of Ms. Doan and the 
evidence we gathered.
    Well, there are a number of documents that I would like to 
make part of this hearing record. These documents include the 
White House PowerPoint presentation, the briefing memo prepared 
by the staff, the documents cited in the briefing memos, the 
transcripts and depositions the committee has received, the 
audit and investigative reports provided to the committee by 
the Inspector General, and the documents that Members will be 
referring to today in their questioning. Without objection, 
they will be made part of the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 40153.001
    
    [GRAPHIC] [TIFF OMITTED] 40153.002
    
    [GRAPHIC] [TIFF OMITTED] 40153.003
    
    [GRAPHIC] [TIFF OMITTED] 40153.004
    
    [GRAPHIC] [TIFF OMITTED] 40153.005
    
    [GRAPHIC] [TIFF OMITTED] 40153.006
    
    [GRAPHIC] [TIFF OMITTED] 40153.007
    
    [GRAPHIC] [TIFF OMITTED] 40153.008
    
    [GRAPHIC] [TIFF OMITTED] 40153.009
    
    [GRAPHIC] [TIFF OMITTED] 40153.010
    
    [GRAPHIC] [TIFF OMITTED] 40153.011
    
    [GRAPHIC] [TIFF OMITTED] 40153.012
    
    [GRAPHIC] [TIFF OMITTED] 40153.013
    
    [GRAPHIC] [TIFF OMITTED] 40153.014
    
    [GRAPHIC] [TIFF OMITTED] 40153.015
    
    [GRAPHIC] [TIFF OMITTED] 40153.016
    
    [GRAPHIC] [TIFF OMITTED] 40153.017
    
    [GRAPHIC] [TIFF OMITTED] 40153.018
    
    [GRAPHIC] [TIFF OMITTED] 40153.019
    
    [GRAPHIC] [TIFF OMITTED] 40153.020
    
    [GRAPHIC] [TIFF OMITTED] 40153.021
    
    [GRAPHIC] [TIFF OMITTED] 40153.022
    
    [GRAPHIC] [TIFF OMITTED] 40153.023
    
    [GRAPHIC] [TIFF OMITTED] 40153.024
    
    [GRAPHIC] [TIFF OMITTED] 40153.025
    
    [GRAPHIC] [TIFF OMITTED] 40153.026
    
    [GRAPHIC] [TIFF OMITTED] 40153.027
    
    [GRAPHIC] [TIFF OMITTED] 40153.028
    
    [GRAPHIC] [TIFF OMITTED] 40153.029
    
    [GRAPHIC] [TIFF OMITTED] 40153.030
    
    [GRAPHIC] [TIFF OMITTED] 40153.031
    
    [GRAPHIC] [TIFF OMITTED] 40153.032
    
    [GRAPHIC] [TIFF OMITTED] 40153.033
    
    [GRAPHIC] [TIFF OMITTED] 40153.034
    
    [GRAPHIC] [TIFF OMITTED] 40153.035
    
    [GRAPHIC] [TIFF OMITTED] 40153.036
    
    [GRAPHIC] [TIFF OMITTED] 40153.037
    
    [GRAPHIC] [TIFF OMITTED] 40153.038
    
    [GRAPHIC] [TIFF OMITTED] 40153.039
    
    [GRAPHIC] [TIFF OMITTED] 40153.040
    
    [GRAPHIC] [TIFF OMITTED] 40153.041
    
    [GRAPHIC] [TIFF OMITTED] 40153.042
    
    [GRAPHIC] [TIFF OMITTED] 40153.043
    
    [GRAPHIC] [TIFF OMITTED] 40153.044
    
    [GRAPHIC] [TIFF OMITTED] 40153.045
    
    [GRAPHIC] [TIFF OMITTED] 40153.046
    
    [GRAPHIC] [TIFF OMITTED] 40153.047
    
    [GRAPHIC] [TIFF OMITTED] 40153.048
    
    [GRAPHIC] [TIFF OMITTED] 40153.049
    
    [GRAPHIC] [TIFF OMITTED] 40153.050
    
    [GRAPHIC] [TIFF OMITTED] 40153.051
    
    [GRAPHIC] [TIFF OMITTED] 40153.052
    
    [GRAPHIC] [TIFF OMITTED] 40153.053
    
    [GRAPHIC] [TIFF OMITTED] 40153.054
    
    [GRAPHIC] [TIFF OMITTED] 40153.055
    
    [GRAPHIC] [TIFF OMITTED] 40153.056
    
    [GRAPHIC] [TIFF OMITTED] 40153.057
    
    Chairman Waxman. There is a common thread that ties 
together the allegations we will be exploring today. There are 
basic rules that are supposed to apply to Federal officials. 
You can't engage in partisan politics while you are on 
Government time. You can't give no-bid contracts to your 
friends and business partners. And you should put the taxpayers 
first when negotiating contracts.
    The question the committee needs to examine is whether Ms. 
Doan and her team at GSA violated these bedrock principles. 
Americans want a Government that works. They don't want basic 
Government services politicized and they don't want their tax 
dollars squandered. Today we will have an opportunity to 
explore how well Ms. Doan is meeting these standards at GSA.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]
[GRAPHIC] [TIFF OMITTED] 40153.058

[GRAPHIC] [TIFF OMITTED] 40153.059

[GRAPHIC] [TIFF OMITTED] 40153.060

[GRAPHIC] [TIFF OMITTED] 40153.061

[GRAPHIC] [TIFF OMITTED] 40153.062

[GRAPHIC] [TIFF OMITTED] 40153.063

[GRAPHIC] [TIFF OMITTED] 40153.064

[GRAPHIC] [TIFF OMITTED] 40153.065

    Chairman Waxman. I want to now recognize Mr. Davis for his 
opening statement, and then we will proceed right to the 
witnesses.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    You know how much I respect you and how much I value our 
work together, but your description of this investigation 
brings to mind what Mark Twain said about fraud science--one 
gets such wholesome returns of conjecture out of such a 
trifling investment of fact--for that is what we are dealing 
with today: accusatory conjecture based on the selective and 
biased interpretation of very few facts.
    The title of today's hearing pretty much says it all: 
Allegations of Misconduct at the General Services 
Administration, not facts, not findings, not even credible 
complaints, just allegations picked up from hostile media 
reports based on unvetted sources. We will see at the end of 
the day these allegations will still be, as the dictionary 
defines the term, assertions unsupported and by implication 
regarded as insupportable.
    Sadly, this hearing represents the fullest expression yet 
of the modus operandi adopted by the new majority. Citing 
yesterday's news clips, releasing accusatory conclusory inquiry 
letter, through amplification and repetition of mere 
allegations, seek a conviction in the court of public opinion, 
and call a hearing. First the verdict, then the trial.
    This process renders hollow the promise of collegiality and 
consultation with the minority. Only after the fact are we told 
witnesses have been threatened with subpoenas unless they 
submit coercive, transcribed interviews, never anticipated by 
committee rules. In these non-deposition depositions, the prior 
notice and other procedural protections otherwise due to 
witnesses in the minority can be ignored. Future witnesses be 
advised: when the committee expresses their hope to proceed 
without a subpoena, volunteer for a deposition. That way we 
will all have time to prepare and we will all know how and when 
the transcript can be used to support official committee 
business.
    In this case the committee has expended significant 
resources searching for anything to support their a priori 
conclusions, but they found virtually nothing. We received and 
reviewed over 14,000 pages of documents from the General 
Services Administration. Without consultation with the minority 
staff or the ranking member, the majority staff, largely 
through the threat of subpoena, conducted 14 transcribed 
interviews securing the voluntary attendance of current and 
former GSA officials from as far away as Boston and Denver.
    Two GSA officials flew from Boston to Washington, D.C., for 
interviews regarding the Hatch Act violations. The Boston 
officials were questioned for as little as 30 minutes in one 
instance and 40 in another. No reason was supplied why these 
interviews couldn't take place telephonically. Agency counsel 
was not permitted to be present at these interviews. Personal 
counsel was said to be permitted; however, four witnesses 
stated for the record they were not told they were permitted to 
retain personal counsel for these transcribed interviews. 
Nevertheless, one interviewee did bring personal counsel.
    Not surprisingly, this flawed process has produced an 
equally flawed product. As discussions at length in the staff 
report we are releasing today, the accusations leveled against 
the GSA Administrator, Ms. Lurita Doan, are either flat-out 
wrong or based on a distorted and myopic view of the management 
responsibilities of the head of a major Federal agency.
    I would ask unanimous consent at this point that our 
minority report to our Members be included in the record.
    Chairman Waxman. Without objection, we will put it in the 
record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 40153.066
    
    [GRAPHIC] [TIFF OMITTED] 40153.067
    
    [GRAPHIC] [TIFF OMITTED] 40153.068
    
    [GRAPHIC] [TIFF OMITTED] 40153.069
    
    [GRAPHIC] [TIFF OMITTED] 40153.070
    
    [GRAPHIC] [TIFF OMITTED] 40153.071
    
    [GRAPHIC] [TIFF OMITTED] 40153.072
    
    [GRAPHIC] [TIFF OMITTED] 40153.073
    
    [GRAPHIC] [TIFF OMITTED] 40153.074
    
    [GRAPHIC] [TIFF OMITTED] 40153.075
    
    [GRAPHIC] [TIFF OMITTED] 40153.076
    
    [GRAPHIC] [TIFF OMITTED] 40153.077
    
    [GRAPHIC] [TIFF OMITTED] 40153.078
    
    [GRAPHIC] [TIFF OMITTED] 40153.079
    
    [GRAPHIC] [TIFF OMITTED] 40153.080
    
    [GRAPHIC] [TIFF OMITTED] 40153.081
    
    [GRAPHIC] [TIFF OMITTED] 40153.082
    
    [GRAPHIC] [TIFF OMITTED] 40153.083
    
    [GRAPHIC] [TIFF OMITTED] 40153.084
    
    [GRAPHIC] [TIFF OMITTED] 40153.085
    
    [GRAPHIC] [TIFF OMITTED] 40153.086
    
    [GRAPHIC] [TIFF OMITTED] 40153.087
    
    [GRAPHIC] [TIFF OMITTED] 40153.088
    
    [GRAPHIC] [TIFF OMITTED] 40153.089
    
    [GRAPHIC] [TIFF OMITTED] 40153.090
    
    [GRAPHIC] [TIFF OMITTED] 40153.091
    
    [GRAPHIC] [TIFF OMITTED] 40153.092
    
    [GRAPHIC] [TIFF OMITTED] 40153.093
    
    [GRAPHIC] [TIFF OMITTED] 40153.094
    
    [GRAPHIC] [TIFF OMITTED] 40153.095
    
    [GRAPHIC] [TIFF OMITTED] 40153.096
    
    [GRAPHIC] [TIFF OMITTED] 40153.097
    
    [GRAPHIC] [TIFF OMITTED] 40153.098
    
    [GRAPHIC] [TIFF OMITTED] 40153.099
    
    [GRAPHIC] [TIFF OMITTED] 40153.100
    
    [GRAPHIC] [TIFF OMITTED] 40153.101
    
    [GRAPHIC] [TIFF OMITTED] 40153.102
    
    [GRAPHIC] [TIFF OMITTED] 40153.103
    
    Mr. Davis of Virginia. Lurita Doan is a talented, motivated 
professional. Born in New Orleans, she was one of the first 
African American children to integrate the city's private 
schools. She was only 7. That first day, she was knocked down, 
kicked, and hit with a brick, but she persisted. She earned her 
undergraduate degree from Vassar and a master's degree in 
renaissance literature from the University of Tennessee 
Knoxville. A self-described unabashed entrepreneur, she started 
a successful technology business, which she sold before 
entering public service. She and her husband of 22 years have 
two daughters.
    Perhaps the saddest, most reprehensible aspect of this 
defective oversight was the attempt to drag one of Ms. Doan's 
daughters into the web of circumstances being spun to ensnare 
her mother. That a business friend of Ms. Doan provided her 
daughter a reference for an unpaid Capital Hill internship 
application is offered as evidence to support alleged 
misconduct in dealings between two professional women years 
later. It is as implausible as it is inappropriate. Even the IG 
report refers to that. It is just sad, and it shows how low 
this has gone.
    The breathlessly described no-bid contract hardly turned 
out to be the elaborate scheme to enrich an acquaintance, 
alleged by the majority. We found only that Administrator Doan 
wanted very much to acquire a study of GSA's use of small 
businesses, particularly those owned by minorities and women. 
It is a topic about which she knows much and cares deeply. She 
was understandably embarrassed and dismayed that the agency she 
just took over had received an F from the Small Business 
Administration for small and minority business utilization.
    She was determined to improve GSA's image and score. The 
evidence supports the conclusion her motives were clear, if her 
methods a bit over-zealous. She wanted to engage the services 
of a well-regarded diversity consulting firm, Diversity Best 
Practices, to help fix the problem. The Administrator 
erroneously believed that she had the authority to acquire 
these services for $20,000 on an expedited sole source basis. 
When she learned otherwise, the arrangement was called off. No 
work was ever performed. No money changed hands.
    She has expressed regret that it happened, but continues, 
as is her way, to advocate forcefully to improve GSA outreach 
to small minority and women-owned businesses.
    With regard to the contract extension to SUN Microsystems, 
there is simply no evidence to support the allegation that Ms. 
Doan acted improperly. Ms. Doan never spoke to or pressured any 
of the contracting officers to exercise the SUN option. In the 
end, the contract extension terms were judged by the 
contracting officer to be fair and reasonable.
    Similarly, there is no evidence to support the allegation 
that she intervened in the suspension and debarment process. 
She merely asked her chief of staff for a briefing on a manner 
which could have resulted in a Government-wide prohibition 
against awarding any contracts to most of the major national 
accounting firms. Can you imagine debarring the big four 
accounting firms from doing business with the Government 
without the Administrator even knowing it? That is the 
alternative. Such an inquiry was ordinary and appropriate. It 
would have been negligent not to be apprised about the 
ramifications of so significant an action.
    I sat up here several months ago when we were going over 
security clearances and the Deputy of OMB said he wasn't 
informed about it and we gave him the devil for not being 
informed on what was going on underneath him. We expect people 
to at least know what is going on beneath them.
    The agency's suspension debarment official stated, ``At no 
time did I receive any direct or indirect instruction or 
comment from the Office of the Administrator.'' He said he 
processed and concluded the matter as directed by the factual 
record, in accordance with the prescribed process.
    Then there is the alleged Hatch Act violations. It appears 
that on January 26, 2007--remember that date--at the conclusion 
of a staff luncheon--this is during lunch--attended by GSA 
political appointees called by the administration--this is not 
Ms. Doan's meeting, this was a meeting called by the 
administration, something they routinely do in Executive 
agencies. Ms. Doan didn't put out the White House political 
affairs order. She just simply attended the meeting. The 
Administrator made an off-hand comment about helping our 
candidates. That comment has somehow been connected to other 
conversations about inviting public officials to GSA building 
dedications, efforts to invite Speaker Pelosi to an event in 
her District, and to include Senator Mel Martinez in a similar 
event in his home State of Florida are anecdotally relayed, not 
that she said anything, relayed as evidence of prohibited 
partisan activity on Federal property. Such comments may be 
impolitic, but several factual realities defeat the effort to 
make them evidence of unlawful political activities.
    What candidates? What election? In January of this year, 
neither Representative Pelosi nor Senator Martinez was a 
candidate for any public office. No other candidates are 
mentioned. Based on the evidence before us, the only politics 
at GSA appear to be intramural, and it is a tough sport.
    Administrator Doan has had some disagreements with the GSA 
Inspector General. She thought him needlessly adversarial in 
assessing the inevitability of the subject of judgments of 
contract officers. That, it seems, is where her problems began. 
The IG, a former Federal prosecutor, takes issue, often 
publicly, with current GSA leadership on the reach and role of 
his office. That is his right. But the statement provided to 
the committee by the IG for today's hearing is an extraordinary 
narrative. Apparently, hell hath no fury like an IG scorned. 
Rather than audit results or investigative findings, he brings 
us anecdotes, conjecture, innuendo, and invective to impugn the 
judgment and character of the GSA Administrator.
    His statement mischaracterizes information provided to this 
committee, and it appears his office provided information to 
the majority and others that was not made available to us. We 
will have more than a few questions for the IG today.
    Finally, I want to bring the committee's attention to an e-
mail that was sent last night by Ms. Shana Budd, the GSA 
contract officer who finalized the SUN Microsystems contract 
extension. She takes issue with the majority's attacks on her 
integrity and her work. It is important for Members and the 
public to understand the demoralizing professional and personal 
toll of the investigative tactics being used by the majority in 
this instance.
    This was an unsolicited e-mail. This wasn't under threat of 
subpoena from us. This is an unsolicited e-mail that came in 
last night from a GS-13 career civil servant doing her best for 
the Government. It is the kind of professionals we want to 
serve in Government. Here's what it says.
    ``Pat, have you seen this? My words and sentiments have 
been twisted so badly that it is at the point where they are 
making false statements about what I said. The author of this 
memorandum''--meaning the majority's memorandum--``is 
committing a crime by hand-picking small phrases and comments 
out of the broader context of the interview, which obviously 
destroys the reader's ability to comprehend the true meaning of 
my statements. The author is dramatically twisting my words for 
the purpose of meeting his ends.
    I am astonished. I am dumbfounded. This is destroying my 
well-deserved good name and reputation. It is also attacking my 
ethics, procurement integrity, and business judgment, all of 
which are upstanding and highly regarded. It seems to me I 
would be well served in consulting with a private attorney in 
order to protect the previously mentioned assets which are 
priceless.
    How very, very disturbing that something like this can 
happen in this country that I love and believe in. I am an 
honest citizen and hard-working, talented professional who has 
dedicated my life to civil service in dedication to the 
American people. I possess impeccable procurement integrity and 
excellent business judgment. I remain immensely proud of the 
work I did on the SUN Microsystems contract, because I know 
beyond a shadow of a doubt that every action I took was in the 
best interest of the Government and the American taxpayers, of 
which I am one.
    To think that actual Congresspeople would level these 
charges against me brings tears to my eyes and a squeeze to my 
heart. It is shattering my image of the American electorate as 
people who stand up for what is right, do the right thing, and 
most certainly protect honest, conscientious public servants. I 
lived in northern Virginia for many years, and the U.S. Capital 
was always my favorite place to take visitors. I love what I 
thought I stood for. Now I don't know what I will think next 
time I see it. Who would have thought that doing my job, going 
the extra mile, and taking a stand for what is right would lead 
to this?
    I am honored and proud to serve my Country in the capacity 
of contracting officer. I am proud of the warrant that hangs on 
my wall. And I am supremely confident that I perform my job 
with utmost integrity in an honorable, truthful, level-headed, 
sensible, quality oriented, professional manner that serves the 
public very well. This is unjust and unfair.
    How ironic that the very people who are accusing me of 
having poor integrity are, themselves, the ones who possess 
poor integrity. I believe that there is a term for this very 
behavior used by mental health professionals. It is called 
psychology projection. The encyclopedia describes it as 
follows: psychology projection or projection bias is a defense 
mechanism in which one attributes, projects to others, one's 
own unacceptable or unwanted thoughts and/or notions.
    Projections reduce anxiety by allowing the expression of 
the unwanted subconscious impulses and desires without letting 
the ego recognize them, and it is time for the congressional 
committee to do its job right, and they can start by not 
attacking good people. I will not just sit back and accept 
these unjust and undeserved insults. I will fight this to the 
bitter end for myself and for every average, honest American 
citizen. Shana Budd, Contracting Officer, GSA Region 8, Denver 
Federal Center.''
    And let me just add we got her permission to read this into 
the record. She is not a schedule C; she is a career 
professional.
    I look forward to today's hearing and asking Administrator 
Doan to allow to clear her name and reputation, as well.
    Thank you.
    [The prepared statement of Hon. Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 40153.104
    
    [GRAPHIC] [TIFF OMITTED] 40153.105
    
    [GRAPHIC] [TIFF OMITTED] 40153.106
    
    Chairman Waxman. Thank you very much, Mr. Davis. We will 
let the facts speak for themselves.
    I do want to point out that Shana Budd's testimony in her 
interview will be made public and people can see what she said 
in that interview and then judge whether her comments in the e-
mail are justified.
    Let me also just point out two other procedural things, 
without getting into the facts. One, we issued no subpoenas. If 
people came and volunteered to talk to us because they knew we 
might issue subpoenas, well, that is just the way it works, but 
we did not issue any subpoenas. Second, the Republican staffs 
were present at every interview, so keep that in mind, as well.
    We are pleased now to have with us Senator Grassley.
    We are delighted that you took the time to come from the 
other side of the Capitol because of your involvement in this 
issue, and we welcome you here today. We are eager to hear what 
you have to say about the matter, because I know you have been 
involved in this question far longer than any of us.
    Mr. Mica. Mr. Chairman, just a point before we get to 
Senator Grassley, are we doing opening statements?
    Chairman Waxman. No, we are not going to do opening 
statements. We have the witnesses, and then we will proceed 
right to the questions.
    Mr. Mica. So there will be no opportunity for any of the 
Members to comment?
    Chairman Waxman. That is correct, until they get to their 5 
minutes.
    Mr. Mica. Well, I would like an exception to that. I am the 
ranking member of Transportation and Infrastructure Committee, 
and we have responsibility, legislative responsibility, over 
GSA, and we have also worked on this particular issue, since 
you have raised the point, and I would like time for an opening 
statement. I would be glad to defer first to the Senator, but 
we have spent a lot of my personal time and staff time to 
investigate this matter.
    Chairman Waxman. I certainly will want to----
    Mr. Davis of Virginia. Mr. Chairman, the general rule of 
the committee, as I understand it, is that Members get opening 
statements. In this case, I would ask that we follow the rules 
of the committee and allow Mr. Mica to make an opening 
statement.
    Chairman Waxman. Well, Senator Grassley does have a time 
schedule. Would you allow him to go first and then you make 
your statement?
    Mr. Mica. Yes, I think that would be fine. Thank you.
    Chairman Waxman. Senator, we are pleased to have you.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. I thank the members of this committee for 
their commitment to oversight, one of our most sacred 
responsibilities as a Congress. Today's hearing, focusing on a 
number of issues related to decisions of GSA and other senior 
officials, and ultimately their impact on the American 
taxpayer.
    My concerns began last year, when I learned that the 
relationship between GSA Inspector General Mr. Brian Miller and 
GSA Administrator Ms. Doan was strained and deteriorating. I 
hope you know that I had a long history of looking into 
wasteful Government spending and the very important role that 
is played by Inspectors General, and I hope that you understand 
that it doesn't matter to me whether we have a Republican or 
Democrat administration, I try to do the job of oversight 
equally the same.
    I believe that the IG in any agency is our first and main 
line of defense against waste, fraud, and abuse of taxpayers' 
money and misconduct by Government officials. The IGs, quite 
simply, are watchdogs, and I have been and will continue to 
watch the watchdogs. It is incumbent on Congress to ensure that 
the IGs are doing their job, that they have the resources to do 
their job, and that there is no undue interference with an IG's 
ability to do his/her mission.
    Currently, GSA holds contracts with thousands of 
contractors worth billions. Someone has to ensure that these 
contracts yield the best deal possible, and that contractors 
involved honor all terms of each contract. In the GSA, this is 
a team effort involving GSA contract officials and the IG. This 
is a delicate balance, but one that has proven to work, proven 
by millions and millions of dollars of savings.
    When I learned that the relationship between GSA 
Administrator and the IG was becoming more and more strained, I 
decided to get to the bottom, and I am not pleased with what I 
found. I can certainly accept that agency heads and their IGs 
may not always see eye to eye; however, I cannot accept any 
move by an agency head to undermine the independence of the IG. 
That independence is the heart and soul of the IG Act. It is 
what allows the IG to present objective findings in their 
investigative reports.
    When it was brought to my attention that the Administrator 
intended to remove the reimbursable fundings that the GSA IG 
depends on for audits of contracts in their pre-award phase, I 
immediately looked into the impact that it would have on the 
Inspector General's work. In the end, the money for the 
reimbursable audits was restored in fiscal year 2007, but the 
entire situation provided insight into the flawed budgeting 
concept that has the unintended effect of encroaching on the 
independence of the IG.
    So on February 23, 2007, I asked the Senate Appropriations 
Committee to fix the problem by providing a direct 
appropriation for GSA IG's pre-award audits. The reimbursable 
audits cost the GSA only $5 million per year, but have been 
responsible for saving more than $2 billion in the last 2 
years, alone. I think $10 billion (sic) in and $20 billion out 
sounds like a pretty good deal.
    I have asked Administrator Doan about her relationship with 
the IG, and she has assured me that she understands and accepts 
the importance and necessity of the IG's independence. She says 
that she is trying to bring fiscal discipline to the entire 
agency, including the Office of IG. I accept that, because that 
is a worthy goal. But, despite her assurances to the contrary, 
though, her actions and words have not convinced me that she is 
committed to utilizing the GSA Office of the Inspector General 
to its maximum potential, as intended in the law.
    She has indicated privately and publicly that the IG has 
been heavy handed in dealing with GSA employees. She has even 
suggested that the IG officials have intimidated other GSA 
employees and contractors. These are very serious allegations 
against Federal law enforcement officers and accredited 
auditors, and if true they deserve the highest level of 
investigation by both Congress and the executive branch.
    Despite numerous attempts to get details, though, on these 
allegations from the Administrator, I have received nothing but 
innuendos and unspecified allegations.
    During the course of my investigation I discovered that 
there was one specific allegation relating to a contract 
involving Government vendor SUN Microsystems. The GSA IG 
conducted a very thorough investigation of the matter and could 
find no one in the GSA's regional office that felt intimidated 
by IG officials. However, during the course of that 
investigation I did learn some very interesting facts about 
this particular SUN Microsystems contract which may be the root 
cause of the dispute with the IG.
    The first piece of information that caught my attention was 
this: in spite of repeated warnings by senior GSA officials 
since 2006 that SUN Microsystems had allegedly committed civil 
and/or criminal fraud on two of these contracts, GSA, with 
Administrator Doan's blessing, proceeded to re-award the 
contract to SUN on September 8, 2006, with no conditions, 
strings, or precautions regarding alleged fraud.
    The IG began post-award audits of these contracts over 2 
years ago. Those audits were finally completed yesterday. The 
scope of the alleged fraud has been established and verified. 
The allegations of fraud by SUN will now be referred to the 
Department of Justice for further consideration.
    By August 2006, several GSA contracting officials, all the 
way up to the Administrator, were fully knowledgeable about the 
alleged fraud, yet none took appropriate corrective action to 
address alleged fraud. Why? Well, the alleged fraud on these 
contracts involving defective pricing, unauthorized charges, 
unpaid discounts is valued at $10 million. Even SUN 
Microsystems had admitted to GSA that they had been negligent 
in providing proper pricing and discount information to GSA. 
SUN has provided a corrective action plan to prevent this from 
happening in the future. Whether this corrective action plan is 
effective remains to be seen, but that doesn't wipe out years 
of negligence by this Government contractor.
    The second piece of information that concerned me was that 
this new SUN contract, which will go through 2009, was 
negotiated on terms that are extremely unfavorable to the 
Government. The terms were so unfavorable, in fact, that, 
immediately upon signing, taxpayers lost millions of dollars 
due to improper discounting and pricing calculations. The lost 
savings could be as high as $20 to $30 million, based upon IG 
investigation.
    This was the very same issue that the GSA IG was 
investigating before the contract was renewed. It seems that 
everyone involved--the IG, the contracting officer, senior GSA 
officials--was aware that the new contract was bad for the GSA, 
bad for Government, and, of course, bad for the taxpayers.
    GSA's first response to the allegations of fraud developed 
by the IG was to grant another in a long line of contract 
extensions to SUN on August 30, 2006. This brought a little 
time. Then a new contracting officer was installed on August 
31st, a contracting officer with no previous experience with 
this very complicated contract.
    Finally, on September 8th, just 8 days later, GSA awarded 
the contract to SUN, this contract that is even worse for the 
Government than the one previously negotiated over the past 
year by the two previous contract officers, both of whom were 
replaced between February and August 2006.
    To make matters worse, the Administrator told me in a 
letter dated March 13, 2007, that she was made aware of the 
potential criminal fraud by SUN on August 29, 2006, which was 2 
days before the new contract officer was appointed and 9 days 
before the new contract was awarded.
    After the IG informed her of the alleged fraud on SUN 
contract, she reportedly told the IG, ``It is essential for GSA 
to sign the contract with SUN.'' That was on August 29th. Two 
days later, Federal Acquisition Service Commissioner Williams 
told the contract officer that he and Administrator Doan, 
``Considered the SUN contract strategically important and 
wanted it awarded.''
    What is even more shocking is that the FSA staff, the arm 
of the General Services Administration responsible for 
negotiating this contract, were made aware of SUN's alleged 
fraud as early as February 12, 2006, and possibly earlier, at 
least 7 months before the contract was awarded.
    What was the rationale for going ahead with this contract? 
Was it GSA's fear of losing the contract to another agency like 
NASA? Was it the loss of income from the fees, or simply a 
desire to continue doing business with this contractor for some 
other still unknown reason?
    Hopefully continued investigation such as this hearing 
today will eventually reveal what went wrong and answer these 
questions.
    I want to close by making a very important point. It was 
teamwork of the IG and the contracting officials that uncovered 
both the potential fraud and the problems with the new 
contract, and it was the IG Brian Miller's outstanding 
leadership that created an environment where these good things 
could happen. Yet, despite their very best efforts, their 
warnings fell upon deaf ears at the highest levels of GSA. The 
message this sends to Government contractors is very clear: it 
doesn't matter how poorly you manage the Government's money or 
how badly you violate the Government's contract, the doors of 
the U.S. Treasury are wide open. Help yourself to what is in 
the coffers. Take what you need. GSA will do business with you 
on your terms.
    So, Mr. Chairman, let me make one point crystal clear, 
including my duties. The Government coffers are not open. We 
are watching the activities of Government contractors, senior 
agency officials. The perpetuation of fraud and violation of 
law should not be tolerated, period.
    There are systems in place to prevent this, like the IG Act 
and what you are doing here, congressional oversight. When 
money is lost due to a flawed contract, negligence, or fraud, 
we must remember that money is not the GSA's, it is not 
Congress' money, that it is money out of the pockets of hard-
working American taxpayers, and among our most important 
responsibilities is to ensure that it is spent responsibly, 
wisely, and according to law.
    If fraud occurred on this contract and SUN owes the 
taxpayers money, as the IG reports, then the money must be 
recovered, those responsible must be held accountable.
    Thank you.
    Chairman Waxman. Thank you very much, Senator Grassley. I 
appreciate your being here. You have been legendary as an 
advocate, and also for your tenacity in looking out for the 
taxpayers of this country, and I appreciate your insights into 
this issue.
    I know you have to go, so what we are going to do is Mr. 
Davis has a few questions, I have a few questions, and then we 
are going to excuse you.
    Senator Grassley. OK.
    Chairman Waxman. Mr. Davis.
    Mr. Davis of Virginia. Senator, I appreciate your being 
here. I, too, as the chairman of this committee, we would go 
where the facts took us, and Mr. Waxman and I together went 
after the administration when we thought they were wrong and 
defend them when we think they are right. We all want savings. 
And Ms. Doan is a big girl. She can take care of herself on the 
questions to follow to explain her role in this.
    There is no evidence that she negotiated directly with SUN 
Microsystems that you can find, is there? You don't have any 
evidence that she negotiated directly with SUN Microsystems, do 
you, Senator?
    Senator Grassley. What I have evidence of is that there was 
questions raised about alleged fraud over a long period of time 
that should have been taken into consideration by anybody doing 
business with this company.
    Mr. Davis of Virginia. Right, but you don't have any 
evidence that she negotiated with----
    Senator Grassley. At this point everything is alleged.
    Mr. Davis of Virginia. Right. I think she can answer these 
questions.
    I would just add that I spent my career before I came here 
as a Government contracts attorney. In most agencies the IG 
doesn't do the pre-audit report. This is done by the 
contracting auditors or the DCAA. This is kind of the exception 
to the rule where the IG does. But let me just say this. Let's 
assume that GSA allowed this SUN scheduled contract to lapse. 
Let's just assume for a second we have reached an impasse, they 
have been through three contracting officers. If the contract 
lapsed, what would happen then to agencies that require needs 
for SUN products to purchase them under individual 
acquisitions? If they are not on the GSA schedule and an agency 
needs it, how do they get it?
    Senator Grassley. I'm not doing the business of GSA, but it 
seems to me when there are questions about fraud that come up 
that if there was a necessity to go 1 more day or 2 more days 
or 10 more days to keep Government functioning, that you would 
do it with complete openness, that there is very much questions 
involved.
    Mr. Davis of Virginia. I agree with you. Well, Senator, the 
only thing I would note here is this had gone on for weeks and 
months with extensions that were far more costly to taxpayers 
than getting this resolved. And also, getting it on the 
schedule is just a license to hunt. Once you are on a schedule 
doesn't guarantee you one, correct. That is why it is so 
difficult to understand, for people to make these statements 
about it costing millions of dollars.
    What happens, as I understand the process, is ordering 
agencies--in this case, it is a license to hunt. You are on the 
GSA schedule, but for an agency to then buy your product they 
have to compete it off the schedule against competing 
companies, who also have to negotiate their prices, and the 
price that was negotiated here is just kind of a starting 
place. They generally go down from there, and that makes it 
difficult to measure.
    But I think you are right that we need to take a look at 
this, and when agencies negotiate these things it should be 
subject to congressional oversight. We look forward to, I 
think, a robust conversation about that today, and I'm sure the 
Administrator can tell you what her thought process was, as the 
policymaker. As you know, IGs' roles aren't to make policy, 
they are to make audit recommendations.
    Senator Grassley. You have to remember that in Government 
contracts it is a little bit different than in a commercial----
    Mr. Davis of Virginia. Very different.
    Senator Grassley. The people who want to do business with 
the Federal Government have responsibility to make more 
information available to the Government.
    Mr. Davis of Virginia. Absolutely.
    Senator Grassley. And you would expect that any deal that 
the American Government gets would be, if nothing more than 
reason because of quantity, we would get a better deal than 
they give to the commercial side.
    Mr. Davis of Virginia. Senator, I am not sure that is 
always true. For example, in Medicare prescription drug prices 
I'm not sure that Government would get a better deal than you 
get off of some of these larger buying agencies. I think you 
would agree with me on that. But, aside from that, let's look 
at this. I appreciate your bringing it to our attention.
    What I think the evidence will show today is that you had 
an impasse. It had been through three contracting officers, and 
if they went off the schedule, the Government was going to get 
its product somewhere. I think they can defend or not the 
merits of this, but I think the evidence will show that Ms. 
Doan didn't negotiate a thing in this case. She simply said we 
have an impasse, let's try to resolve it, and both sides at one 
point switched their contracting negotiators.
    Thank you.
    Senator Grassley. Well, in regard to drugs, the Government 
might get a better deal, but our senior citizens only have the 
choice of 25 percent of the drugs that they otherwise have 
under the plan we have right now.
    Mr. Davis of Virginia. Senator, it is the same problem 
here. If you don't get a deal here, and SUN Microsystems isn't 
on the GSA schedules, and the Government has a need for those 
products, you go out into the marketplace and you pay a lot 
more.
    Senator Grassley. Are you done with me?
    Chairman Waxman. No, Senator, I want to ask you a few 
questions.
    Senator Grassley. Yes, I'm glad to answer your questions.
    Chairman Waxman. It seems that what GSA is supposed to do 
is go out and negotiate fair and reasonable prices for other 
Government agencies to get the services or products that they 
might use in their Government activities. We are going to go 
into this issue more in detail, but, from my understanding, GSA 
had a contractor, SUN Microsystems. SUN Microsystems was giving 
a lower price to their commercial customers and then would turn 
around and charge the Government more for the same services, 
which was contrary to GSA rules.
    So when they negotiated the contract and renegotiated the 
contract they said you can't do that, and they went through a 
long period of time of extensions. What they needed to do, if 
they couldn't get their contractor, SUN Microsystems, to give 
the best price to the Government, they needed to look for 
somebody else. But we will go into that more in detail.
    What I want to ask you is you have been looking at this 
issue, and you asked Ms. Doan for her comments, and now you 
have seen what she had to say to you. You have looked at the 
documents and the e-mails from Ms. Doan. Do you think that this 
raises any question, after you reviewed all this matter, about 
the accuracy of the assertions that Ms. Doan made to you in the 
letter to you?
    Senator Grassley. I think it is typical of too many letters 
I get back from various agencies of Government, including this 
one, and this is an example of what I am talking about, so I am 
in agreement with you that we need more information and have 
not been entirely candid. But there is an institutional disease 
in bureaucracy under Republicans or Democrats that you have 
always got to pull teeth to get answers to your questions.
    Chairman Waxman. That is true enough, and that is why I 
think Congress has to do its oversight responsibility. Do you 
think this is a worthwhile activity for an oversight committee?
    Senator Grassley. Listen, you wouldn't be doing your 
constitutional job upholding your oath if you weren't doing 
what you are doing today and do more of it.
    Chairman Waxman. And let me ask you this question: who 
appointed Ms. Doan and who appointed the Inspector General for 
her agency?
    Senator Grassley. Listen, the buck stops at the Oval 
Office.
    Chairman Waxman. So both were appointed by the same 
President?
    Senator Grassley. Yes. And I want you----
    Chairman Waxman. And they are having a disagreement because 
the Inspector General, in pursuing his job of watching over 
this agency, has pointed out that he thinks they have given 
contracts where the taxpayers are paying more money than they 
should?
    Senator Grassley. Yes.
    Chairman Waxman. Well, we will go into it with them, 
because we will have them both here, but it just strikes me 
that when the Republicans say this is partisan and unnecessary 
and unfair, I am pleased to have you here to say that this is 
the kind of thing that we ought to be doing, watching out for 
the taxpayers.
    Senator Grassley. I want you to know that Inspector 
Generals are in the first line. They should be very, very 
independent. They ought to probably have more independence than 
the present law gives them.
    I have been involved in the firing and resignations of IGs 
that haven't been doing their job, at least five, and, you 
know, they help us to do our constitutional job of oversight. 
Your job, my job would be much more difficult if we didn't have 
Inspector Generals.
    Chairman Waxman. Thank you. I certainly agree with you. 
Thank you very much for being here. We know you have a busy 
schedule.
    I would like to ask the Members, by unanimous consent, even 
though we were going to have opening statements only by the 
ranking member and myself, that we allow Mr. Mica to give an 
opening statement, and then we will proceed to the witnesses. 
Does that meet everybody's agreement?
    [No response.]
    Chairman Waxman. If so, Mr. Mica, you are going to be 
treated with special courtesy today and we recognize you at 
this time for an opening statement.
    Mr. Mica. Thank you. Having served with Mr. Waxman, for 15 
years, I know he has been around a lot longer in Congress, I 
appreciate that.
    As I did state, I took over the responsibility of ranking 
member of Transportation and Infrastructure. One of our 
subcommittees is Economic Development and Public Buildings, of 
which we have legislative responsibility for GSA. Quite 
frankly, I didn't know the GSA Administrator from Adam's house 
cat several months ago. I might say that, just by way of 
information about myself--and we just heard from Senator 
Grassley--I started out some of my career with the 
responsibility of reviewing local government and then some 
State government operations.
    One of the first things I did was send a local Republican 
official, a county official, helped send him to jail for waste, 
fraud, and abuse, so I don't play those games. If someone is 
abusing their office, I will go after them. Mr. Waxman and I 
and Mr. Davis, we have been on the committee and we have done 
that over the years, and I think we have that responsibility in 
the future.
    That being said, I have at least two times questioned the 
Administrator with some of my staff. When I first read some of 
the accounts in the Washington Post, I guess, that printed this 
story about a no-bid contract, I, too, became concerned. So I 
started looking at this and talked to her. I didn't know much 
about her. I found out she was a professional businesswoman who 
had great experience. I thought, my god, she is giving some 
kind of a favor and a bid to a company she dealt with in the 
private sector. This looks like some sort of a payback.
    Then I was absolutely stunned when I found out that she had 
not received any money from the company, this diversity 
company, that, in fact, she had paid $400,000 for contracts and 
this company, in fact, had a good reputation in looking at 
diversity issues, and she had conducted some of that in the 
private sector, so I was sort of stunned by what I found.
    Then I found out that GSA, and not knowing much about GSA 
because I hadn't been responsible for oversight in this area, 
was actually about to get or had gotten an F grade in 
diversity. So here's an agency, and she is a minority 
Republican appointee who comes into an agency and finds an 
agency that is getting an F grade in its performance relating 
to racial diversity in the Department.
    I think her biggest mistake at this point is trying to 
think she could do something like she did in the private 
sector, is move something forward to correct the situation. 
Having already contracted in the private sector with someone 
who did a good job on diversity questions, she tries to get a 
contract to avoid an upcoming again analysis and review of the 
agency's poor performance.
    So I looked at that and I thought there is nothing here. I 
mean, in fact, she should probably be applauded for trying to 
come into an agency that has a horrible reputation on diversity 
and racial questions of employment in the agency, and as a 
minority appointee trying to do something about it.
    So then I thought, well, I heard a little bit about the 
partisan politics, possible violation of the Hatch Act. I 
thought, well damn, me and Henry, we have her on this one. Then 
I find out that actually she didn't even initiate the 
conference. I thought, well, maybe she did this before the 
election. Then I went back to see when was she appointed. She 
was appointed in June of last year. July, August, September, 
October, November, December, January, February. Here we are in 
February, so she has been an 8-month appointee. Was she trying 
to influence the election in the fall? This actually took place 
January 28th, I think the date was, the end of January, in a 
conference call not initiated by her. So strike out No. 2.
    Then we get to the SUN contract. Ohio, we have her this 
time because she was involved in knowing all about the SUN 
contract.
    Here's the dates on the SUN contract. Negotiation with SUN 
started, the first and second contract extensions were executed 
by Robert Overly over a period of 7 months. A second contract 
extension was granted to expire February 2005. Well, where the 
hell is Ms. Doan? She didn't come in until June, and then the 
dates we just got even from Senator Grassley, she had been on 
the job for 45 days trying to get something done on something 
that had been pending, I understand, for 5 years.
    I have been involved in investigations and reviews on this 
committee for 15 years, and I am telling you this unfortunately 
looks like it is a targeted attempt to go after a minority 
appointee. I find that very offensive in this process.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Mica. Thank you for the time.
    Chairman Waxman. Thank you very much, Mr. Mica. You can 
stay for the rest of the hearing if you want to hear the 
witnesses, but I know you have made up your mind.
    We will now proceed to listen to the two witnesses that 
involve the issues that have been put before us.
    I am very pleased to welcome the Honorable Lurita A. Doan. 
She is the 18th Administrator of the General Services 
Administration. Prior to becoming GSA Administrator in May 
2006, Ms. Doan was the president of New Technology Management, 
Inc., a company she founded in 1990.
    Ms. Doan, we want to welcome you to our hearing today. I 
want to tell you that your prepared statement will be in the 
record in full. We would like to ask, if you would, to try to 
limit your oral presentation to around 5 minutes, but we will 
not be strict on that because it is important that we hear from 
you.
    It is the practice of this committee to put all witnesses 
under oath, and I would like to ask you to stand and please 
raise your right hand to take the oath.
    [Witness sworn.]
    Chairman Waxman. The record will indicate the witness 
answered in the affirmative.
    We are pleased that you are here, and I am going to now 
recognize you for your comments.

 STATEMENTS OF LURITA A. DOAN, ADMINISTRATOR, GENERAL SERVICES 
ADMINISTRATION; AND BRIAN D. MILLER, INSPECTOR GENERAL, GENERAL 
                    SERVICES ADMINISTRATION

                  STATEMENT OF LURITA A. DOAN

    Ms. Doan. Mr. Chairman, Ranking Member Davis, and members 
of the committee, I appreciate the invitation to appear before 
you today to address the matters raised in the March 6th 
invitation.
    This is my first time testifying as Administrator of the 
General Services Administration.
    Mr. Smith Goes to Washington is one of my favorite movies, 
but I have to admit that I never thought that I would be living 
the movie, and yet here I am.
    Thank you for the opportunity to resolve a number of issues 
that have appeared in the media. I welcome this opportunity to 
set the record straight.
    I have submitted a detailed written testimony, but let me 
highlight the key elements. They are: fiscal discipline, 
oversight, and results.
    First, the cost of imposing fiscal discipline. Within hours 
of assuming office this past June, I initiated a line-by-line 
review of the entire GSA budget. We had over $100 million 
deficit for fiscal year 2006. We had flunked our annual audit. 
The revenue from fiscal year 2005 to fiscal year 2006 had 
plunged by over $4 billion. Morale was low, and there was talk 
of mandatory buy-outs.
    I had three goals: eliminate sources of wasteful spending, 
apply oversight equally to all divisions within GSA, achieve 
results by encouraging GSA employees to innovate, improve GSA 
performance, and save taxpayer money. These were priorities I 
had identified in my confirmation hearing.
    We identified and eliminated non-performing programs. We 
hacked unnecessary travel to places like Australia and Kuala 
Lumpur. GSA divisions cut spending by 9 percent, and we didn't 
even have to touch employee salaries. It was with great pride 
that we submitted a budget to OMB with retroactive cuts for 
fiscal year 2006, fiscal year 2007, and even proposed cuts in 
fiscal year 2008.
    GSA employees knew the sources of wasteful spending, and 
they were elated to know that under me there were no sacred 
cows. Today, through the hard work of our GSA team, our morale 
has improved. GSA was recently ranked as one of the top 10 best 
places to work in Federal Government. We have a balanced 
budget. And we got a clean audit.
    I am really proud of the transformational changes made to 
the GSA's schedule process, where we just awarded our first GSA 
schedule within 30 days of the application. Only 10 months ago 
the average time was 157 days.
    The fast reorganization is successfully underway, and GSA 
has turned around and created a positive relationship with the 
Judiciary and the Department of Defense, and these are our two 
biggest customers.
    We did all of this in 10 months. Bold, new leadership was 
what the President wanted, and that is exactly what he got at 
GSA.
    The early fiscal discipline is now yielding improved 
performance, but I am going to tell you change is difficult, 
and not everyone wants to improve. Some cling to the old and 
refuse to cut spending and will do anything to protect 
bureaucratic turf, and this is what happened at GSA. I believe 
the Office of the Inspector General may have been angered by 
any suggestion that their operations could be improved or that 
any spending could be cut.
    I probably should have predicted what followed: 
investigations intended to intimidate were launched, but never 
ended, and the old-fashioned squeeze was on. I refused to 
yield, and I still believe that my actions were right, but I am 
going to tell you I am not a perfect person. I make mistakes, 
and honestly I am probably going to make a few more, but there 
was no wrongdoing.
    In Washington, it seems to me that budgets are fiercely 
protected, but that sometimes these legitimate policy disputes 
cross the line and become personal attacks, and I believe that 
this is what happened to me.
    Mr. Chairman, you do not face the Administrator of GSA but 
the full fury of an absolutely angry Mom when someone from this 
committee alleges that 3 years ago there was some wrongdoing 
involving my then-14-year-old daughter who participated in a 
mandatory, school-wide community service program as an intern 
to Senator Debbie Stabenow 3 years ago, long before I entered 
public office. I am sure you know Senator Stabenow, and I am 
sure you know that she would never do anything that is wrong.
    I know that this attack was probably inserted in the 
invitation by a too-eager staffer who thought that bloodsport 
involving children was acceptable. To that committee staffer 
who thought that attacking one of my kids would be fair game, 
let me tell you directly, shame on you. Shame on you for 
getting so caught up in the give-and-take of politics that you 
lost your sense of decency and fair play and let partisan 
passions overwhelm good judgment. Shame on you for not thinking 
through the terrible and unintended consequences on good people 
everywhere interested in public service.
    You know, like Jimmy Stewart in Mr. Smith I stand here. I 
am going to be honest. I am facing a gazillion allegations, but 
the curious thing is that all of these allegations stem from a 
single source, and all of them became public as a direct result 
of my attempts to impose fiscal discipline throughout GSA.
    I knew that when I moved to restore fiscal discipline and 
bring some sunshine to poor managerial practices that I was 
going to be in for a lot of criticism, but I was surprised by 
the scandal-mongering involving attacks on children, that I now 
have hate mail sent to my home, and am vilified in the national 
media.
    The time to focus on the facts has come and the political 
points that can be scored from trumped-up charges put away. 
When you examine my testimony--and I hope that you will take 
the time to read it. I know it is a little lengthy--I hope that 
you will see that each of these different allegations and 
attacks on my character are groundless, that I did not 
interfere, and that I was simply exercising my right as 
Administrator to know what was going on at the GSA.
    But I think that this hearing is important for two other 
far more important reasons. The first regards wasteful 
spending. I think that what we say and what we do here today 
could set the tone for how other Federal agencies look at 
oversight and accountability and how aggressive they are to be 
in identifying and eliminating specific causes of wasteful 
spending.
    GSA, as far as I know, was the only Federal agency that 
submitted a budget that voluntarily called for retroactive cuts 
to its budget. It took courage to do that, but I fear that if 
it becomes common practice for agency heads to face a never-
ending barrage of personal attacks for doing so, that you can 
be sure that no such effort, it is never going to be made 
again.
    Second, this hearing could possibly, it seems to me, set 
the atmosphere for how we approach the issue of oversight. Much 
of my testimony deals with my determination to extend oversight 
and accountability equally throughout GSA divisions, including 
the Office of the Inspector General. Those of us in Government, 
we have a great opportunity to begin an important dialog that 
has, at its core, two questions: first, is oversight something 
that applies equally to all spending decisions? Or should 
oversight and accountability only be applied to selected 
Government organizations or programs?
    I thank you for this opportunity. I look forward to 
answering your questions. I hope that I will give you a chance 
to get to know me just a little bit better.
    Thank you.
    [The prepared statement of Ms. Doan follows:]
    [GRAPHIC] [TIFF OMITTED] 40153.107
    
    [GRAPHIC] [TIFF OMITTED] 40153.108
    
    [GRAPHIC] [TIFF OMITTED] 40153.109
    
    [GRAPHIC] [TIFF OMITTED] 40153.110
    
    [GRAPHIC] [TIFF OMITTED] 40153.111
    
    [GRAPHIC] [TIFF OMITTED] 40153.112
    
    [GRAPHIC] [TIFF OMITTED] 40153.113
    
    [GRAPHIC] [TIFF OMITTED] 40153.114
    
    [GRAPHIC] [TIFF OMITTED] 40153.115
    
    [GRAPHIC] [TIFF OMITTED] 40153.116
    
    [GRAPHIC] [TIFF OMITTED] 40153.117
    
    [GRAPHIC] [TIFF OMITTED] 40153.118
    
    [GRAPHIC] [TIFF OMITTED] 40153.119
    
    [GRAPHIC] [TIFF OMITTED] 40153.120
    
    [GRAPHIC] [TIFF OMITTED] 40153.121
    
    [GRAPHIC] [TIFF OMITTED] 40153.122
    
    [GRAPHIC] [TIFF OMITTED] 40153.123
    
    [GRAPHIC] [TIFF OMITTED] 40153.124
    
    Chairman Waxman. Thank you, Ms. Doan, for your statement to 
us.
    Without objection, we will now proceed with the chairman 
and the ranking member controlling 15 minutes of time, and I 
yield 5 minutes to the gentleman from Iowa. I was only going to 
yield him 5 minutes, but I will yield 15 minutes to the 
gentleman from Iowa, Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman and Ranking Member 
Davis.
    Good morning.
    Ms. Doan. Good morning.
    Mr. Braley. Let's begin by reviewing what GSA does and what 
its mission is. GSA is a Government agency that manages Federal 
buildings, buys equipment and supplies, and works with other 
agencies to purchase goods and services. As the chairman noted, 
the impact of this service is huge, because the GSA helps 
manage nearly $500 billion in Federal assets.
    According to GSA's Web site, its core mission is to help 
Federal agencies better serve the public by offering at best 
value superior workplaces, expert solutions, acquisition 
services, and management policies.
    I assume you would agree with the mission statement that is 
posted on the Web site?
    Ms. Doan. I do, although I will tell you we are improving 
it, because we are just finishing our new strategic plan.
    Mr. Braley. But I assume that you would agree with it as it 
is currently stated?
    Ms. Doan. Yes.
    Mr. Braley. And do you also agree that the GSA's core 
mission does not include engaging in partisan political 
activity?
    Ms. Doan. I do not think that any Government agency should 
be engaging in partisan political activity.
    Mr. Braley. Let's talk about the meeting that you 
referenced in your opening statement on January 26, 2007. I 
believe most people rightly assume that the GSA's mission is 
not political, just making sure that Government buildings are 
well-built and well-maintained and that Federal employees have 
the resources and supplies they need to do their job. But on 
January 26, 2007 you held a meeting at GSA headquarters that 
raised serious concerns about possible illegal political 
activity, and I want to ask you about that meeting.
    It is our understanding that the meeting occurred at GSA 
headquarters on Government property. We have been told that you 
were there as the highest-ranking GSA official, and your chief 
of staff, John Phelps, was there, as well as dozens of other 
political appointees working at GSA. Overall, there were nearly 
40 Republican political appointees who joined the meeting 
either in person or through a video conference.
    The committee has been told that the reason for this 
meeting was to hear a presentation from Scott Jennings. Scott 
Jennings is Karl Rove's deputy at the White House. He is the 
deputy director of political affairs for President Bush. Is 
that correct so far?
    Ms. Doan. No it is not.
    Mr. Braley. And what was not correct about that statement?
    Ms. Doan. John Phelps did not attend that meeting.
    Mr. Braley. And did not participate by phone?
    Ms. Doan. And did not participate by phone.
    Mr. Braley. And was not involved in any way in the meeting?
    Ms. Doan. To my knowledge, he was not in any way involved 
in the meeting.
    Mr. Braley. The committee has been informed that Mr. 
Jennings gave a PowerPoint presentation at the meeting. Were 
you aware of that?
    Ms. Doan. Yes.
    Mr. Braley. And we have been told that he discussed the 
2006 elections during that presentation. Would you characterize 
his presentation as a purely factual presentation about the 
results of the 2006 election?
    Ms. Doan. I am a little bit embarrassed to admit this, but 
I can say that I honestly don't have a recollection of the 
presentation at all.
    Mr. Braley. Well, I assume that, given your past 
experience, you have sat through PowerPoint presentations 
before?
    Ms. Doan. I have sat through----
    Mr. Braley. And that during PowerPoint presentations, 
information is projected in slides, and usually those slides 
are reviewed by the person making the presentation to reinforce 
verbally the visual images that are displayed on the slides?
    Ms. Doan. Oftentimes they are.
    Mr. Braley. Is that your general understanding of what took 
place on this date?
    Ms. Doan. Yes. I believe that is true. I believe there were 
PowerPoint slides, and I believe Scott Jennings did speak.
    Mr. Braley. The committee has obtained a copy of the 
presentation that Mr. Jennings gave at your office, and I would 
like to ask you about the topics that he discussed with the 
staff. At this time I would ask the staff to put up slide 555, 
which is the first cover slide for the PowerPoint presentation, 
showing that this was prepared by the White House Political 
Office headed by Karl Rove.
    That is what the cover slide says; is that correct?
    Ms. Doan. Yes. I am looking at the one you gave me.
    Mr. Braley. And then let's look at slide 578. This is a 
slide that has at the top 2008 House Targets, Top 20. Do you 
see that?
    Ms. Doan. I do.
    Mr. Braley. And there can be no dispute, from the content 
of this slide, that this slide is depicting Republican targets 
that identify Democratic seats that are vulnerable in 2006. 
Isn't that what it says?
    Ms. Doan. I'm reading. It says House Targets, Top 20.
    Chairman Waxman. It shows 2008.
    Mr. Braley. Yes. And it shows, District by District, the 
individuals, what the percentage of that District was in the 
2004 election and what percentage that particular Democratic 
candidate received in the 2006 election; correct?
    Ms. Doan. Yes. Honestly, I have not seen this chart until 
yesterday. I don't remember. I mean, I really, truly don't 
remember seeing this chart until yesterday, when I tried to dig 
it up, and I have to say I don't know what the explanation was 
that accompanied this. I truly do not remember this part of the 
presentation.
    Mr. Braley. Well, you are familiar with what the word 
target means, right?
    Ms. Doan. I think we could say that I am one right now, 
yes.
    Mr. Braley. Yes. And what this means is that the 
Republicans are trying to target these seats to win them back 
in 2008. That was what was discussed at the presentation.
    Ms. Doan. I appreciate your interpretation of that.
    Chairman Waxman. If the gentleman would yield for 1 minute, 
I just want to verify, did you know that your office supplied 
this chart to us?
    Ms. Doan. Yes, I did, but I did not review the actual data. 
There was different groups that were involved in this, since 
this was not my meeting. I did not convene it. I didn't run the 
agenda of it. I didn't invite Speaker Jennings, Scott Jennings, 
to the meeting. I actually didn't have any involvement in it. 
The group that was involved in that, they prepared that 
submission for you.
    Chairman Waxman. You were just there, though?
    Ms. Doan. I attended the meeting. Yes, I was there.
    Chairman Waxman. OK. Well, I am going to let Mr. Braley 
continue.
    Ms. Doan. Yes.
    Mr. Braley. You would agree that a reasonable 
interpretation of this slide is that it was a political attempt 
to try to target the top 20 Democratic candidates for defeat in 
2008?
    Ms. Doan. No, I would not say that. I would say that this 
is a slide that says 2008 House Targets, Top 20. I do not want 
to try to speculate on what was intended by Mr. Jennings on the 
slide. I really think you have to ask him.
    Mr. Braley. Well, I think reasonable people interpreting 
and viewing this material can probably get a pretty good 
understanding of what Mr. Jennings was doing there.
    The next slide I would like to talk about is slide 579. 
This is a slide that has as a heading, 2008 House GOP Defense. 
Have you seen this slide before?
    Ms. Doan. I saw it yesterday is when I remember. I'm sure I 
probably, possibly saw it during the meeting. I don't remember 
it during our meeting, but honestly, as I said before, I don't 
really remember the PowerPoint presentation very clearly during 
that meeting.
    Mr. Braley. And this slide lists a number of vulnerable 
Republican House seats that are being targeted for protection 
in the 2008 congressional elections; isn't that a reasonable 
conclusion that you can draw from this slide?
    Ms. Doan. Congressman, I will accept your explanation of 
it.
    Mr. Braley. And then, if we look at slide 581, this slide 
has the caption, Battle for the Senate, 2008, and identifies 
potential pickup opportunities, one category described as 
Republican offense listing six States, one category described 
as Republican defense listing eight States, and then listing 
other noncompetitive States. Do you agree that a reasonable 
person interpreting what is contained on this slide could 
conclude that these are targeted Senate seats that the 
Republican White House is trying to protect or pick up?
    Ms. Doan. Senator, I will accept your interpretation of 
this slide. I mean, I'm sorry, Congressman. A promotion.
    Mr. Braley. I am very proud of my title as Congressman, so 
thank you.
    Ms. Doan. Demotion. I'm sorry. I'm not even going to get 
into that, guys.
    Mr. Braley. Can you tell us what, if anything, these slides 
have to do with the GSA's core purpose of procuring supplies 
and managing Federal buildings?
    Ms. Doan. This brown bag luncheon I believe has been 
mischaracterized. This is a meeting that is a team-building 
meeting that is hosted by our White House liaison, a GSA 
employee, a non-career employee, and it is hosted every month. 
I try to attend whenever I can. Occasionally I realize I am 
late either coming in or leaving early, but I do try to be 
supportive. We look upon this as team-building. We have had a 
variety of speakers who speak in whatever their particular area 
of expertise is. That is what we do in these luncheons. I am 
trying to build a superior management team at GSA, and any kind 
of team-building activities that I can do, I----
    Mr. Braley. With all due respect, Ms. Doan, I don't believe 
you answered my question, which was----
    Ms. Doan. I'm sorry.
    Mr. Braley [continuing]. To ask what these slides had to do 
with the GSA's mission.
    Ms. Doan. I'm sorry.
    Mr. Braley. I think the answer to my question is clear. 
This was a partisan political briefing. It occurred on GSA 
property during work hours and had nothing to do with the GSA 
mission. You identified team-building as one of the purposes of 
this meeting. Can you explain to the taxpayers of this country 
how holding this partisan political briefing helped with team 
building?
    Ms. Doan. As I had said a little bit earlier, this is a 
brown bag lunch. It occurs on the lunch hour of our non-career 
employees. This is not my slide presentation. And I really do 
ask you, if you need to have an accurate interpretation of what 
that PowerPoint slide presentation means, please, you know, I 
would ask you to ask Mr. Jennings. This is his product and he 
was a guest at our meeting.
    Mr. Braley. Well, when the presentation begins with the 
White House Office of Political Affairs on the cover slide and 
the slide presentation has multiple references to the 
Republican's wanted, 72 hour get out the vote effort, and its 
impact on a host of different congressional races, which is 
what is contained on the other slides that are in this 
presentation, I think the American taxpayers have a very good 
reason to wonder whether the only team that was being helped 
during this briefing was the Republican party team. The Federal 
Hatch Act says you can't use the workplace to engage in team 
building for any political party.
    You have suggested that this wasn't intended to have a 
partisan purpose in your presentations, and yet the committee 
has been informed by multiple sources that after Mr. Jennings 
finished his presentation, you took the floor, thanked him, and 
then posed a question to the entire group of participants. And, 
according to those sources, you stated, ``How can we use GSA to 
help our candidates in the next election?''
    Now, reminding you that you are under oath, can you tell 
the committee whether, in fact, you did make that statement?
    Ms. Doan. I do know that I am under oath, and I will tell 
you that honestly and absolutely I do not have a recollection 
of actually saying that.
    Mr. Braley. The committee has interviewed and deposed 
witnesses who participated in the briefing, and these were not 
the type of off-the-record discussions the White House is 
currently recommending in the Attorney Generals investigation. 
One of those, Justin Bush, is a Republican political appointee 
at GSA, and he is quoted as saying that your comment was, ``How 
can we use different GSA projects, building openings, and the 
like to further aid other Republicans.'' Do you have any reason 
to doubt Mr. Bush's memory?
    Ms. Doan. Honestly, I have told you I do not have any 
recollection of saying that, but I do know, I have been brought 
to understand that there is actually a difference of opinion 
among the attendees about what exactly was said.
    Mr. Braley. Well, another attendee, Jennifer Millikan, is 
the Deputy Director of Communications at GSA and also a 
Republican appointee. She stated that you said, ``How we could 
help candidates.'' Do you remember saying that?
    Ms. Doan. I have no recollection of saying that.
    Mr. Braley. Do you disagree with your own press person that 
comment was made by you?
    Ms. Doan. Congressman----
    Mr. Braley. A comment about helping candidates, our 
candidates?
    Ms. Doan. Congressman, I don't know how many times I have 
said this, fourth or fifth time, but I will repeat again that I 
cannot, I do not recollect this. I honestly and absolutely have 
no recollection. But I will tell you that the IG has requested 
an investigation from the Office of the Special Counsel into 
this matter. That investigation, to my knowledge, is still 
open. It is currently running. We at GSA, I, in particular, we 
are cooperating fully, and I would actually ask you to please 
allow the investigation to run its course.
    Mr. Braley. Well, part of our function here is to perform 
congressional oversight, which by its very nature includes 
investigation. That is the purpose we are here today.
    Another attendee, the Chief Acquisition Officer of your 
agency, Emily Murphy, also a Republican political appointee, 
said that at the meeting you stated, ``How can GSA help our 
candidates or help position our candidates.''
    Her assistant, Kristyann Monica, backs up her account and 
says that you said, ``How can we help our candidates in the 
next election.''
    We also have a statement from Matthew Sisk, the Special 
Assistant to the Regional Administrator for Massachusetts, 
likewise a Republican political appointee, as well as Michael 
Burkholtz, a Senior Advisor to the Chief Acquisition Officer at 
GSA. These are not partisan Democrats attacking you, as you 
have alleged. These are statements from six different 
Republican appointees who work at GSA, and they all told us the 
same thing about your making express reference to political 
comments during this meeting.
    Do you think all of these people are lying?
    Ms. Doan. I cannot answer for them. I can only answer for 
myself, and I will tell you that I honestly have no 
recollection of making that statement.
    Mr. Braley. Giving you one last chance to clarify the 
record, I am going to ask: did you ever make the statement, 
``How can we use GSA to help our candidates in the next 
election,'' or words to that effect?
    Ms. Doan. Congressman, I cannot recollect making that 
statement.
    Mr. Braley. The reason this is so important to me is 
because you directed comments to staff of this committee and 
you said, ``Shame on you for getting so caught up in the game 
of politics that you let partisan politics affect your 
judgment.'' Turning that mirror around, Ms. Doan, I think there 
are people on this committee who wonder whether the same 
statement could apply to you, in light of what these Republican 
political appointees have testified you said during this 
meeting on GSA property with GSA employees in attendance. Can 
you understand that concern?
    Ms. Doan. I do not believe that there were any 14 year olds 
at that meeting.
    Mr. Braley. You don't believe that you could be perceived 
as having participated in a meeting where partisan political 
politics was the main subject with GSA employees in attendance 
on GSA property and asking a question which you cannot recall 
where you talk about helping our candidates, how that could be 
perceived as maybe being possibly clouded by partisan political 
judgment?
    Ms. Doan. I do not believe that this was an inappropriate 
meeting. I believe that all around Government there are non-
career employees who meet to discuss different ways to advance 
policies and programs of the administration. But that is not 
the same as asking Federal employees to engage in partisan 
political activities in the workplace. I simply do not have any 
recollection of ever saying that.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Braley. Thank you.
    Chairman Waxman. I am now going to yield to Mr. Davis, but 
one quick question on this whole thing.
    It was a brown bag lunch for those who were there, but this 
was a teleconference, and even people as far away as California 
were participating in this meeting; isn't that correct?
    Ms. Doan. That is true.
    Chairman Waxman. Thank you.
    And Mr. Davis?
    Mr. Davis of Virginia. And the White House called this, 
right? This is what they do on a regular basis, where they like 
to get together with their Schedule C's?
    Ms. Doan. Yes, it is.
    Mr. Davis of Virginia. How often do these occur at GSA?
    Ms. Doan. Usually they occur monthly.
    Mr. Davis of Virginia. OK.
    Ms. Doan. And they are convened and arranged by our White 
House liaison.
    Mr. Davis of Virginia. So the White House liaison, 
basically, the White House says we want to talk to our Schedule 
C's. These are employees who serve at the pleasure of the 
President?
    Ms. Doan. Right. We have a requirement to try to advance 
the policies of the administration and execute them and make 
these initiatives successful.
    Mr. Davis of Virginia. Now, you didn't see these slides 
ahead of time, did you?
    Ms. Doan. No, I did not.
    Mr. Davis of Virginia. You didn't help prepare these 
slides, did you?
    Ms. Doan. No, I did not.
    Mr. Davis of Virginia. You had no idea what they were going 
to say, did you?
    Ms. Doan. No, I did not.
    Mr. Davis of Virginia. In fact, you weren't even paying 
attention, it sounds like.
    Ms. Doan. It is embarrassing to admit it, but it is true. 
If I could just say, it was a very busy week for me. I had 
received a letter from the committee. We were in the middle of 
preparing all of the document requests.
    Mr. Davis of Virginia. But when the White House does these, 
they like the agency heads to be there?
    Ms. Doan. I try. I think it is important for my employees 
to see that I am engaged in all aspects of GSA and I do try, 
even if I have to leave early or come late.
    Mr. Davis of Virginia. Now, we are told by some witnesses, 
there are some witnesses that say you said something, some that 
say you didn't, and it was a long time ago, but did anybody at 
any point say these were inappropriate subjects, or somebody 
said we should move away from this? Do you remember any of 
that?
    Ms. Doan. I really do not remember anything about this 
meeting.
    Mr. Davis of Virginia. OK. But you don't deny what people 
are saying? You are not denying----
    Ms. Doan. No, I'm not denying what they are saying; I'm 
simply saying there were cookies on the table, I remember 
coming in late, I remember we had, it seemed like, quite a few 
people who were actually missing.
    Mr. Davis of Virginia. Well, let me just ask you this: when 
there are building openings and the like, it is the policy, and 
is it your policy and the GSA policy that incumbent Members of 
Congress from both parties be invited to those events?
    Ms. Doan. Absolutely. GSA has an incredible record on this. 
We have Federal buildings, we have courthouses, and we have 
traditionally and consistently invited all members of State 
congressional delegations.
    Mr. Davis of Virginia. There was no conversation about 
excluding Democrats or excluding one party from any of these 
openings, was there?
    Ms. Doan. Absolutely not. In fact, we try to get everyone 
to come, and if any of you have not been to a building 
opening--I see, Congressman Higgins, you will have an 
opportunity certainly at the Buffalo Courthouse in a few 
years--but if you have an opportunity to come to one of our 
building openings, they are incredible things. You can see the 
truly splendid work that we do at GSA. I think we are really 
proud of that, so we invite everyone.
    I think, if you look at my actions, you will find that I 
have spent an enormous amount of time in outreach activities 
and responding to Democrats in the last----
    Mr. Davis of Virginia. Ms. Doan, what I gather is this is a 
presentation that the White House was giving to Schedule C 
employees. You obviously had a lot of other things on your 
mind. You didn't call the meeting. You didn't approve the 
slides. You didn't even know what they would talk about----
    Ms. Doan. No, I did not.
    Mr. Davis of Virginia [continuing]. In a general sense. And 
you said, ``Well, what can we do?'' Is that basically the gist 
of what I understand the majority is saying? You look and they 
are saying this is somehow illegal violation, they want to run 
you out of town.
    Ms. Doan. Honestly, I don't even remember that.
    Mr. Davis of Virginia. I understand.
    Ms. Doan. I know you are trying----
    Mr. Davis of Virginia. I think this goes on every day. It 
happens in Republican and Democratic administrations. This was 
during the people's lunch hours?
    Ms. Doan. Yes, it is.
    Mr. Davis of Virginia. And generally their lunch hours are 
free for people to do--you don't regulate what people do during 
their lunch hours?
    Ms. Doan. Well, we don't even regulate what time your lunch 
hour is. Usually you can take your lunch hour whenever you 
want.
    Mr. Davis of Virginia. Some Members came during their lunch 
hour to do this, and the allegation, I think, from the other 
side is that somehow, because there was a video conference to 
listen to the White House, that somehow you are to blame. You 
didn't arrange this? This came at the request of the White 
House?
    Ms. Doan. That is true.
    Mr. Davis of Virginia. Thank you. Thank you very much.
    Chairman Waxman. For the record, in California it is not 
lunch hour, so somebody is videoconferencing this in 
California. While it is a lunch hour here, it is early morning 
there.
    Mr. Davis of Virginia. They might be having an early lunch, 
Mr. Waxman.
    Ms. Doan. That is true. In fact, you could take your lunch 
whenever you choose, so if you wanted to arrange your day 
differently or if you were on----
    Mr. Davis of Virginia. Well, I guess if they really want to 
pursue this they can go back to the time slips----
    Ms. Doan. Yes.
    Mr. Davis of Virginia [continuing]. And they could just see 
if somebody took an 8 a.m. lunch and a 12 lunch, and maybe they 
can find some act of genocide there that they can hang some 
Schedule C on, as well.
    Let me go ahead to SUN Microsystems, because there have 
been a lot of allegations on it. I mean, this has happened. I 
have been in this town a long time. I worked in the Nixon White 
House. You know, this is a political town, and these are 
political appointees, and there is no allegation here that 
there were any actions taken by GSA to retaliate against 
anybody. We just finished one election there weren't even 
candidates in these races. So it has to be put in perspective, 
and it just shows how desperate they get to focus on some 
meeting that was called by the White House that you attended 
and some statement. There are variations, if everyone will read 
the record, in terms of what people recollect you saying and 
other people saying at that point.
    Now, on the SUN Microsystems issue, a lot was made of that 
from Senator Grassley over here, and he clearly wasn't that 
familiar with the fact that this is basically a license to 
hunt, that all SUN Microsystems was trying to do or you were 
trying to do is keep them on the GSA schedule; is that correct?
    Ms. Doan. That is true.
    Mr. Davis of Virginia. Now, because you were on the GSA 
schedule with certain prices, that isn't necessarily the price 
the Government pays, is it?
    Ms. Doan. No. In fact, we ask that any Government agency 
also attempt to negotiate a lower price, and, of course, then 
they would compete it probably with maybe two other or three 
other contractors.
    Mr. Davis of Virginia. So that is a ceiling?
    Ms. Doan. Yes, that is the high end, and then you are 
trying to drive the price down from there.
    Mr. Davis of Virginia. And, in fact, often the prices that 
are negotiated, because once the SUN Microsystems or any 
company is on the schedule, they have to compete with that 
ceiling price against other companies to get the business; is 
that correct?
    Ms. Doan. Yes. This is all about competition.
    Mr. Davis of Virginia. And SUN Microsystems is a big 
company, isn't it?
    Ms. Doan. They are quite large.
    Mr. Davis of Virginia. I mean, less than 10 percent of 
their business is Federal, as I understand it.
    Ms. Doan. That is true.
    Mr. Davis of Virginia. So in the scheme of things, their 
numbers don't rise or fall when they are doing business with 
the Government, unlike a lot of Government contractors; is that 
fair to say?
    Ms. Doan. That is true.
    Mr. Davis of Virginia. So they could, in theory, just walk 
away from this. And who wins then? Give us your perspective 
about why you felt it was important to try to keep SUN 
Microsystems within the Government. And I just add, we have 
already heard Senator Grassley testify that on Medicare Part D 
maybe the Government can negotiate low prices in some areas, 
but there are other areas where people walk, where 
pharmaceuticals walk and don't offer their products and don't 
give the Government the opportunity. That is similar to what 
could happen in this case. Just walk us through your thought 
process of why you wanted to bring this to a resolution one way 
or the other.
    Ms. Doan. SUN is a major IT vendor of really mammoth 
proportions. They are very important, especially connected to 
the Internet. Obviously, at least at GSA we use the Internet 
quite a bit. GSA is the premier procurement agency for the 
Federal Government. Our job is to make sure that all different 
types of technologies, the most innovative, the most leading 
edge types of products and services are available to our 
Government community to purchase. And so I feel that, as the 
Administrator of GSA, and certainly the Commissioner, I 
believe, of Federal Acquisition Service would say, it is our 
obligation to make sure that we have the widest array of 
products and services available to our Federal Government 
customers. And for that reason, if nothing else, it is really 
important that we try to work with all of our many vendors to 
get them on the schedule.
    Mr. Davis of Virginia. Let's assume for a minute that we 
had gone the way of the IG and you just knocked them off the 
schedule, so you are not getting on the schedule. And you had a 
Government agency that wanted to buy a SUN Microsystems 
product, either for continuity of operations or for some other 
reason, that they had the product that met the Government's 
particular need and they weren't on the schedule. How would 
that agency then go about buying the product, and what is the 
likely cost in that case vis-a-vis buying off the schedule?
    Ms. Doan. Well, I probably would have to ask you to have 
Jim Williams give you a lot more clarification on that, but I 
will tell you that I think that the Government agency would 
probably, just in a general way, be scrambling a little bit, 
because one of the neat things about the GSA schedule is it is 
very easy to use. It is very easy to get something immediately.
    Mr. Davis of Virginia. But they could go out for a 
procurement to try to----
    Ms. Doan. They could, but that would take a lot longer 
probably.
    Mr. Davis of Virginia. Would it cost more, probably?
    Ms. Doan. It would certainly cost more, because you would 
also have to then add into the cost the procurement officials 
who would have to be involved, the statement of works, the 
source selection committee.
    Mr. Davis of Virginia. So there are good policy reasons for 
trying to keep them within the Government ambit on the 
schedules?
    Ms. Doan. Absolutely.
    Mr. Davis of Virginia. Now, the IG has made a lot of the 
fact that you mentioned that they might go to NASA soup. Could 
you explain to us what NASA soup is--I'm familiar with it, but 
I'm not sure other Members are--and what this would mean, not 
only to GSA but to the costs to the American taxpayers?
    Ms. Doan. NASA soup is another Government-wide acquisition 
contract. It is called a GWAC. This is a contract vehicle where 
other----
    Mr. Davis of Virginia. Similar to a schedule?
    Ms. Doan. It is similar to a schedule. They can provide 
goods and services; however, usually the fee is quite a bit 
more that the Government agency would pay on top of the cost of 
the product.
    Mr. Davis of Virginia. So, as a general rule, it is your 
belief that NASA soup is a more expensive vehicle for these 
than the----
    Ms. Doan. That has always been my belief, and I think I am 
pretty well documented in the press for saying that.
    Mr. Davis of Virginia. OK. And also there was a fee 
involved, correct?
    Ms. Doan. Yes, there is.
    Mr. Davis of Virginia. If an agency were to buy off NASA 
soup instead of the GSA schedules, that fee would then go to 
NASA as opposed to your agency, which was suffering budgetary 
constraints; is that correct?
    Ms. Doan. That is true.
    Mr. Davis of Virginia. That is an additional reason to try 
to keep them within the ambit, if you could?
    Ms. Doan. That is true.
    Mr. Davis of Virginia. Now let me ask you this. Did you 
personally appoint the contracting officers in this case to 
negotiate this?
    Ms. Doan. No. I did not even know who they were until I 
read their name in Congressman Waxman's invitation letter.
    Mr. Davis of Virginia. Well, what was your role? Was your 
role here just to try to get a decision, that this had been 
bubbling for years, we were on extensions, which are generally 
more expensive than negotiating a new contract, and you just 
wanted to get a resolution? What were your instructions to Mr. 
Williams, or whomever you delegated this to?
    Ms. Doan. Well, it was Commissioner Williams, and it was 
very simple. I think I was actually at a much higher level, 
Congressman Davis. My job is simply to provide some managerial 
oversight into the different processes at GSA. What I was 
interested in was making sure that we were getting the very 
best value for the American taxpayer. I believe that having SUN 
Microsystems on the GSA schedule is an important aspect of 
that. I simply turned to Commissioner Williams and I said, 
Could you look into this. He then took it from there.
    And we have some very, very competent and incredibly 
qualified contracting personnel.
    Mr. Davis of Virginia. But there had been an impasse 
before. I mean, we had been looking into this for months.
    Ms. Doan. They were at a total impasse, and I think our 
contracting folks did just an extraordinary job of bringing 
this to conclusion.
    We are very proud of the work that they have done. I am 
proud of my employees.
    Mr. Davis of Virginia. I understand that, and we can get 
into it later. Obviously, IG has a different perspective on 
this.
    Did you say cut a deal no matter what? Or did you just say 
let's bring it to a conclusion? That is important for us to 
know.
    Ms. Doan. I don't remember saying cut a deal no matter 
what. I do remember saying let us look into this and see what 
can be done, something along those lines.
    Mr. Davis of Virginia. So you were just trying to resolve a 
problem that had been ongoing for some time?
    Ms. Doan. Yes. I'm more about options. I am more about 
saying what are our options, what can we do to try to make 
things better.
    Mr. Davis of Virginia. I understand that the Federal 
Acquisition Service Commissioner, Jim Williams, informed Mr. 
Miller, the IG, that a contracting officer was being 
intimidated by an IG employee and asked him to look into it. 
Did you followup with the IG about this complaint?
    Ms. Doan. Yes, I did. At one of our monthly meetings--this 
was about a month after Commissioner Williams had brought that 
to the Inspector General's attention--I asked him in the 
meeting, I said, ``So, you know, whatever happened. I was 
hoping I would hear from you on that.'' And then I was told, in 
what seemed to me a sort of lackadaisical manner, well, you 
know, I looked into it. Nothing was there, or something along 
those lines. I don't want to try to do a direct quote because I 
don't remember.
    Mr. Davis of Virginia. You don't have a good relationship 
with the IG, do you, in your agency?
    Ms. Doan. Not in the agency, but I think that it has been 
wildly mischaracterized in the press. I think we have a budget 
dispute that has now spiraled into other areas. I believe that 
the Inspector General believes strongly in independence and 
oversight, and I think the challenge there is that I do, too; 
it is just that I believe all, even oversight, needs to have 
oversight.
    Mr. Davis of Virginia. OK. Let's go to another issue that 
has been raised here, and that is on the Diversity Best 
Practices and the contract with Ms. Fraser. Can you contract 
your relationship with Ms. Fraser? She was a vendor. I mean, 
she bought from you; isn't that correct? Isn't that how you 
knew her?
    Ms. Doan. Yes, that is true.
    Mr. Davis of Virginia. And for diversity practices did you 
feel that the services her company offered were some of the 
best in the field?
    Ms. Doan. The work that Diversity Best Practices does is 
almost unparalleled in the area of opening doors and providing 
opportunities for small, minority, women-owned, service 
disabled veteran businesses. They have done extraordinary work 
over many, many years.
    Mr. Davis of Virginia. And you had used them in your own 
company, right?
    Ms. Doan. Yes, I did.
    Mr. Davis of Virginia. She never hired you for anything, 
did she?
    Ms. Doan. No, she did not.
    Mr. Davis of Virginia. You hired her?
    Ms. Doan. Yes.
    Mr. Davis of Virginia. OK. Now, walk me through your 
thought process in terms of this $20,000 purchase order that 
has been alleged. Was this purchase order, did any money change 
hands?
    Ms. Doan. There was no money that changed hands, no 
Government contract was issued, no deliverables.
    Mr. Davis of Virginia. That may be a technical term whether 
a contract was issued, but nothing was ever--as I understand 
it, no money changed hands, no performance. This was nixed 
pretty early on; is that correct?
    Ms. Doan. Yes.
    Mr. Davis of Virginia. What was your thought process in 
moving forward with this? The IG in his report says you should 
have known the thresholds. It intimates that you were trying to 
give a sweetheart deal to a friend. Why don't you give us an 
explanation of that, from your perspective and your thought 
process?
    Ms. Doan. GSA was failing in opening doors to small and 
minority businesses. We got an F on our score card from the 
SBA. Sadly, it seems like there is a possibility it might have 
been well deserved.
    I thought that doing a study of what we were doing with our 
outreach to small, minority, women-owned, and service disabled 
veteran businesses would reveal what are the things that we are 
doing well, what are the things that we are doing poorly. And 
the idea there is that, once you understand this from an 
objective source, then you can make a decision to try to do 
more of one and less of the other.
    As I said in my statement, this is both a personal and a 
professional embarrassment to me.
    Mr. Davis of Virginia. My time is running out.
    Ms. Doan. I'm sorry.
    Mr. Davis of Virginia. The question is: why didn't you 
compete this out and go to a number of firms? What was your 
thought process in just giving it to this one company that you 
knew could do the job?
    Ms. Doan. It is because they are the unparalleled expert in 
the field of diversity studies. I signed what I thought was a 
draft outline, a service confirmation order. I moved it on. I 
thought I was putting it through the processes. I thought it 
was going to be turned into a purchase order, or whatever. What 
my job was to do was to try to take action to show that I 
wanted to turn this around and to move it forward. This is what 
I was trying to do.
    The minute it was brought to my attention that this was 
done in error, and that was when my chief of staff called me 
and said it was not going to be able to happen, I said fine. 
They said they issued a termination. They did. The whole 
timeframe from start to finish was about 10 days.
    Chairman Waxman. Thank you, Mr. Davis.
    Mr. Issa. Mr. Chairman, a point of parliamentary inquiry. 
What time will our official lunch be and when will it begin, 
11:30 or 12?
    Chairman Waxman. Well, we are going to continue on with our 
hearing.
    I will now proceed in regular order with each Member being 
called in order under the rules for 5 minutes. I want to 
recognize the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Doan, welcome to our committee. I must tell you that 
when I heard your opening statement I was very impressed, but 
as I listened to your answers to Mr. Braley I became very 
concerned.
    One of the things I am concerned about is your memory. You 
just, in answer to Mr. Davis' question, went back to the Edie 
Fraser contract. You were able to tell us all kinds of things 
about that. That happened back in July 2006. Mr. Braley 
methodically and excellently asked you about an incident that 
happened 2 months ago, and it is interesting to me that you 
don't remember certain things during that time. As a matter of 
fact, you seemed like you didn't remember much of anything, but 
yet and still you remembered quite well the Edie Fraser 
contract situation. That concerns me.
    I must tell you that, you know, this committee has serious 
questions about whether you violated the Hatch Act, which 
prohibits Federal employees from engaging in partisan politics 
at the office. You received training on the Hatch Act several 
months before the January 26, 2007, meeting, did you not?
    Ms. Doan. Yes, I did.
    Mr. Cummings. And under your understanding of the Hatch 
Act, are you permitted to ask staff to help a particular 
candidate or particular party?
    Ms. Doan. No, I am not.
    Mr. Cummings. Ms. Doan, we asked the Congressional Research 
Service, which is independent, about the incident at GSA 
headquarters on January 26th, and CRS told us that--well, CRS 
is a nonpartisan research arm of the Congress, so you will be 
very clear. We asked CRS about both the White House 
presentation and about your alleged comments afterwards. You 
said you didn't remember that 2 months ago. I know that.
    In response, CRS issued a report which I would like to make 
a part of the official hearing record.
    Chairman Waxman. Without objection, that will be the order.
    Mr. Cummings. Thank you very much.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 40153.125
    
    [GRAPHIC] [TIFF OMITTED] 40153.126
    
    [GRAPHIC] [TIFF OMITTED] 40153.127
    
    [GRAPHIC] [TIFF OMITTED] 40153.128
    
    [GRAPHIC] [TIFF OMITTED] 40153.129
    
    [GRAPHIC] [TIFF OMITTED] 40153.130
    
    [GRAPHIC] [TIFF OMITTED] 40153.131
    
    [GRAPHIC] [TIFF OMITTED] 40153.132
    
    [GRAPHIC] [TIFF OMITTED] 40153.133
    
    [GRAPHIC] [TIFF OMITTED] 40153.134
    
    [GRAPHIC] [TIFF OMITTED] 40153.135
    
    Mr. Cummings. This is what CRS said. First, on the White 
House slides that Mr. Braley referred to, CRS said that this 
presentation raises concerns ``the sponsor or presenter is 
closely affiliated, identified with a partisan political 
campaign, invitations are directed only to political employees 
of a Department, and the objectives and agenda of the program 
appear to have a partisan slant.'' Doesn't that describe what 
Mr. Jennings did to a T, as best you can recall?
    Ms. Doan. Could you do each one of those? Do I have to 
answer them all at one time?
    Mr. Cummings. Well, first of all, you said--let me go back.
    Ms. Doan. OK.
    Mr. Cummings. You said something very interesting. You said 
that these meetings, these brown bag lunches, were for the 
purpose of team building, and I assume that you want your 
entire team to be built.
    Ms. Doan. Yes.
    Mr. Cummings. But these team-building lunches were only 
Republican appointees. So help me with that. On the other hand, 
you then seem to take a position that, oh, you just kind of 
mosied in late and didn't remember the very essence of the 
presentation. So it is sort of hard for me to ask you questions 
when you don't have a memory from 2 months ago. I am trying to 
refresh your recollection.
    Ms. Doan. Thank you, Congressman, and I appreciate your 
giving me the opportunity. I do want to try to make this clear 
to you.
    First, as far as what you are considering my memory lapse, 
I have to tell you diversity opportunities for small and women-
owned business, this is a passion for me. This is something I 
have dedicated years to. I love this. It is important. Of 
course I am going to remember it.
    I have to tell you polls and stuff like that, this isn't my 
thing. This isn't what really motivates me or energizes me.
    I had an incredible day on the 26th. I had the article in 
the paper. I had the letter from the committee. I had just 
gathered together the group of folks who were going to 
assemble. And you guys got some of these documents. It was a 
huge submission that we gave to you all. This was our first 
time we had ever done it as a team, you know, made a submission 
for Congress. There was a lot going on.
    I came in just a little bit late at the beginning of the 
meeting. I apologized for coming in late. I didn't need to. 
But, frankly, I had a lot on my mind that day.
    Mr. Cummings. Well, the question is: isn't team building 
important to you?
    Ms. Doan. Team building is important to me, but this was 
not my meeting, and happily I didn't--this was one meeting 
where I did not have to take the lead. I could just sit back 
and coast on that.
    Mr. Cummings. Do you believe from what you have seen so far 
and heard so far that this was a violation of the Hatch Act 
based upon what you learned from your lessons about the Hatch 
Act?
    Ms. Doan. Congressman Cummings, I am not trying to be, you 
know, snappy or something with you, but I will tell you I am a 
businesswoman who is now in a Government job for her first 
time, and I will tell you that I cannot make a judgment on 
this, but I do know that the Office of Special Counsel is 
looking into this. I know that they are experts on it. I know 
they are going to make a decision, and I am going to live with 
it.
    Mr. Cummings. Knowing what you know now, would you do it 
again?
    Ms. Doan. I think I would have to----
    Mr. Cummings. Would you invite a White House----
    Ms. Doan. Absolutely. A White House liaison invites all 
sorts of people. We get people from personnel----
    Mr. Cummings. And have charts that talk about targeting? 
You would do that, too?
    Ms. Doan. I think that we will probably review charts in 
the future. There is no doubt about that. I think everything 
that you do you try to be better every time you do it. 
Certainly, especially given the concerns of this committee, I 
do not want this committee to be focused on these issues. We 
have important things we have to do at GSA.
    Mr. Cummings. That is our job. That is our job.
    Ms. Doan. I know. That is why, as I said, we will do what 
we have to to make sure that we have the confidence of this 
committee in the future because we do have important things we 
are trying to do at GSA. And I want you all to be working with 
me on it to try to make things better.
    Chairman Waxman. The gentleman's time has expired.
    Ms. Doan. Thank you, Congressman Cummings.
    Chairman Waxman. Did you need----
    Mr. Cummings. Just one question. Did you give $200,000 to 
the GOP?
    Ms. Doan. I'm sorry? What?
    Mr. Cummings. Did you give $200,000 in contributions to the 
GOP?
    Ms. Doan. Yes. I am happy to say that I----
    Mr. Davis of Virginia. Mr. Chairman, are we going to have 
regular order?
    Ms. Doan [continuing]. Am a Republican and a supporter of 
the party. I am proud of it. I am happy that we have President 
Bush as our President. I think he is a great man in very 
troubled times. I am not ashamed of this.
    Chairman Waxman. Thank you very much.
    The Chair would now recognize for 5 minutes Mr. Mica.
    Mr. Mica. Let me yield just a moment.
    Mr. Davis of Virginia. News flash. The President appointed 
a Republican to head GSA. I mean, this shouldn't surprise 
anybody.
    And let me just say I assumed that this chart was given all 
over town. It wasn't given to me, but they probably gave this 
to all the different agencies, and that may or may not be a 
good thing and this committee is welcome to look at it, but I 
think to lay it on Ms. Doan when you have every Federal agency 
holding meetings with Schedule C, some of them weekly, monthly, 
she didn't call this meeting. I think we need to put it in 
perspective. What it tells me is that they are bankrupt. They 
are going after personal items. They are bankrupt, so now they 
are going after a White House political presentation.
    Mr. Mica. Thank you.
    That is kind of interesting, to follow what the ranking 
member said, that originally they went after her for this 
contract. When she came in, didn't you say that they were 
getting an F grade, or about to get another one?
    Ms. Doan. That is true.
    Mr. Mica. This is on diversity. This is some of the 
diversity of racial employment practices at GSA?
    Ms. Doan. Philippe Mendosa, who is our Office of Small and 
Disadvantaged Business Utilization Administrator, came to me. 
It was probably my sixth--I don't want to give exact dates--5th 
or 6th day on the job, and he told me that GSA was getting a 
failing score from the SBA and what could we do. We were 
failing in our opportunities to provide outreach to small 
minority owned business, you know, service disabled veteran 
businesses, HUD zone businesses, just----
    Mr. Mica. So that is the reason----
    Ms. Doan. You know it. I jumped on it. I was on it.
    Mr. Mica. OK. As a Republican minority appointee, this was 
something important to you, and that is why the $20,000 
contract--how much does GSA let in contracts, $66 billion?
    Ms. Doan. Between $56 and $60.
    Mr. Mica. And this is interesting, because I am going to 
follow the IG, because I don't like his performance. Grassley 
talked about getting five fired. I may want to work with him on 
six, because I am not liking the picture that I see in some of 
the leaks and things that came out of the IG's office to go 
after you, and they targeted you. They targeted you because you 
just told us, in fact, that the day that this occurred was the 
day you got the so-called political action that was taken, and 
this conference call was taken the same day that you got the 
inquiry from the committee?
    Ms. Doan. No, no. It wasn't the same day. It was in the 
same timeframe.
    Mr. Mica. In the same timeframe?
    Ms. Doan. We were in the process of--yes, we were preparing 
the submission.
    Mr. Mica. That is the point I am making. And this was a 
fishing expedition to get you, and what they are doing to you 
they are going to try to do to other appointees, so this is a 
good warning for folks. Someone who came out as a successful 
minority business person and took on GSA, she has been there 8 
months, and they have made this 8 months hell for her. Wouldn't 
you agree with that?
    Ms. Doan. It has been challenging.
    Mr. Mica. So look at the timeframe. Every part of the 
violations under the SUN contract, all of that took place 
before you ever got there. You came when? June?
    Ms. Doan. June 2006. June 1st was my 1st day on the job.
    Mr. Mica. We have the record of when that took place, and 
you were trying to--SUN, you said, was a very important 
component to Government services throughout the Government.
    Ms. Doan. We have 27,000 vendors, and I want to say, in 
case it is on TV or something, all of my vendors are important 
and I am grateful for your business.
    Mr. Mica. All right. Again, on the video conference, which 
they are trying to make a big deal out of, that was the 
Political Office of the White House. Schedule C's are what? 
Political appointees, serve at the pleasure; is that correct?
    Ms. Doan. That is true.
    Mr. Mica. And what are you?
    Ms. Doan. I am a proud political appointee.
    Mr. Mica. OK. Approved by----
    Ms. Doan. By the President of the United States. Yes.
    Mr. Mica. And the Senate?
    Ms. Doan. And I am Senate confirmed. Yes.
    Mr. Mica. Now, again, this is a fishing expedition. I have 
never seen anything like it, and targeting. So they couldn't 
find anything on the $20,000, and it wasn't a contract. It was 
never a contract. Was it a contract?
    Ms. Doan. There is a lot of debate back and forth as to 
whether it was.
    Mr. Mica. Was a contract let? Was a contract let? Answer 
me.
    Ms. Doan. No, it was not. And I will tell you----
    Mr. Mica. OK. There was no contract let?
    Ms. Doan. Could I say one thing, Congressman? People always 
say, you know, you did a lot of business with the Government. 
How come you really couldn't tell the difference? And one of 
the things I would like to show you, if you don't mind, is this 
is what I signed. It was a service order. Attached to it was a 
draft outline of the study, what we were going to do, trying to 
open doors and opportunities. This is what I am used to seeing 
as a Government contract. This is a standard form 33 that 
usually is the Section A, the front page of every Government 
contract. It requires the signature of a contracting officer. 
This is what I am used to seeing. This is what I call a 
Government contract. The service order to me, I am trying to 
move this study forward.
    Mr. Mica. And some of this appears that this is where you 
initially rubbed the wrong way with the Inspector General's 
Office. Is this where the edict came down?
    Ms. Doan. No. Actually, I think it started pretty much in 
my first week or second week in the job where he asked me for--
--
    Mr. Mica. You added to the----
    Ms. Doan. No, no. It was a totally different thing. He 
asked me for basically additional SES slots, which would have 
taken all the ones that we had, and at the time we were trying 
to hold them for the fast reorganization, so I think we got off 
to a little bit of a bad start there.
    Chairman Waxman. The gentleman's time has expired.
    I recognize Ms. Watson for 5 minutes.
    Ms. Watson. Ms. Doan----
    Ms. Watson. I have one additional question. Can I ask that, 
or does the minority----
    Mr. Davis of Virginia. Do it on our time.
    Ms. Watson. Retrieving my time, Ms. Doan, the political 
activities of GSA seem to be part of a much broader and more 
troubling trend throughout the entire Federal Government under 
this administration. We have learned, for example, how the 
White House and the Attorney General politicized the hiring and 
firing of U.S. Attorneys--that is going on right now, that 
debate--and our Nation's top law enforcement officers. In fact, 
we now know that Karl Rove's deputy, Scott Jennings, was 
involved in both scandals.
    This is not the only example. There have been civil rights 
enforcement at the Justice Department, and they have been 
undermined by political appointees; drug approvals at the Food 
and Drug Administration have been based on political 
calculations, not the best science; intelligence was twisted by 
White House officials to build a political case for war in 
Iraq; and not many people realize this, but there are now more 
political appointees working in this administration than in any 
time in our Nation's history.
    Now, Ms. Doan, I know of your political activities, and I 
know of your donations, and it is fine to be politically 
active. It is your right and your obligation as a citizen, and 
we understand that. But we have to maintain the rule of law. 
When you become a Government employee and when you become 
responsible for thousands of Government employees, then you 
have a heavy new responsibility.
    You can't turn that agency into a political tool. When this 
was held up and you said that you did not remember hardly 
anything in it, that you came late and you had to leave, you 
have a heavy week, it is like turning your head away from 
political activities under your responsibility.
    My concern is that what has happened at the GSA may be 
happening at other agencies throughout this Government, and we 
surely see signs of that. So, Ms. Doan, do you know whether Mr. 
Jennings gave this presentation at any other Federal agencies?
    Ms. Doan. I don't know anything about that.
    Ms. Watson. OK. But he did give it at yours?
    Ms. Doan. Yes.
    Ms. Watson. OK. Do you think he prepared this just for the 
GSA? Or is it more likely that he adapted something he already 
had?
    Ms. Doan. Congresswoman, I have no idea. I think you really 
would have to ask Mr. Jennings that question.
    Ms. Watson. OK.
    Chairman Waxman. Would the gentlelady yield to me?
    Ms. Watson. I will yield, Mr. Chairman.
    Chairman Waxman. It sounds like it is not just GSA, because 
the way the Republicans on our committee say it is just routine 
practice, it is done everywhere, well, I think we ought to find 
out if that is the case, because it is a violation of the Hatch 
Act. Thank you.
    Ms. Watson. Yes. I hope that he didn't just target your 
agency to hold you responsible for politicizing whatever goes 
on at GSA in your agency, and why did he choose you, so I have 
some suspicions there.
    Ms. Doan. I cannot possibly speculate.
    Ms. Watson. I know. I am not asking you to. I am stating an 
opinion for what I heard.
    Ms. Doan. OK. I'm sorry.
    Ms. Watson. And I don't think that this presentation is 
just tailored to GSA. Instead, it reads like a presentation 
that might have been given to other agencies across the 
Government, and I think that this committee has the authority 
and the right to have oversight. Why did they choose your 
agency to make this presentation? This is clearly targeting 
Democrats to take their seats. Clearly, that is the purpose of 
this.
    Chairman Waxman. Would the gentlelady yield?
    Ms. Watson. I will yield, Mr. Chairman.
    Chairman Waxman. The last few seconds she has.
    You said politics is not your passion.
    Ms. Doan. No, no. I did not say that.
    Chairman Waxman. But you gave $200,000----
    Ms. Doan. I said polls, polls.
    Chairman Waxman. I see. But politics is one of your 
passions. You gave----
    Ms. Doan. Politics should be the passion of every American 
citizen.
    Chairman Waxman. Yes.
    Ms. Doan. This is what makes our country run.
    Chairman Waxman. Great. You gave $200,000 to the Republican 
Party and you spoke at the Republican National Convention; 
isn't that accurate?
    Ms. Doan. If I could just----
    Ms. Watson. I am going to reclaim my time.
    Chairman Waxman. Regular order. You don't have any.
    Ms. Watson. Sorry. I am going to reclaim my time.
    Chairman Waxman. You don't have any time.
    Ms. Watson. You cannot tell me that, and would you please 
let me reclaim my time.
    Mr. Davis of Virginia. Mr. Chairman, can we have regular 
order.
    Ms. Watson. How much time do I have?
    Chairman Waxman. Without objection, we will extend a 
courtesy to the gentlelady for 1 additional minute, and we will 
do the same for other Members.
    Ms. Watson. Thank you very much. I am trying to make a 
point here. I think, Ms. Doan, your agency has been targeted 
and you have been used to spread White House politicizing in 
your Department. I am so pleased that we are doing what we 
should do, and that is to have these oversight hearings to hear 
where there are violations of our laws, rules, and regulations.
    Thank you so much, Mr. Chairman.
    Chairman Waxman. Thank you, Ms. Watson.
    Mr. Mica. Mr. Chairman, just an inquiry. Parliamentary 
inquiry.
    Chairman Waxman. What is your parliamentary inquiry? Yes, 
please?
    Mr. Mica. Parliamentary inquiry is you just granted 1 
additional minute to the majority side. Is this a new change in 
policy, and can I obtain 1 additional minute on the minority 
side?
    Chairman Waxman. Well, you had 5 additional minutes that 
other Members didn't have, and I asked without objection she be 
given another minute, and I would hope if a Member----
    Mr. Mica. Well, if it wouldn't be granted to me could it be 
granted to another----
    Chairman Waxman. I will now recognize----
    Mr. Mica. If we could have----
    Chairman Waxman. The regular order is Mr. Issa, who is now 
recognized.
    Mr. Mica. The committee is responsible for investigations 
and oversight. Are we going to be equal in conducting 
investigations and oversight or are we going to give the 
majority----
    Chairman Waxman. Your point is----
    Mr. Mica [continuing]. Additional time and not the 
minority? I want that question answered.
    Chairman Waxman. Oh, please.
    Mr. Mica. I want the question answered.
    Chairman Waxman. Oh, please. If someone asks for 
additional----
    Mr. Mica. This is one of the most important committees in 
the Congress, and----
    Chairman Waxman. Do you want the question answered or do 
you want to speak?
    Mr. Mica. Investigations and oversight, and are you going 
to grant special consideration to their side of the aisle and 
not to this side of the aisle? Now, I chaired for 10 years----
    Chairman Waxman. Does the gentleman wish an answer, or does 
he wish to talk?
    Mr. Mica. And I chaired two of the subcommittees in this 
committee, Civil Service and----
    Chairman Waxman. The Chair will now recognize----
    Mr. Mica [continuing]. And also Criminal Justice----
    Chairman Waxman. The gentleman is using his time.
    Mr. Mica. I never, never denied the opportunity for a 
minority Member or cut them off in questioning, and I expect 
the same courtesy for my Members. What is the policy? This is a 
parliamentary inquiry in procedures, the conduct of one of the 
most important investigative committees of the U.S. Congress 
that dates back its function to the early 1800's.
    Chairman Waxman. The gentleman stated a parliamentary 
inquiry and the Chair is prepared to answer his parliamentary 
inquiry. Under the rules, Members are given 5 minutes for 
questioning. By unanimous consent an additional minute may be 
given. Under the rules, we ask that only opening statements 
today be given by Mr. Davis and myself. We asked unanimous 
consent for the gentleman that is complaining to have 5 minutes 
that other Members didn't get.
    If a Member on the Republican side or the Democratic side 
asks for additional time, it will be up to the Members, and I 
would hope that Members would be generous enough not to cut 
people off. So the time now is to Mr. Issa, and I will start 
the 5-minutes for him so he will have his complete time.
    Mr. Issa, you are recognized.
    Mr. Issa. Thank you, Mr. Chairman.
    On my 5 minutes, I would like to ask that regular order be 
strictly adhered to unless there is unanimous consent, and I 
trust in the future we can eliminate this problem by doing so. 
I think if we are going to ask the GSA and other organizations 
to strictly adhere to the rules, regulations, and laws, we 
should do no less.
    Administrator Doan, I am frustrated because I came out of 
the business world, too, and I came to this committee to fight 
the bureaucracy that sits around us and behind us throughout 
all of Government, the people who are there when you arrive and 
will be there when you are gone.
    Now, I just want to concentrate on one simple thing. Your 
team, your team building, these are people chosen, some 
confirmed and some just straight appointments, but, like 
yourself, many are confirmed by the Senate. They are chosen by 
the elected President of the United States to oversee and to 
provide policy guidance and control over the largest body of 
human beings that exist on the face of the Earth working for a 
government, our U.S. bureaucracy; isn't that right?
    Ms. Doan. That is true.
    Mr. Issa. And in your 8 months I think you probably found 
what I found in my nearly 7 years now: that this is a 
bureaucracy that will resist you at every point, isn't it?
    Ms. Doan. You are absolutely right.
    Mr. Issa. So when you talk about team building, including a 
reminder that you worked at the pleasure of the President, it 
is not inappropriate for you to understand, as the slides, the 
one they don't tend to show you, show that this President was 
right in the middle in his last mid-term of how many seats he 
lost in the House. That is informational, isn't it?
    Ms. Doan. Yes, it is public domain.
    Mr. Issa. And when you are looking at the presentation by 
the President and how the President views his working 
relationship and how he views his--you are receiving a briefing 
from the man who appointed you and for whom the Senate 
confirmed you?
    Ms. Doan. That is true.
    Mr. Issa. So, you know, the amazing thing here--and I don't 
want to take a lot of time talking about the Body up here--but 
would it shock you to find out that members of perhaps this 
committee's majority staff, and certainly personal staff 
members of some of the people on that side and some of the 
people on this side, they go to either the Republican committee 
or the Democrat committee and they make fundraising calls on 
their lunch hour for Members of Congress, these Federal 
employees? Would that shock you to find out?
    Ms. Doan. Thank you for telling me.
    Mr. Issa. Would you be shocked to find out that, well, 
chiefs of staff, chiefs of mission, if you will, to our 
Districts come back here to be briefed on Federal expense, 
Federal expense. We bring them back here, we put them up in 
housing, and guess what, they go to evening events either at 
the Democrat committee or the Republican committee's expense to 
find out how they can do a better job of keeping their Member 
in office. Would that surprise you?
    Ms. Doan. I didn't know that before, but thank you.
    Mr. Issa. Well, the American people probably are surprised. 
And yet, in fact, that is a system that the chairman is well 
aware, chairwoman, and so on, are all well aware of.
    But I want to go back to the team building. You have been 
building a team to take this incredibly large bureaucracy, one 
that was receiving F's for how it dealt with disabled vets that 
had businesses, veterans that had businesses, African Americans 
that had businesses, women that had businesses, and, for that 
matter, small businesses, in general. It had an F for reaching 
out and providing opportunities for those contracts. That is 
one of the major things you are working on, isn't it?
    Ms. Doan. That is one of many initiatives, but it is a 
passion of mine, yes.
    Mr. Issa. And it is something that this Congress and this 
Oversight Committee has wanted you to do, isn't it?
    Ms. Doan. That is very true, because, you know, it is hard 
enough as it is if you are a small or minority or woman-owned 
business or a service disabled veteran. You know, I don't want 
working with the Federal Government to be yet another barrier 
or challenge for them.
    Mr. Issa. Well, I tell you, I was recently given a small 
award by my university, and I was honored with Ronny Harris, 
the Golden Gloves champion of Mexico City. He is an African 
American, small businessman in Ohio, and he finds it very 
frustrating, with a successful business, doing business with 
the Government. And you know what? It has nothing to do with 
the fact that he happens to be minority owned. It is just hard 
to do business with agencies, including the GSA. So I, for one, 
commend you for concentrating on what is important, which is 
building a team that will break through the bureaucracy and 
will meet the objectives that the American people care about, 
and one of the most important is making your organization 
responsive to small and emerging businesses and giving them 
opportunities.
    I would like you just to tell us for a minute in the 
remaining time how you are doing that and how this committee 
should be helping you do more of that.
    Ms. Doan. At least we are trying as hard as we can to do a 
much, much better job. The first thing we have done is we have 
finally been able to start awarding schedules in 30 days. This 
is the best and first opportunity for small and minority 
businesses to be a prime contractor, and that helps them with 
cash-flow.
    The second thing we have done is we have just made the 
largest award of actual work, not just a hunting license, but 
the get-go contract for IT infrastructure support to a service 
disabled 8A company. We are really proud of that. It is the 
largest award of its kind. We have alliance small business. We 
have a lot of small business opportunities that are going to be 
out there. Even our satcom, our satellite procurement that is 
ongoing, very unusual, it is going to have a professional 
services component that will be for small and minority 
businesses. We are trying really hard to carve out 
opportunities because, you know, everybody can talk a good 
story, but when you are in the small business community you 
want efforts that have real meat to them. You want actual 
funding to go to your business. You don't want it to just be an 
open vehicle that has nothing behind it. This is what we are 
trying to change.
    Chairman Waxman. The gentleman's time has expired.
    Ms. Doan. Sorry. I didn't mean to talk so long.
    Chairman Waxman. We allow full answer to the questions, but 
the question period is limited.
    I want to recognize Mr. Higgins, and as I do I want to 
inform all the Members that it would be a violation of the law 
for them to make phone calls from their office soliciting 
contributions. We have to go elsewhere to do it. We don't use 
our offices, nor many of us think Government offices should be 
used.
    Mr. Davis of Virginia. Mr. Chairman, let me note, but the 
rules pertaining to fundraising are different than other items. 
Members politic in this building all the time. Democratic 
conferences, Republican, talk about politics within this 
building and within the Capitol, the conferences. You can't 
raise money. No one solicited money in this case.
    Chairman Waxman. All right. I accept your point.
    Mr. Higgins.
    Mr. Higgins. Yes, thank you, Mr. Chairman.
    Let me, before I ask Ms. Doan several questions, let me 
just clarify this issue of lunch hour and whenever this had 
occurred. It doesn't matter under the Hatch Act whether it was 
during the lunch or whether she invited employees. Under the 
Hatch Act, the Administrator is not allowed to be present at a 
political event on or off Federal property in which these 
activities happened, if her subordinates were at the event, 
even if they came voluntarily, because it is considered 
inherently coercive.
    Ms. Doan, the committee has obtained internal e-mails 
between the White House and GSA regarding political 
presentation of Scott Jennings that he gave at GSA. I want to 
ask you about those. They will appear up on screen here.
    Ms. Doan. Is that what this is?
    Mr. Higgins. Yes. It is in your packet. I'm sorry.
    Let me first direct your attention to the e-mail dated 
January 19, 2007, which is on page 1 of your documents. This e-
mail is from Jocelyn Webster, who works for Mr. Jennings at the 
White House, and she is writing to Tessa Truesdale. I 
understand that Ms. Truesdale is your confidential assistant?
    Ms. Doan. Yes. She works in the Administrator's office for 
me.
    Mr. Higgins. In this e-mail Mr. Jennings' assistant is 
sending a copy of Mr. Jennings' slides to GSA. This is what Mr. 
Jennings' assistant says. ``Please do not e-mail this out or 
let people see it. It is a close hold and we are not supposed 
to be e-mailing it around.'' My question is, can you tell me 
why Mr. Jennings' assistant says this is close hold and why you 
are not supposed to be e-mailing this around?
    Ms. Doan. I can't imagine, since I am not actually on this 
e-mail. I think probably either Jocelyn or Joycelyn--I'm not 
sure what her name is--Joycelyn Webster or maybe Tessa 
Truesdale could answer that. But this isn't my e-mail.
    Mr. Higgins. I would like you to look closely at the e-mail 
from Mr. Jennings' assistant.
    Ms. Doan. Is that the same one?
    Mr. Higgins. Yes.
    Ms. Doan. OK.
    Mr. Higgins. An image of the e-mail is up on the screen. If 
you look at the e-mail address, you can see that Mr. Jennings' 
assistant is sending this from GWB43.com account. The GWB43.com 
domain is owned by the Republican National Committee. Do you 
know why Mr. Jennings' assistant e-mailed this from a 
Republican National Committee account instead of a White House 
account?
    Ms. Doan. No, I do not. This is not my e-mail and it was 
not addressed to me.
    Mr. Higgins. Do you know of any reason why Mr. Jennings' 
assistant would try to hide that she was communicating from the 
White House?
    Ms. Doan. No. I don't. I am not familiar with her and this 
is not my e-mail or----
    Mr. Higgins. Let me put up another e-mail on the screen 
that is document 2-432. This is on page 2 of your packet.
    Ms. Doan. Yes. I have it.
    Mr. Higgins. This one is from Mr. Jennings, himself. He is 
using the Republican National Committee e-mail account, too. In 
this e-mail Mr. Jennings is using his GWB43.com account to 
communicate with GSA's White House liaison, J.B. Horton. My 
question is: were you aware that your staff was communicating 
with the White House officials who used e-mail accounts 
controlled by the Republican National Committee?
    Ms. Doan. No, I was not.
    Mr. Higgins. Let me show you another e-mail on page 3 of 
your packet. This one is from your confidential assistant, Ms. 
Truesdale. She had apparently been contacted by GSA staff who 
wanted to do a trial run with a copy of the presentation on 
GSA's audio-visual equipment. Ms. Truesdale says that she can't 
share the document for use in a pre-meeting walk-through. Here 
is what she says, ``I just heard back from the presenter, and, 
as much as the information is highly sensitive, he would prefer 
not to e-mail it.''
    Ms. Doan, the e-mails show that Mr. Jennings regarded the 
briefing as ``highly sensitive.'' His assistant also called 
them close hold, that other people should not see. Do you know 
why he would regard the briefing as highly sensitive?
    Ms. Doan. No, I don't. I think you would have to speak to 
the person whose e-mail and all this attachments that it was.
    Mr. Higgins. I think the answer, Mr. Chairman, is obvious. 
The briefing is highly secretive because it contains partisan 
political analysis and strategy. The White House didn't want to 
share their target list with Democrats and they didn't want 
Democrats to know whom they regarded as most vulnerable 
Republican Members.
    It is perfectly appropriate for party leaders to compose 
these kinds of political hit lists and to hold discussions 
about political strategy among party officials. It is not 
appropriate to use Government agencies to advance partisan 
political agendas, yet that is exactly what happened here.
    GSA's top officials were assembled to hear a presentation 
about targeting Democratic Members in the upcoming elections, 
and then they discussed how GSA could help Republican 
candidates. They did this in a Government building during a 
week day where these officials should have been doing business 
of the American people.
    Mr. Chairman, I would like to make one other observation. 
Mr. Jennings and other White House officials appear to be using 
their Republican National Committee e-mail accounts on a 
routine basis to discuss politically sensitive topics. We know 
from documents obtained by the Judiciary Committee, for 
example, that Mr. Jennings used the identical Republican 
National Committee account to discuss the U.S. Attorney firings 
that he was involved with, and we know this from the 
committee's work that the Abramoff investigation, that the 
White House used Republican National Committee e-mail accounts 
to communicate with Mr. Abramoff and his staff.
    I think this is a subject the committee should investigate, 
and it would be a serious abuse if White House officials were 
using these political e-mail accounts to subvert the 
requirements of the Presidential Records Act.
    Chairman Waxman. The gentleman's time has expired. Thank 
you, Mr. Higgins.
    Mr. Burton.
    Mr. Burton. I used to be the chairman of this committee. My 
picture is here some place.
    Ms. Doan. I know. You look just like it.
    Mr. Burton. I want to tell you, Ms. Doan, I really 
appreciate you coming here and being very open, and I want to 
thank you for the $200,000 for the Republican Party. I wish 
more people would do that.
    Now, I have great respect for my colleagues on the other 
side of the aisle. I have worked with them on a lot of 
legislation, and Henry and I, the chairman, he was my ranking 
Democrat for 6 years. I want to give you a little bit of a 
history lesson, because this is pretty interesting.
    We had over 100, maybe 150 people that we had as witnesses 
that were dealing with the Clinton administration that either 
took the fifth amendment or left the country. They wouldn't 
even talk to us. We had to issue over 1,200 subpoenas to get 
people to come up from the White House to talk to us. And every 
time we did that Henry would say, ``This is a witch hunt. This 
is a witch hunt.'' So I just want to say to my good friend, 
Henry, you know, there is nothing as self righteous as a 
reformed lady of the evening.
    Now, let me go into a few things that happened during my 
tenure as chairman. We had two guys that were downloading FBI 
confidential files into home computers, which is illegal. These 
are top secret things. Two guys, Marceca and Livingston. You 
know, when we had them before the committee they could not 
remember who hired them at the White House. Now, Mr. Aldridge 
who was the FBI agent who worked down there, said that he was 
told by the chief of staff that Hillary Clinton hired them. 
But, of course, when we brought that up in the committee, my 
god, this is a witch hunt, you can't talk about that. But they 
were downloading FBI files into home computers so they could 
get stuff on Republicans to give us a hard time.
    We had a guy named Johnny Chung come before the committee 
who told us he got $300,000 from the head of the Communist 
Intelligence Agency in Hong Kong in a restaurant saying that he 
wanted to give it to the Clinton administration because he said 
he thought President Clinton was doing a good job and he wanted 
him re-elected. This was illegal. But, once again, this was 
just a witch hunt.
    We had a guy named John Whong--that was Johnny Chung, the 
first one. John Whong, who was a member of the Lippo Group, 
said that the Lippo Group of Indonesia gave the Clinton 
administration millions of dollars in illegal campaign funds. 
But, once again, this was a witch hunt.
    We had people come from the White House. I had the chief of 
staff at the White House, his assistant, the chief counsel at 
the White House, person after person at the White House come 
down here and testify about all these things, and they couldn't 
remember a thing.
    We had what we called an epidemic of selective memory loss. 
It was really a difficult time. And all the while that this was 
going on my good friend, Mr. Waxman, kept saying in the media 
and all over the country, ``Burton is on a witch hunt. This is 
terrible. These are horrible things that were going on.''
    So I just want to tell you, Ms. Doan, you are here. You 
have not taken the fifth amendment. You have not fled the 
country. You are a patriotic American. I appreciate what you 
are doing by testifying here today. And don't let these guys 
intimidate you. And you haven't and I really appreciate that.
    Now, I have high regard for my Democrat colleagues, and I 
see a lot of new Members over there, but before you start 
pointing fingers about something that really can't be proven--
this is all spurious arguments that are being made. But before 
you start pointing fingers please do me a favor. Do me a favor. 
Go back and look at 6 years of investigations that we conducted 
when I was chairman of this committee and find out how many 
people in the administration couldn't remember things, how many 
people wouldn't talk, how many fled the country or took the 
fifth amendment, and then come back and say to me, ``Well, we 
want to be fair.''
    I yield the balance of my time to Mr. Davis.
    Mr. Davis of Virginia. On the e-mail----
    Chairman Waxman. Before you yield to Mr. Davis, I just want 
to point out--make sure this time doesn't count. Stop the 
clock. You have 1 minute left. I just want to say to Mr. Burton 
his characterizations today are inaccurate, wrong.
    Mr. Burton. This is my time. Let me just say let's go and 
get all the newspapers and the reports from the committee and 
look at them. We will find out how inaccurate they are. Look at 
the papers and look at the records. You did that for 6 years, 
and now you are going to have to eat it.
    Chairman Waxman. If I might just conclude very, very 
briefly----
    Mr. Davis of Virginia. I just want to get----
    Chairman Waxman. I would like to put in the record a report 
that we did on Mr. Burton's investigation so people can see 
what we thought was going on, and we also heard what you had to 
say that you thought was going on. Without objection, that 
report will be made part of the record.
    Mr. Burton. As long as mine is in there, I don't object.
    Chairman Waxman. Mr. Davis has the last minute.
    Mr. Davis of Virginia. Thank you.
    You know, officials appointed by the President with the 
advice and the consent of the Senate who are in policy-
determining positions and certain Presidential aides have 
restrictions, I mean are exempt from restrictions, the no 
politics portion, so I don't think a lot of this applies to 
you, but, anyway, the Office of Special Counsel is looking at 
this.
    Ms. Doan. They are.
    Mr. Davis of Virginia. Despite Members' individual opinions 
on this, I think what will be there will be. What I think is 
clear here is that this is now turning into an assault, less on 
you--I think you have acquitted yourself well today--than on 
the administration, and raises other issues I suspect the 
committee will be looking at over time.
    I just want to ask for the record, the e-mails that came to 
your aide that were put up on the board a couple of minutes 
ago, did you ever see those? Do you recall seeing them?
    Ms. Doan. No, I did not.
    Mr. Davis of Virginia. So a lot of e-mails go to aides and 
stuff that never gets on your desk; is that correct?
    Ms. Doan. That is very true.
    Mr. Davis of Virginia. OK. I wanted to clarify that for the 
record.
    Once again, this is nothing that she did. This is something 
the White House evidently does on a fairly routine basis, and 
as far as you go, the initial allegations against you have now 
turned into just a lot of political mud fighting, 
unfortunately.
    Thank you.
    Ms. Doan. Thank you.
    Chairman Waxman. The gentleman's time has expired.
    We will now go to Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Looking at the GSA mission statement again, it talks about 
respect for fellow associations, professionals----
    Ms. Doan. Excuse me, Congresswoman, could you talk just a 
tad louder.
    Ms. McCollum. Well, there has been so much yelling going on 
I thought maybe a softer voice might be appreciated.
    Under the GSA general missions, your values are listed: 
ethics----
    Chairman Waxman. Ms. McCollum, would you speak right into 
the mic? I'm even having trouble hearing you.
    Ms. McCollum. I couldn't get much closer to it, Mr. Chair. 
Maybe I don't have a good mic.
    Ethics and integrity in everything we do, respect for 
fellow associates, teamwork. When you received the briefing on 
the Hatch Act, did you sign off any information? Did they give 
you any booklets to get home?
    I worked in the private sector for a long time and on our 
ethics in retail to make sure that my employees were doing 
things, they were handed a booklet. They signed off on 
something, and once you signed off on it you became responsible 
for it. It was your responsibility to read it all. Do you 
recall if you were given anything?
    Ms. Doan. Congresswoman, I know I am under oath, so I have 
to tell you I can't remember, but what I can do is we can check 
and then I can come back to you with this after the hearing 
with exactly. I do know that I had an ethics letter that I had 
signed when I became a Presidential appointee, and that was 
done by the General Counsel's office, you know, and I signed 
off on that. I know I did that. I did attend a Hatch Act 
briefing, but what I am having a little trouble remembering is 
whether there was actually a document that at the time of the 
briefing I had to sign off. But I can check and followup with 
you on that. Would you like me to do that?
    Ms. McCollum. Well, once any one of us signs off on those 
things we assume a responsibility, a very serious 
responsibility, especially when we are supervising individuals. 
Class C employees are not exempt from the Hatch Act. They are 
not exempt. So I want to go back, very seriously, to a letter 
on March 13th that you sent to this committee, in which you 
stated there were no improper political actions that occurred 
during or as a result of the January 26th teleconference. But 
your statement doesn't square with the facts, because Class C 
employees are not exempt from the Hatch Act.
    You also today--and I believe you read it, so you might 
want to find it, because I don't want to misquote you or 
misrepresent anything you have said--you talked about advancing 
the policy of the administration. Well, what happened at this 
lunch is you were advancing the policy of Karl Rove and Mr. 
Jennings, either with the best of intentions or with no 
intentions, by what happened.
    So let's go back to the slides. These slides are clearly 
partisan. They are from the point of view of Republican. They 
are not saying team, Democrats, Independents, and Republicans. 
They say us versus them, in fact. Slide 2-566 is called Lost 
Ground with Swing Voters.
    Ms. Doan. Which one? Do you have a page number or 
something?
    Ms. McCollum. It is 566. It is upside down. It is up there, 
but right side up. Lost Ground with Swing Voters, Republicans 
or Democrats. This is the Republicans losing ground, is it not?
    Ms. Doan. Can I check with somebody?
    Ms. McCollum. Well, we will go to another slide.
    Ms. Doan. Honestly, I am happy to give an official opinion, 
and if you say that it is we can just assume it is and let's go 
on.
    Ms. McCollum. Slide 2-567, Bigger Losses Among Men. Who had 
the bigger losses, Republicans or Democrats? It is Republicans.
    The next slide, 568, Long-Term Problems Among Latinos and 
Youth Vote. Who has the long-term problem? Democrats? It is 
not. The us in all of these slides are referring to the 
Republicans.
    Here is the last one I am going to show, 576. This one 
shows the Republicans' 72-Hour Get Off the Vote Effort made a 
difference in several races.
    You concede that this slide refers to our strategy, meaning 
the Republican strategy? They are not talking about the 
Independent strategy or the Democratic strategy in 2008. So I 
am asking you, your statement in writing, you regarded this 
briefing as team building among GSA appointees. What kind of 
team do you think this presentation was building? An 
Independent, a Democrat, or a Republican team?
    Chairman Waxman. The gentlelady's time is expired, but the 
witness will be permitted to answer.
    Ms. Doan. I think she was just really probably trying to 
make a statement, so that is fine.
    Chairman Waxman. It sounded like a question to me. You 
don't want to respond?
    Ms. Doan. Was it a question?
    Chairman Waxman. What kind of team were you building?
    Ms. McCollum. What kind of team were you building?
    Ms. Doan. I am building the most incredible team in all of 
Government with incredible managers. Honestly, you guys, if you 
get past this and everything let me send you their bios. You 
have to look at these people. You have never seen anyone like 
these managers that I brought in. I have brought in people. 
These are not your regular Government people. These are people 
from the outside. This is new blood. It is a great team. You 
have to give them a chance. You really do.
    Chairman Waxman. OK. The gentlelady's time is expired.
    Mr. Shays, you are next for questioning.
    Mr. Shays. May I ask how many Members on the other side are 
still waiting to ask questions?
    Chairman Waxman. We have a lot of them over here.
    Mr. Shays. This is my time and I would like to reserve it.
    Chairman Waxman. OK. The gentleman will be called on later.
    Next in order in the committee is Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    My questions are really trying to go to the process inside 
of GSA, and so I am particularly concerned about the questions 
that have been raised on the SUN Microsystems contract. It 
appears that for 2 years the career contracting officials 
inside of GSA were refusing to renew the contract because SUN 
wasn't giving the kind of pricing that it was giving to its 
commercial customers, as I understand it. And then the 
Government, which really means taxpayers, paid tens of millions 
of dollars more than we should have paid because SUN concealed 
larger discounts that the company was giving to the private 
sector. I am curious as to your role in this.
    The committee interviewed one of the career contracting 
officials on the SUN negotiation, a fellow named Mike 
Butterfield, and he was opposed to signing the contract, as I 
understand, and he told the committee that he had warned that 
signing a deal with SUN ``would mean getting discounts that 
would be inferior.'' But after he made his recommendation to 
end the negotiations, Jim Williams, who is your Commissioner of 
the Federal Acquisitions Service, told him that you wanted the 
SUN contract done anyway. I believe his exact words to Mr. 
Butterfield were, ``Lurita wants this contract awarded.''
    So my question is: did you tell Mr. Williams that you 
wanted the SUN contract to be done in spite of all of these 
reservations that had been brought forward?
    Ms. Doan. I cannot give you an exact, verbatim quote, but 
what I can tell you is the sense of it, and that is that I 
spoke with Commissioner Williams and told him that I needed him 
to use his best judgment, put his best people on the effort, 
and try to understand what is the sense of it.
    I think, if you could just possibly allow me to give you 
just a little bit of the context of all of this, it only came 
to my attention because I was sort of abruptly told that SUN 
Microsystems had been referred for some kind of criminal 
judgment--that is probably not the legal word--to the 
Department of Justice, and I was absolutely astounded, because 
this was the first I had ever heard of this, and yet I had had, 
you know, multiple meetings with my Inspector General. It had 
somehow never come up. So that was sort of the entry point 
where I became engaged.
    But at no time in either event have I ever intervened. I do 
not believe that I have been intrusive in any way. I do believe 
that, as the head of the agency, I have not just a right but 
also an obligation to be informed, to understand what is going 
on, and to make some actions transparent to everyone within our 
community. So obviously SUN Microsystems is a technology vendor 
that falls under our Federal Acquisition Service. Our 
Commissioner, Jim Williams, we were all, all of senior 
management, totally, totally in the dark. We did not know any 
of these challenges were going on connected to the Department 
of Justice, because we had not been apprised. We had not been 
kept informed. We had not been briefed. This was just 
completely mind boggling to me that something of this scope 
could have happened, with repercussions across the entire 
Federal Government, and that nobody, not anybody, would have 
seen fit from the IG's office or, you know, nowhere, they never 
came to me, they have came to my chief of staff, they never 
came to the Commissioner, who is directly affected and 
oftentimes meets with these people every day. They never did 
that.
    Mr. Sarbanes. Thank you. Actually, I am not as interested 
in that particular----
    Ms. Doan. This is not my time? I'm sorry. I thought that 
was my time to talk.
    Mr. Sarbanes. I'm not as interested in----
    Ms. Doan. Sorry. This is my first hearing.
    Mr. Sarbanes [continuing]. That particular issue. What I am 
going to is the people that were most familiar with the 
contract who were bringing forth their concerns, it is 
interesting, because you said the context you wanted to give me 
was that your message back was exercise your best judgment, but 
that directly contradicts the message that Mr. Butterfield 
feels he was receiving, which was, despite your concerns about 
this contract, we want this to be done. And when Mr. 
Butterfield held his ground and refused to sign the contract, 
what happened to him?
    Ms. Doan. I have never met Mr. Butterfield and I didn't 
realize that he was a contracting officer. I do not know what 
happened to him. But I will tell you that what you are saying, 
I truly believe what you are implying, rather, seems untrue. 
What I know is that Jim Williams is a great Commissioner for 
the Federal Acquisition Service. He has stellar judgment, and 
we have great contracting officers. I don't know what Mike 
Butterfield said. I don't really know what Jim Williams says. 
But what I do know is that----
    Mr. Sarbanes. Well, Mr. Butterfield----
    Ms. Doan [continuing]. I have said that----
    Mr. Sarbanes. What he told the committee was that he was 
replaced by another contracting officer named Shana Budd, who 
then signed the contract. And the Inspector General----
    Ms. Doan. No, excuse me, who negotiated a great deal for 
the American people, and in the process of doing that signed a 
contract.
    Mr. Sarbanes. Yes. Well, our information is that it wasn't 
a great deal for the----
    Ms. Doan. We must beg to differ on this.
    Mr. Sarbanes. Mr. Chairman, just 30 seconds.
    Chairman Waxman. Without objection, the gentleman will be 
given 1 additional minute.
    Mr. Sarbanes. Thank you very much.
    What I am concerned about is the message that gets sent 
down from high levels to professionals in these agencies, and 
this is adding sort of the third leg to a three-legged stool I 
see in terms of an assault on Federal employees.
    The first piece that we have seen in your hearings, Mr. 
Chairman, is cutting resources to people that are trying to do 
their job. The second piece is contracting services out without 
the oversight that ought to be with them. And the third piece, 
which is evidenced here, is that when people try to do their 
job and they bring their best judgment to the table they are 
overruled from above in a way that I think is demoralizing for 
people in that agency.
    Thank you.
    Chairman Waxman. Thank you, Mr. Sarbanes.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. I appreciate your 
recognizing me.
    I want to say to you, Ms. Doan, I think you have a 
remarkable history and you should be very proud of your 
accomplishments as a minority businesswoman who did something 
any American would be so grateful to do--create a business that 
you could be so proud of. And you did it, and many of us 
haven't. I congratulate you for that.
    I also want to thank you from the bottom of my heart for 
your service to our country, for your willingness to step in 
and basically make so much less than you make in the private 
sector, and want to serve a President you believe in. And I 
particularly appreciate it because now the President isn't so 
popular, and the in thing is to say you hardly know the man, 
and good for you.
    You know, with hindsight I would have recommended to the 
White House they not do this chart and I would have recommended 
they should know to have probably said to you, you know, this 
shouldn't happen on a Government site. But this wasn't about 
how you were going to raise money and it wasn't how you were 
going to undermine Democrats. It helped explain why we lost. 
And I think we, Republicans, you know, we lost because of 
corruption issues, we lost because we weren't doing things as 
well as we should have. You know, a terrible thing for someone 
to have learned. Frankly, I am happy that would have been 
conveyed so it would tell you that, you know, if you want to 
help your country and you want to help someone you believe in, 
just do a good job. That is the message that I heard.
    It is my understanding--and I want to say this--that when 
you have had events, that you make sure Republicans and 
Democrats all know about it. And I fully understand if a 
Democrat administration is in power, you know, they might 
notify our two Senators, or at least one of our Senators first 
before they notify me, but they are going to invite me and they 
are not going to say I have done a great job. They will say the 
Senator has. I understand that, and I don't lose sleep about 
it.
    I feel like this committee is straining out gnats and 
swallowing camels at this particular hearing. We have had a lot 
of very important hearings. This isn't one of them.
    With that, I would like to yield time to my colleague.
    Mr. Davis of Virginia. Thank you.
    You never met Mr. Butterfield to your recollection; is that 
correct?
    Ms. Doan. I still have not yet.
    Mr. Davis of Virginia. And I'd just refer the gentleman to 
Ms. Budd's, who did negotiate that, her comments that we put in 
the record earlier in the day.
    SUN Microsystems were referred to the Department of 
Justice, is my understanding from the IG.
    Ms. Doan. That is what I believe.
    Mr. Davis of Virginia. Did you do anything to stop them 
from being referred? Did you step in the way and say we can't 
do this?
    Ms. Doan. No, I did not.
    Mr. Davis of Virginia. You just let the ordinary process 
take its way and let the----
    Ms. Doan. Apparently, it actually had already been done, 
but nobody bothered to inform me. It had already happened 2 
weeks before.
    Mr. Davis of Virginia. And it would be helpful to know 
that, wouldn't it?
    Ms. Doan. It would have been nice to at least have a 
courtesy memo dropped to me or something.
    Mr. Davis of Virginia. And that is really part of the 
problem here, isn't it? The IG, who is supposed to report to 
you, just----
    Ms. Doan. And he doesn't, and it is hard because we sit 
with our vendors and they feel in many ways that we are two-
faced and we are not, you know, we are not understanding of 
their issues, and it is very hard when you are sitting in a 
meeting with someone and they know they have been referred to 
the Department of Justice and you are smiling and doing a meet 
and greet and you don't bring it up, and it looks like we are 
duplicitous, when the truth of the matter is we were simply 
uninformed.
    Mr. Davis of Virginia. We don't debar companies for 
referrals to Department of Justice, do we?
    Ms. Doan. No, we do not.
    Mr. Davis of Virginia. It is not in the rules, is it?
    Ms. Doan. No. I think there has to be a ruling and a 
finding and wrongdoing found.
    Mr. Davis of Virginia. Yes, there has to be adjudication.
    Ms. Doan. Nothing has happened in that area yet, to my 
understanding.
    Mr. Davis of Virginia. So if you were to debar them or 
throw them out for this and there had been no adjudication, you 
would probably be in violation of the law, wouldn't you?
    Ms. Doan. Yes, but I don't think debarment would be 
happening even as a result. That is for the Department of 
Justice to decide what has to happen.
    Mr. Davis of Virginia. Exactly.
    Ms. Doan. I think.
    Mr. Davis of Virginia. If they were convicted----
    Ms. Doan. Can I just correct it, because I don't know the--
--
    Mr. Davis of Virginia. You are not an attorney.
    Ms. Doan. The General Counsel for GSA is making wild 
signals to me.
    Mr. Davis of Virginia. Not renewing the contract would be 
de facto debarment.
    Ms. Doan. Yes. right.
    Mr. Davis of Virginia. That is my point.
    Ms. Doan. OK. I am sorry.
    Mr. Davis of Virginia. But if SUN Microsystems is 
adjudicated, if Justice sees merit in this and moves forward, 
they could still be debarred, right?
    Ms. Doan. Yes. It would then come to our suspension and 
debarment official and then he would take that action.
    Mr. Davis of Virginia. And that has not happened, has it?
    Ms. Doan. No, that has not.
    Mr. Davis of Virginia. And if that came up, then you would 
review it on its face and weigh all the other factors?
    Ms. Doan. Well, I wouldn't be. I actually have delegated 
that authority to the suspension and debarment official at GSA.
    Mr. Davis of Virginia. Well, that brings me up, because 
there were some allegations earlier about there was--and you 
might say this where the Big Five accounting firms or Four--I 
don't want to slight anybody--en masse, and you were told about 
that, and what would that have done to the Government to not 
have been able to get the accounting from the biggest 
accounting firms and have them eligible to do audits. That 
would have crippled.
    Ms. Doan. It would have been devastating, especially since 
initially, when e-mail came to me, it was 2 weeks before the 
end of the fiscal year.
    Mr. Davis of Virginia. But you didn't do anything to 
interfere with that, did you?
    Ms. Doan. No. It was a Sunday. I just wanted to be 
informed. I was hoping people could wait until Monday to do it.
    Mr. Davis of Virginia. Can you imagine what would have 
happened if a debarment official debarred the Big Four 
accounting firms with Government audits coming on and we had to 
go to smaller companies that did not have the level of 
expertise to get this done, and all of the sudden----
    Mr. Shays. Could I ask for a unanimous consent?
    Mr. Davis of Virginia [continuing]. You didn't know about--
--
    Mr. Shays. Mr. Chairman, could I ask unanimous consent for 
my colleague. It is my time.
    Chairman Waxman. This is your time.
    Mr. Shays. It is my time. And could I ask for unanimous 
consent for an additional minute?
    Chairman Waxman. I will let Mr. Davis complete his 
sentence, but we have----
    Mr. Shays. Could I ask for a unanimous consent for an 
additional minute?
    Chairman Waxman. The Chair will object, because we do want 
to get another Member able to ask questions.
    Mr. Davis of Virginia. I think my point is simply this. My 
understanding is that you just made an inquiry at that point 
and wanted to be informed. You did nothing to interfere with 
that decision.
    Ms. Doan. I did not.
    Mr. Davis of Virginia. But had you not been informed and 
that, in fact, took place, can you imagine coming up before 
this committee at that point and saying you were out of the 
loop.
    Ms. Doan. Yes.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Let me ask you this question. Jim 
Williams, your Commissioner of Federal Acquisition----
    Mr. Shays. Point of order, Mr. Speaker. Point of order.
    Chairman Waxman. The Chair has not taken his time.
    Mr. Shays. And are you yielding yourself----
    Chairman Waxman. I am asking a question. That is my answer 
to your point of order.
    Mr. Shays. I'm asking if you are yielding time. I am 
raising a point of order. I would like to know----
    Chairman Waxman. What is the point of order?
    Mr. Shays [continuing]. If you are yielding yourself 5 
minutes now.
    Chairman Waxman. I am yielding myself 1 minute.
    Mr. Mica. Point of order. Point of order. Question. The 
parliamentary inquiry about the rules----
    Chairman Waxman. Look, you have carried on enough today. I 
would like to ask a question.
    Mr. Mica. I have a parliamentary inquiry.
    Chairman Waxman. Jim Williams, your Commissioner----
    Mr. Mica. I have a parliamentary inquiry----
    Chairman Waxman [continuing]. Of Federal Acquisition 
Services----
    Mr. Mica. I have a parliamentary inquiry.
    Chairman Waxman [continuing]. Told the committee that he 
knew of the----
    Mr. Mica. Parliamentary inquiry.
    Chairman Waxman [continuing]. Department of Justice 
referral in early August.
    Mr. Mica. Parliamentary inquiry.
    Chairman Waxman. Did he not tell you that? And do you know 
why he didn't tell you if he didn't.
    Mr. Mica. Parliamentary inquiry.
    Ms. Doan. I don't know what Jim Williams told you all. What 
I do know is that I was--I think it was--I don't want to go 
with the date, but it was, like, 26, 27, somewhere, 29, 
something like that. That was when I first heard about it. It 
is not, I believe--I don't know who heard about it first. I 
think you would have to probably followup with me afterwards. I 
can do something in writing and figure out exactly that time 
line.
    Chairman Waxman. OK. Thank you.
    Mr. Mica. Parliamentary inquiry.
    Chairman Waxman. It is Mr. Welch's time. What is your 
parliamentary inquiry?
    Mr. Mica. Parliamentary inquiry relates to yielding 1 
additional minute to the minority Member who requested it. He 
waited patiently for his time. Others were yielding----
    Chairman Waxman. I am sorry. That is not a parliamentary 
inquiry. It is, rather, a complaint, and I think an unfounded 
one.
    Mr. Welch.
    Mr. Shays. I do have a parliamentary inquiry, Mr. Chairman, 
and it is a sincere one. I just want to----
    Chairman Waxman. All of your statements are sincere. What 
is it?
    Mr. Shays. Well, I know, but I would like you to listen, 
and my request is this: would you think that your obligation is 
to yield yourself 5 minutes, because what I see is you yielding 
yourself 1 minute in between our questioning, and then we never 
know when your time is. So wouldn't it be logical that you 
would----
    Chairman Waxman. If the gentleman would permit, while I 
don't think that is a parliamentary inquiry, I gave Mr. Davis 
additional time. I didn't cut him off when his time finished. 
It wasn't a great deal of time.
    Mr. Shays. My parliamentary inquiry----
    Chairman Waxman. But I, as the Chair, have the prerogative 
of asking a question that related to this matter, and I said I 
yielded myself time for that. That is out of my time. But, if 
you will permit----
    Mr. Shays. Just one question.
    Chairman Waxman. Let me ask this of Mr. Welch. Do you want 
to take your time now, because we are going to have to respond 
to votes.
    Mr. Shays. I just want to know how the process works.
    Chairman Waxman. Well, you know how the process works. What 
is your question?
    Mr. Shays. The question is this: when you yield yourself 
time isn't it appropriate to yield yourself 5 minutes and to 
use your 5 minutes and not choose a minute here and a minute 
there and a minute here? That is my question.
    Chairman Waxman. Well, that is a good question, except the 
Chair does have prerogatives, and I have seen other chairmen, 
including yourself, use the prerogatives of the Chair to 
occasionally ask questions. I am not going to consider that in 
violation of the rules.
    Now, Mr. Welch----
    Mr. Shays. So you can give yourself time any time you want?
    Mr. Welch. I will proceed if we have enough time for the 
vote.
    Chairman Waxman. I think we have 5 minutes.
    Mr. Welch. OK. Thank you.
    Ms. Doan, thank you. Just one very simple question about 
this presentation, and it is this: you know what the content 
is. It identifies the 20 Democratic targets to be defeated in 
the next election. Was that a proper topic of discussion and 
presentation at a lunch at your office?
    Ms. Doan. Congressman, there is an investigation open by 
the Office of Special Counsel. I am not even going to try to 
speculate on this. I am just going to let the investigation 
take its course, let them make their decision. They are 
independent. I will live with it.
    Mr. Welch. In your capacity as the head of that 
organization, was that a proper topic of discussion at a lunch?
    Ms. Doan. Congressman, I am going to let the Office of the 
Special Counsel's investigation move forward and let them make 
a judgment as to what they feel is appropriate or not.
    Mr. Welch. I heard you the first and the second time.
    Ms. Doan. OK. Great.
    Mr. Welch. And let me ask you my question the third time. 
In your capacity as the head of the organization, where you 
have responsibility about the administration of time within 
your office, was that a proper topic of discussion?
    Ms. Doan. I am going to allow the Office of the Special 
Counsel to make a decision on this investigation. Since it is 
open, and this is exactly what they do, I am going to allow 
them to make a decision as to whether they thought it was 
appropriate or not.
    Mr. Welch. Yes, but I am asking you whether you thought it 
was appropriate.
    Ms. Doan. And, Congressman, I am going to allow the Office 
of Special Counsel, which has an open investigation, to proceed 
with the course of their investigation. I am not going to try 
to murky the waters one way or the other, and I am going to 
allow them to make their independent judgment, and I will live 
with it.
    Mr. Welch. Well, I would be glad to live with your answer, 
if you would give me an answer.
    Ms. Doan. I am happy to leave the investigation and the 
decisionmaking to the Office of the Special Counsel, 
Congressman.
    Mr. Welch. If Nancy Pelosi called up and said that she 
wanted to come over or send somebody over to identify the top 
20 Republican targets, maybe some of our friends here, would 
that be a topic that you would invite her or her 
representatives to discuss at lunch?
    Ms. Doan. We were very blessed to have Speaker Pelosi in 
our new San Francisco Federal building, and I'll tell you----
    Mr. Welch. I didn't ask you if she was going to come to a 
ribbon cutting. Look, this is a very serious question. You have 
a very serious responsibility.
    Ms. Doan. Yes.
    Mr. Welch. The person who heads an agency has to make 
certain that there is integrity in how the time of taxpayer 
money and people working for taxpayers is used, whether they 
are Schedule C employees or not. Right?
    Ms. Doan. Yes. I have a responsibility to----
    Mr. Welch. It is a very simple question. I honestly, you 
know, I listened to you not remember, not remember, not 
remember, despite what is very clearly a very good memory and a 
very competent record of accomplishment in your own career, so 
I found that a little frustrating.
    Ms. Doan. So does my husband, because I can never remember 
our wedding anniversary.
    Mr. Welch. You want to know something? I am deadly serious 
about this because it is a very simple question.
    Ms. Doan. I understand.
    Mr. Welch. And I find you being evasive on this, in all 
candor.
    I am asking you very simply, as the Chief Operating Officer 
of this very important organization, whether you think it was 
proper to allow a political appointee to come in on lunch time 
and identify the 20 political targets in the House races. It is 
a simple question that I am asking you. I am asking you your 
opinion. I am not asking you what I know to be the case if 
there is an ``investigation'' ongoing.
    Ms. Doan. I appreciate that, Congressman, and since there 
is an open investigation ongoing and since this investigation 
involves me I believe that I need to allow this independent 
investigation by the Office of Special Counsel to proceed 
without weighing in one way or the other and coloring their 
judgment.
    Mr. Welch. How does it adversely affect the investigation 
if you express an opinion about----
    Ms. Doan. I have not yet been interviewed.
    Mr. Welch [continuing]. Using lunch to have a discussion 
targeting political candidates?
    Ms. Doan. Congressman, I have not had an investigation 
before by an Office of Special Counsel. I have actually not 
testified in front of a committee before. But what I will tell 
you is that I will allow what is another organization's 
responsibility, which is to make a decision on this matter, to 
proceed. And I will wait and live with their judgment.
    Mr. Welch. Let's say an archbishop--I am a Catholic----
    Ms. Doan. So am I.
    Mr. Welch [continuing]. Wanted to come in and proselytize 
at lunch. Would that be a proper activity at lunch?
    Ms. Doan. I don't know. I might have to take the Fifth on 
this. I don't know the murkiness of that.
    Chairman Waxman. Would the gentleman yield?
    You are going to have to answer this question to the 
Special Counsel. Why can't you answer this question to us?
    Ms. Doan. And when the Special Counsel asks me, this is 
their purview. When they investigate and----
    Chairman Waxman. It is also our purview----
    Ms. Doan. I appreciate that, Mr. Chairman.
    Chairman Waxman [continuing]. To ask you whether you think 
it is appropriate. I think it is a violation of the law.
    Ms. Doan. Mr. Chairman----
    Chairman Waxman. Do you think it is appropriate?
    Ms. Doan. Mr. Chairman, you are allowed to have an 
opinion----
    Chairman Waxman. I want your opinion.
    Ms. Doan [continuing]. And this is a free country, I am 
allowed to have one, too, and my opinion is that I get to 
wait----
    Chairman Waxman. We are asking your opinion.
    Ms. Doan. I am telling you. My opinion is I get to wait 
until the Office of Special Counsel makes a decision, and I 
will live with it.
    Mr. Welch. That is not an opinion.
    Ms. Doan. Yes, it is.
    Mr. Welch. That is a----
    Ms. Doan. It is my opinion.
    Mr. Welch. That is a tactic.
    Ms. Doan. No, no, no.
    Chairman Waxman. That is a tactic----
    Ms. Doan. Politicians have tactics.
    Chairman Waxman [continuing]. Of evasion.
    Chairman Waxman. The gentleman's time has expired. We have 
a series of votes on the House floor. We will recess to respond 
to those votes, then Members who have not been recognized will 
complete the questioning of Ms. Doan. Then we will hear from 
the Inspector General.
    Mr. Turner. Mr. Chairman, if you might, please, if you 
could recognize me and allow me to yield my time to the ranking 
member so that he might have my time when we return, I would 
greatly appreciate the favor.
    Chairman Waxman. You want to do that now?
    Mr. Turner. If you would allow.
    Chairman Waxman. We do have to respond to the vote.
    Mr. Turner. And then he could take his 5 minutes when we 
return from voting.
    Chairman Waxman. I will check the rules on that, but I 
would certainly want to be as generous as possible to my 
colleagues.
    We will now adjourn to respond to the votes.
    [Break.]
    Chairman Waxman. The meeting of the committee will come 
back to order.
    Mr. Davis of Virginia. Mr. Chairman.
    Chairman Waxman. Yes?
    Mr. Davis of Virginia. Let me just say at the outset that I 
know some of my colleagues have expressed some consternation 
about your inter-toning. When I was chairman I would 
occasionally, as you know, tone in after a question for 
clarification, and we have always had an understanding. We 
don't try to abuse it, and I know you are bending over backward 
to be fair, but that is in tune with how I acted, as well. I 
just wanted to clarify that. This has been a rough hearing. We 
have some disagreements about this, but, you know, I appreciate 
your trying to answer some of the inquiries and just note for 
the record that I intoned when I was chairman, as well.
    Chairman Waxman. I appreciate that.
    Mr. Davis of Virginia. And we are trying to get through 
this.
    Chairman Waxman. I appreciate that, and I want to be fair 
to all the Members on both sides of the aisle on this 
committee.
    Mr. Tierney, it is your turn.
    Mr. Tierney. Thank you, Mr. Chairman.
    Chairman Waxman. Just a minute, Mr. Tierney. Ms. Norton was 
ahead of you. I didn't see her walk in, but she is here, and I 
am going to recognize her to take her turn.
    Ms. Norton. This may not be a welcome occasion. More than 
most Members, I am saddened by this occasion, surprised even by 
it, because I have gotten to know you since you have become 
Administrator. I share jurisdiction with this subcommittee. I 
also know personally about your accomplishments and am proud of 
your accomplishments, particularly as an African American 
businesswoman. I know how likeable and bright you are.
    One of the reasons why I think, for the administration 
people here, you have an obligation because you are not doing 
your job when these people are making their transition from the 
private sector. Anybody in the White House who had this woman 
in on that call, you ought to be--that is who ought to be 
punished.
    Look, I am not going to ask the political questions, 
because the most serious things that have happened here, as far 
as I am concerned, the political questions are very 
embarrassing, very straightforward, will be understood by the 
public. I am more concerned about the IG and the SUN 
Microsystems, and I can't ask about both of them.
    Ms. Doan, I worked with the appropriators when you combined 
Government policy and congressional affairs, because that, 
again, gave the impression of politicizing the Office of 
Government Policy. Maybe it wouldn't have looked that way in 
the private sector. That is an agency where GSA is the lead 
agency, but it controls travel and space use all around the 
Government. It is kind of the CR. It kept that from happening. 
But the IG, somebody should have told the Administrator how 
sacred the IG was.
    In your testimony--and you have to explain how you explain 
this--on page 4 you describe what amounts to your attempt to 
order the IG. In black and white here it looks like the 
Administrator is having problems with the IG, the way he spends 
his money. And you say that the divisions were required to 
supplement the Office of IG with an additional $5 million above 
and beyond the budget that Congress had approved and 
appropriated, and you quickly moved to address this imbalance.
    Administrator Doan, were you not aware that, in removing 
this $5 million, you were not removing money from the IG's 
budget. Each division has set aside funds that are, indeed, 
included in the budget of your agency so that pre-audits may 
occur. Pre-audits are what divisions do to make sure that they 
will not be hauled before Congress for violations or for not 
getting the best deal for the Government.
    Your agency manages $56 billion in contracts for the 
Defense Department, Homeland Security, and other agencies. By 
taking that $5 billion (sic), which divisions request pre-
audits be done of their work, very businesslike practice, to 
assure they were getting the best deal for the Government, you 
left the impression that you did not want, particularly in 
eliminating the entire amount, that you did not want pre-audits 
in order to assure that the best deal was being done. Far from 
what your testimony says, as if somehow the IG was over-
spending, the money had been included and you apparently had to 
restore it because the Hill went ballistic. This money was 
included so that this $56 billion in contracts could be pre-
audited to catch the kinds of errors and bad deals that this 
committee has already heard a great deal about last year and 
this year.
    Why do you characterize in your testimony as the IG 
spending beyond his budget? Were you aware that this money was 
already in the budget of your agency to do pre-audits and that 
you were de-funding all pre-audits for $56 billion of contracts 
when you did that?
    Ms. Doan. Do I have time to respond?
    Chairman Waxman. Yes, please. Please respond.
    Ms. Doan. Congresswoman Norton, thank you for your kind 
comments at the beginning.
    To give you a very brief context, as I mentioned in my 
hearing submission and in my oral presentation, when I came to 
GSA this was an agency that was in distress, and I mentioned 
that it was over $100 million deficit that I had to immediately 
work to address. What I found was that the $120 million that 
was sort of in the red, if we are going to go from a business 
point of view, was actually in the division that ironically was 
now being tasked with paying the $5 million supplemental to the 
Inspector General.
    I am not undermining oversight. I am totally supportive of 
oversight.
    Ms. Norton. I am just asking you a question. Did you know 
that money was included in your budget precisely for pre-
audits, and that he was not over-spending his budget?
    Ms. Doan. What I know is that this funding was coming from 
a failing division that was already $120 million in the red and 
they were required to supplement it. What I have always said is 
I approve----
    Ms. Norton. And so you think----
    Ms. Doan [continuing]. Of oversight because I want it to 
occur----
    Chairman Waxman. The gentlelady's time has expired.
    Ms. Doan [continuing]. In the appropriated dollars from the 
Inspector General. That is all I have asked. Do as many as you 
want, be as independent as you want, but do it within your 
appropriated funding.
    Chairman Waxman. Thank you.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Ms. Doan, I think today's hearing is pretty much about 
judgment, and yours in particular, and I know we are not going 
to go into political slides again. I accept the fact that you 
apparently want to give no opinion on that. But on the 
diversity issue, before you decided to give a contract to Edie 
Fraser had you ever personally reviewed the Small Business 
Administration report that granted an F to the agency?
    Ms. Doan. I'm sorry? What?
    Mr. Tierney. Before you decided to look in the direction of 
Edie Fraser, had you ever personally reviewed the SBA report 
that gave an F to your agency on the diversity issue?
    Ms. Doan. I had spoken with Philippe Mendosa, our OSDBUA. I 
trust him, and he at that time was warning me, giving me a 
heads-up, it is coming.
    Mr. Tierney. OK.
    Ms. Doan. It did, indeed, come.
    Mr. Tierney. So had you looked at the report, the SBA 
report, before you wanted to contract Edie Fraser----
    Ms. Doan. I believe that Philippe Mendosa tells the truth, 
and when he tells me that----
    Mr. Tierney. Ma'am, this isn't rocket science. I am asking 
you a question, and I am asking you to answer it. The Mr. Smith 
Goes to Washington stuff is old already, and it is not even 
over for this hearing, so just please answer the question. Did 
you personally look at the SBA report before you looked in the 
direction of Edie Fraser for a contract?
    Ms. Doan. I appreciate what you are trying to ask----
    Mr. Tierney. No, you don't, because you are not answering 
it. Did you or did you not?
    Ms. Doan. Congressman----
    Mr. Tierney. Did you or did you not personally look at the 
SBA report?
    Ms. Doan. Congressman Tierney----
    Mr. Tierney. Are you going to--Mr. Chairman, would you 
direct the witness to answer and be responsive?
    Ms. Doan. Would I be allowed to just----
    Chairman Waxman. This is the time for Members to ask you 
questions.
    Ms. Doan. OK.
    Chairman Waxman. There is a limited amount of time.
    Ms. Doan. I am sorry.
    Chairman Waxman. If it is a yes or no question, answer it 
yes or no. If you say you don't know, that is fine.
    Ms. Doan. OK. I appreciate it. I'm sorry, Mr. Chairman.
    Chairman Waxman. Just answer the question directly.
    Ms. Doan. This is the first time I talked with him. I was 
trying to be respectful.
    The answer to that, Congressman, is no.
    Mr. Tierney. Thank you. Now, had you talked to the people, 
your own Office of Minority and Disadvantaged Matters, about 
that report, about the F?
    Ms. Doan. Yes. I talked with Philippe Mendosa.
    Mr. Tierney. And did you do it in detail to find out what 
that report and findings were, what the data was behind it?
    Ms. Doan. Yes. We had a pretty long talk. I think we spoke 
in our first meeting for----
    Mr. Tierney. So the answer is yes?
    Ms. Doan. Yes. The answer is yes.
    Mr. Tierney. Thank you very much. If I direct your 
attention to page 16 of your packet, please, I want to show you 
a fact sheet that the GSA career people put together during the 
SUN Microsystems contract negotiations. It says in the post-
audit audit, which covered 1999 to 2005, we have forfeited 
$70.4 million in reseller price reductions and $7.04 million in 
GSA price reductions, for a total of $77.4 million. That was 
the last 5 years. The career auditors also discussed what would 
happen for the next 3 years of GSA signed the contract, and the 
fact sheet says about that, for the remaining 3 years on the 
extension option, if we accept SUN's proposed price reduction 
clause, we estimate we will lose a minimum of $13.1 million in 
reseller price reductions and $1.31 million in GSA contract 
price reductions, for a total of $14.41 million.
    Had you read that or familiarized yourself with that part 
of the report before Shana Budd took over for Mr. Butterfield?
    Ms. Doan. No, I did not, because I did not in any way----
    Mr. Tierney. OK. So without having read that----
    Ms. Doan [continuing]. Get involved in this process.
    Mr. Tierney. Without having read that, all right, Shana 
Budd comes on, and she then, within 9 days of the time she 
takes the job, for a matter that has been going on for a couple 
of years, within 9 days she then signs a contract with returns 
highly unfavorable to the taxpayer, and when we asked her about 
it, the committee asked her about it, she said, well, she 
doesn't rely on auditors to determine contract prices. Her 
approach is just to do what the contractor wants. That is a 
serious judgment issue.
    You are her boss. You don't look into this report or even 
know what the projected losses are or what the past losses are. 
You hire a woman whose approach, apparently which you adopt, is 
that she just wants to do what the contractor wants to do.
    The Inspector General then goes on to say that, with regard 
to your involvement in this, it is the first time we are aware 
of which an Administrator has personally intervened in this 
way.
    Now, you, on the other hand, tell Senator Grassley in his 
letter that you weren't involved. I wasn't briefed by FAS in 
August or any other time on the SUN Microsystems contract 
deficiencies. I had no knowledge of the negotiations or the 
basis for decisions made regarding this contract.
    I direct your attention to page 4 of your packet. On August 
27, 2006, Marty Wagner, Jim Williams' Deputy at FAS, the 
Federal Acquisition Service, sent an e-mail to your chief of 
staff, John Phelps, explaining that the SUN contract was likely 
to be canceled because they couldn't meet contract requirements 
on pricing. Your chief of staff forwarded the e-mail directly 
to you with this message: ``Lurita, wasn't sure you had seen 
this or not. Looks like Jim's prediction came true.'' He is 
referring, of course, to Jim Williams, the Commissioner of the 
FAS.
    Three minutes later you wrote back your chief of staff, Mr. 
Williams, saying, ``This is truly unfortunate. There will be 
serious consequences felt across the FAS.''
    Less than an hour later Mr. Williams writes back to you 
stating that he has scheduled a meeting with the president of 
SUN's Federal sales to see what can be done to resurrect the 
partnership.
    Then you have an e-mail exchange between Washington 
Management Group, a fellow named Larry Allen--I'm looking at 
page 7 of your packet. Mr. Allen works for the Washington 
Management Group. That firm represents SUN in the negotiations. 
Mr. Allen also runs a group called the Coalition for Government 
Procurement that just happens to have SUN as a premier member.
    In that packet you will see an e-mail dated September 7, 
2006, from Mr. Allen that says, ``Ms. Doan, I understand that 
new life has been breathed into the SUN situation. They are 
meeting with Mr. Williams today, among other things, and I 
understand that a new deal is, indeed, possible within the 30-
day timeframe you have envisioned.''
    Chairman Waxman. The gentleman's time has expired.
    Mr. Tierney. My question is, Ms. Doan, how can you tell 
Senator Grassley that you had no involvement in this at all and 
then look at that trail of e-mails?
    Ms. Doan. Because I was not directly involved in this 
matter at all. What I did do is exercise proper oversight that 
I should do as the administrator of GSA. Larry Allen is, to my 
knowledge, the head or president or something of the Coalition 
for Government Procurement. This is the capacity in which I 
know him, in which I have met with him, with all of our 
schedule holders and things of that nature. I think you are 
mischaracterizing this and I think it is a little bit 
outrageous what you are trying to say.
    Mr. Tierney. Just read the--I am not mischaracterizing. I 
directed you to the e-mails. Just read it. I was reading 
literally from it.
    Chairman Waxman. The gentleman's----
    Mr. Tierney. That is not a characterization; that is a 
quote.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Davis, you can be recognized now.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Five minutes.
    Mr. Davis of Virginia. You were not directly in the 
negotiations with SUN Microsystems, correct?
    Ms. Doan. No, I was not.
    Mr. Davis of Virginia. Basically, you were up there saying 
we would like to keep this going. What would have been the 
ramifications on the supply schedule if SUN Microsystems were 
not an option for Government buyers?
    Ms. Doan. I think this would be very dire for the Federal 
Government.
    Mr. Davis of Virginia. Can you explain why?
    Ms. Doan. Because SUN Microsystems has servers, it has 
software, it has java scripts, that everyone in the Federal 
Government uses. They may not be aware of it, but it is one of 
the things that is the backbone of their Internet and many 
other areas.
    Mr. Davis of Virginia. And if you didn't offer your supply 
schedule, is it likely it would have been offered on other 
supply schedules, perhaps at even more disadvantageous rates?
    Ms. Doan. I think it would have been much more expensive 
for the Federal Government to purchase SUN products.
    Mr. Davis of Virginia. You can't just measure it by what is 
on your schedule.
    Now, let me just ask you, on the procedures on this, as I 
understand it, once on the schedule SUN is not guaranteed any 
business at all, correct?
    Ms. Doan. No, they are not.
    Mr. Davis of Virginia. A Government agency orders items off 
the schedule after it reviews the prices of at least three 
schedule holders; isn't that correct?
    Ms. Doan. That is true.
    Mr. Davis of Virginia. So SUN would offer their prices. If 
they weren't competitive, a Government buyer could go somewhere 
else, is that correct, to some of the other schedule holders 
that offer same or similar services?
    Ms. Doan. That is true.
    Mr. Davis of Virginia. And the chosen contractor would have 
to represent the best value. Now, throughout the process, 
ordering agencies are encouraged to seek and often receive 
significant price reductions above and apart from the discounts 
that are encompassed in the schedule prices. So even if the 
schedule price is something, isn't it true--and we have been 
through this before--that very often the negotiated price is 
far lower than what is on the schedule?
    Ms. Doan. Yes. That is what we hope and anticipate.
    Mr. Tierney. Would the gentleman yield?
    Mr. Davis of Virginia. I would be happy to.
    Mr. Tierney. Thank you. If SUN Microsystems wasn't on the 
schedule, somebody else would be; is that correct?
    Mr. Davis of Virginia. No. I can answer that.
    Mr. Tierney. SUN Microsystems was the only one offering on 
that schedule, was it?
    Mr. Davis of Virginia. No. There were a lot of people on 
the schedule.
    Mr. Tierney. Exactly. That is my point.
    Mr. Davis of Virginia. Well that is my point.
    Mr. Tierney. And your staff had filed a report that said it 
was going to cost $77 million plus if you sign the agreement 
with them to put them on the schedule.
    Mr. Davis of Virginia. Let me----
    Mr. Tierney. I am hard pressed to see what you are losing 
by not having them on.
    Mr. Davis of Virginia. As someone who has spent their 
career on this, I can explain it very quickly. There are going 
to be some Government servers that are SUN systems that are 
going to want to continue with SUN products. If they can't get 
it off the schedule, they would go to NASA soup or GWETS or 
they may go off the schedule entirely and buy it on the market, 
which traditionally had been much higher prices. That is one of 
the concerns with this.
    Now, let me just ask, the contract that Mr. Butterfield was 
negotiating--maybe this is to a detail you don't know, but 
maybe you have learned it after the fact--we didn't say yes to 
the contract he said no for. There were changes, weren't there, 
after Mr. Williams negotiated it?
    Ms. Doan. That is true. It was a negotiation, which means 
there is give and take on both sides.
    Mr. Davis of Virginia. And when Mr. Butterfield was 
relieved at that point and Shana Budd came in and negotiated, 
she negotiated a different agreement than what Mr. Butterfield 
had offered; isn't that right? Both parties moved?
    Ms. Doan. That is my understanding, that both parties 
moved.
    Mr. Davis of Virginia. And maintenance was one of the key 
elements of this?
    Ms. Doan. Yes, I believe it was.
    Mr. Davis of Virginia. A key element throughout. So I think 
it is important for this committee to understand how schedules 
work, how these are negotiated. That is certainly appropriate. 
But I think the key here is all you were doing as the 
Administrator was to just keep the negotiations going.
    Ms. Doan. That is exactly right.
    Mr. Davis of Virginia. Because you recognized what it could 
do to the schedules, what it could do to Government buying 
options if you didn't reach an agreement. You never dictated an 
agreement, did you?
    Ms. Doan. That is exactly correct.
    Mr. Davis of Virginia. You didn't walk into a room and 
negotiate directly with SUN Microsystems, did you?
    Ms. Doan. No, I did not.
    Mr. Davis of Virginia. You didn't appoint the contracting 
officers that negotiated it, did you?
    Ms. Doan. No, I did not.
    Mr. Davis of Virginia. So I think if Members have 
questions, we are asking the wrong person. To my way of 
thinking, she did the appropriate thing to try to get a more 
inclusive schedule. SUN Microsystems' business, less than 10 
percent of it is with the Federal Government. If we say no to 
them, they can walk around the world and sell their products, 
and they don't have to sell at discounts here when they can 
sell at a fuller price other places.
    We have held hearings on this before. One of the 
difficulties is trying to get companies that traditionally 
don't sell to the Government to sell to the Government, where 
we can get the variety of prices and the options and the 
technologies that are being developed in the private sector and 
apply them to Government. But because Government has a 
different set of regulations, a different set of accounting 
standards, a different set of rules, some companies just find 
it disadvantageous to redo all of these kind of things. We try 
to work through the procurement process to find options to 
bring them in.
    So I don't know that there is anything necessarily improper 
about this. Time will tell if this was the right approach or 
not. It is hard to say if you save or lose money, because we 
don't know how SUN Microsystems competes with other products 
that are on the schedule right now once you have to go to three 
for Government buyers to choose whether they want SUN 
Microsystems or something else on the schedule and get the best 
deal; is that correct?
    Ms. Doan. That is correct.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Thank you, Ms. Doan, for being here today. Ms. Doan, it is 
my understanding that, as Administrator of the GSA, you manage 
over $56 billion in contracts. What percentage of the GSA 
contracts is currently held by minority owned businesses?
    Ms. Doan. I do not have that fact at this moment. Can you 
hold 1 minute?
    Mr. Clay. Sure.
    Ms. Doan. Could we followup with you after the record for 
that precise number?
    Mr. Clay. You certainly can. I would appreciate a 
description of what types of programs you have.
    Let me ask you, during your 10 month tenure, how many 
contracts have you personally awarded to minority owned 
businesses?
    Ms. Doan. I haven't personally awarded any contracts to 
minority or large businesses.
    Mr. Clay. OK. All right. You stated in your written 
testimony that it was outrageous for the committee to cite 
that, as an example of the personal assistance Ms. Fraser 
provided to you--she assisted your high-school aged daughter in 
securing a congressional internship--you denied that Ms. Fraser 
assisted you and called the suggestion despicable; yet, in her 
interview with the committee Ms. Fraser was asked this very 
question and confirmed that she called a Senate office to seek 
an internship for your daughter.
    Here is what Ms. Fraser told the committee: ``I am really 
glad you asked that question because I think it is a really--if 
there is any humor in this whole situation, you know, when she 
said to me, you know, Edie, I am so dedicated to the 
Republicans, you are so dedicated to the Democrats. My daughter 
needs to learn there is another side. And so I called the 
administrative assistant to Senator Stabenow and said, 'This 
high school kid, you know, all their high school has 
internships in Government and in the Senate. Would you take her 
on?' ''
    So, Ms. Doan, it was Ms. Fraser who said that she did this 
for you. By the way, no one has suggested that your daughter 
did anything wrong by accepting Ms. Fraser's help, but perhaps 
you would like to reconsider your statement to Congress that 
Ms. Fraser did not provide any assistance, in light of Ms. 
Fraser's clear testimony that she did.
    Ms. Doan. What I believe I said--and if I am incorrect 
maybe I will check my letter that I wrote to the committee. 
What I said is that this is a 40-year program that is hosted by 
Madiera High School that has been well documented. It provides 
90 interns, non-paying, throughout the entire Federal 
Government. I am happy to hear that she had support from so 
many different people, but this is how--they have interns in 
many, many offices, both Democratic side and the Republican 
side, the House, and the Senate. Every junior at this high 
school does this. It is a very well-recognized program. That is 
what I believe, something of that nature I think I wrote in 
that.
    I still believe, and I will say this, the fact that you are 
willing to keep pushing this point absolutely indicates your 
willingness to drag whatever kind of extraneous things in. 
There is nothing wrong. I was not the Administrator at the 
time. This is a high school child----
    Chairman Waxman. Will the gentleman yield?
    Mr. Clay. I will yield to the gentleman from California.
    Chairman Waxman. I just want to read that, what you said in 
your statement. This is what you said: ``Over 3 years ago, as a 
high school junior, my daughter participated in a mandatory 
school-sponsored community service program. School counselors 
worked directly with Members of the House and the Senate to 
arrange for entry-level, non-paying positions. My innocent 
daughter was assigned to the staff of Senator Debbie 
Stabenow.''
    Now, what Mr. Clay is pointing out is that we know it 
wasn't school counselors but your good friend who was the one 
who recommended her.
    I yield back the balance.
    Ms. Doan. Am I allowed to comment at all, because this----
    Chairman Waxman. If there is a question.
    Mr. Clay. Please do.
    Ms. Doan. There is nothing on this that is incorrect. There 
is nothing on this that is incorrect. The high school 
counselors at Madiera work with the House and the Senate, and 
they absolutely have internships. We have probably people on 
this committee who have these interns here.
    Mr. Clay. Well, Ms. Doan, why would Ms. Fraser make this 
statement? Can you shed any light on that?
    Ms. Doan. No, I can't shed any light on that. I can share 
with you that people often try to help when other people say 
there are things that are of interest or concern or things. 
This is what we do. We care for one another. People do things 
like this. This is very kind of her to have done that.
    Mr. Clay. And that is all fine and well, but I think that 
the concern here is that this is conflicting testimony between 
Ms. Fraser and you and what you have told committee 
investigators.
    Ms. Doan. This is not conflicting testimony. It says here 
that high school counselors worked directly with Members of the 
House and Senate to arrange for entry-level, non-paying 
positions.
    Chairman Waxman. The gentleman's time has expired.
    Ms. Doan. This is a statement of fact.
    Chairman Waxman. I would ask unanimous consent that I have 
a minute so I can pursue this issue, without objection.
    Mr. Davis of Virginia. Without objection, but I would like 
to also reserve just a clarification question at the end of 
that.
    Chairman Waxman. Absolutely.
    Ms. Doan, I know you are outraged about this whole thing. 
You expressed it with a great deal of emotion. But your 
statement was it was school counselors. We pointed out that 
Edie Fraser claimed that she helped her daughter. I am not 
saying that there is anything wrong with it, but it is 
something----
    Ms. Doan. Thank you. I appreciate that, because the 
implication there was that there was something improper going 
on.
    Chairman Waxman. No, the implication of it was that she 
helped you. You had a relationship, she helped you, and 
evidently you wanted to help her with that contract, and there 
was a give-and-take kind of relationship.
    Ms. Doan. Mr. Chairman, with all due respect, Congressman, 
Congressman Clay prefaced it--and I don't have the exact 
transcript, but he prefaced it with something like, ``In the 
process of her performing personal services for you.'' That was 
improper, in my mind. That implied a certain amount of 
impropriety.
    Chairman Waxman. But you don't deny that she helped?
    Ms. Doan. She apparently did help, and I am very grateful 
that she did.
    Chairman Waxman. OK. That is fine. Let's just get the 
record complete.
    Mr. Davis of Virginia. Mr. Chairman.
    Chairman Waxman. Yes, Mr. Davis.
    Mr. Davis of Virginia. I have had interns from the Madiera 
School. It is not in my District. It is not uncommon for kids 
from Madiera to apply across the Hill, and it is not uncommon, 
by the way, for people to recommend people that are applying. 
These are unpaid internships during the school year when, 
frankly, many offices can use interns. Summer time it is 
different. These are during school year. And we work directly 
with the counselors, because we have to fill out forms----
    Ms. Doan. Exactly.
    Mr. Davis of Virginia [continuing]. Telling how the kids 
do. I don't see any conflict in this at all. If this is the 
best you can do, I think we are wasting our time.
    Chairman Waxman. Well, I certainly don't think it is a 
conflict. I think people ought to understand the complete 
picture.
    Let's see, Mr. Lynch, it is your turn now.
    Mr. Lynch. Thank you, Mr. Chairman. Thank you for having 
this hearing. I also thank the ranking member.
    We seem to be getting tied in knots about your testimony, 
previous testimony, current testimony. I am getting a little 
frustrated, just like you are, trying to figure out what you 
are exactly saying.
    You just told us a moment ago that you weren't involved 
with the SUN Microsystems deal, you were just involved in the 
oversight of it. Now, you weren't directly involved, you just 
did your job in an oversight capacity.
    Now, I just want to compare what you said to Senator 
Grassley. This is a quote. When asked about the SUN 
Microsystems, you said, ``I had no knowledge of the 
negotiations or the basis of the decisions made regarding this 
contract.'' That is a very broad statement, and it is 
completely inconsistent with what you have said here today. I 
just want to tell you--and this may go further. I know you know 
that you are under oath. What is troubling to me is this--and 
there is a lot of peripheral stuff, but there is some central 
stuff about what is being testified to here today.
    You have testified to the facts that at the GSA 
headquarters, the headquarters of this agency, a Government 
institution, that there was a meeting, a presentation, a 
teleconference at which you were present. The object of that 
meeting, especially, was for influencing the election. More 
specifically, the object of the meeting was to target, and, if 
successful, remove Members of Congress who are charged with the 
oversight of your agency. This goes to the integrity of the 
electoral process that has been violated here, not just in the 
Hatch Act but also embodied in the Voting Rights Act.
    There were Members of this Congress that were targeted by a 
Government agency, by a sitting Government agency with the head 
of that agency present, and also special assistants to the 
White House present to influence the election. That is central 
to what you did. That is central.
    Now, you haven't claimed the fifth amendment, which maybe 
you should have, but you have come here today and you have 
testified, you have really adopted the Sergeant Shultz defense, 
you know nothing. But I want to just recount what you have 
testified here today. And I came here in an objective fashion 
just to listen to what you had to say.
    You have testified that you remember the time you have 
arrived. You testified as you knew who was in the meeting, who 
was not in the meeting. You testified that you know who called 
in and who did not call in. You testified as to what food was 
served. You testified--if you want to read the transcripts, go 
ahead--you remember the folks that were telecommunicated in 
from California. You testified that you saw before a PowerPoint 
presentation, which is an enhanced cognitive medium, but then 
you have a blank spot in your memory as to what you recall 
about the PowerPoint presentation targeting Members of 
Congress.
    We have the testimony of six Republican colleagues who have 
your own testimony as to what can we do to help the Republican 
Members of Congress, and that is terribly troubling, in my 
estimation. Maybe this will be worked out in the subsequent 
investigations. I am not sure. But certainly just the core 
facts that you have helped establish here, you know, leads me 
to believe that there is further action necessary to be taken 
on this, and it is not good for you. I have to say, your own 
testimony has been very damning, I think, that you have had 
this very selective lapse of memory before Members of Congress.
    You know, I think the whole episode is utterly disgraceful, 
in my opinion, and, you know, maybe there are Members here that 
think that you helped yourself here today by testifying, but I 
need to be quite honest with you. The only thing that you have 
removed here is the original impression that it was 
incompetence, it was incompetence, because now it appears that 
your action was purposeful.
    I just have to say, as a Member of Congress trying to 
uphold the Constitution, trying to uphold the integrity of 
Government, that I am deeply disappointed in your testimony 
here today and I will do everything I possibly can to get to 
the bottom of this and to restore the integrity that I think 
has been diminished by your own actions.
    Thank you.
    Chairman Waxman. The gentleman's time has expired.
    The Chair wishes to recognize himself for 5 minutes just to 
ask a few questions. Maybe I won't even take the full 5 
minutes.
    There were two contracts that we have been discussing. One 
was the SUN Microsystems contract. In your March 13th letter 
you said, ``I was not briefed by FAS in August or at any other 
time on the SUN Microsystems contract deficiencies.'' FAS is 
the Federal Acquisition Service.
    Ms. Doan. Right.
    Chairman Waxman. Now, we interviewed Mr. Williams and we 
asked him whether he briefed you on the SUN contract and he 
said he did. He told us directly that he updated you on the SUN 
situation several times during the contract negotiations. Was 
he lying to us? How do you explain this contradiction?
    Ms. Doan. Mr. Chairman, I don't want to ask you to read it 
back to me again, but I think----
    Chairman Waxman. You said that you weren't involved and he 
said he briefed you.
    Ms. Doan. In the August timeframe, I believe we talked 
about. Is that what we talked about? I think I would much 
rather sit there and, you know, add up the dates and stuff like 
that and organize it for you and provide it.
    Chairman Waxman. Did he brief you?
    Ms. Doan. Some time in early September.
    Chairman Waxman. I am not asking you when. Did he brief you 
on this contract?
    Ms. Doan. Well, I thought the date was the issue we were 
discussing here.
    Chairman Waxman. Well, your March 13th letter you said he 
had not briefed you. I presume this is before you agreed to the 
contract. Did he brief you or not?
    Ms. Doan. Well, no, he didn't brief me.
    Chairman Waxman. He did not brief you?
    Ms. Doan. He just spoke, you know, once on the phone. I 
don't know.
    Chairman Waxman. Only once on the phone.
    Ms. Doan. I honestly cannot--we never sat down and actually 
had a briefing. We just had a brief discussion on the phone.
    Chairman Waxman. On how many occasions?
    Ms. Doan. He said one or two times. I am just following, 
maybe twice.
    Chairman Waxman. OK. And then on the----
    Ms. Doan. I think the issue is August versus September.
    Chairman Waxman. Do you consider it a briefing if it is a 
telephone conversation when someone tells you about a contract?
    Ms. Doan. No. I consider a briefing when you are actually 
provided with substantive information related to a matter at 
hand. That is what I consider a briefing.
    Chairman Waxman. I would just point out that you sent a 
letter to Senator Grassley to say, ``I was not briefed by FAS--
`` Federal Acquisition Service--``in August or at any other 
time on the SUN Microsystems contract deficiencies.'' That is a 
pretty clear statement, but now it seems as if you are backing 
off that statement. You did have a couple phone conversations 
telling you about it? Yes, you did have phone conversations? 
No, you didn't have a couple phone conversations?
    Ms. Doan. I don't consider that a briefing.
    Chairman Waxman. OK. That is Clintonian. Now, on the other 
contract, you were directly involved in the contract for Edie 
Fraser, weren't you?
    Ms. Doan. I do not believe that was a contract, but yes, I 
was directly involved in directing the action to try to start a 
study for minority and women-owned and diversity----
    Chairman Waxman. OK. You were directly involved in that. 
But these others you were indirectly involved. You are the head 
of GSA, and that is the agency in charge of giving out those 
contracts, so other things were delegated to other people, but 
on the Edie Fraser contract you were personally involved; is 
that a fair statement?
    Ms. Doan. Yes, it is a fair statement at the beginning of 
the action. After I approved the draft outline, I then moved it 
on to be processed through the contracting shop and the office 
for the procurement.
    Chairman Waxman. OK. Thank you.
    Well, I want to thank you.
    Does the gentleman have any additional questions he would 
like to ask, maybe make some comments about the way life is 
going?
    Mr. Mica. Could you yield?
    Chairman Waxman. Certainly.
    Mr. Mica. How much time?
    Chairman Waxman. Whatever time is left, I would be glad to 
give it to you.
    Mr. Mica. OK. Well, again, let's just take it in reverse 
order. The $20,000 contract that you attempted--and it wasn't a 
contract, was never awarded.
    Ms. Doan. It was not.
    Mr. Mica. OK. The video conference, this says the White 
House. The first chart there is the White House Political 
Office? Is that what that says, the White House Political 
Office?
    Ms. Doan. Yes.
    Mr. Mica. Is that who conducted that? Did you initiate the 
videoconference?
    Ms. Doan. No, I did not.
    Mr. Mica. OK. And then SUN Microsystems, the third 
question, you were never fully briefed? You never sat down and 
had a full briefing about the terms of the contract, and most 
of the problems had occurred before you got there?
    Ms. Doan. All of that is true.
    Mr. Mica. In 15 years, you know, they tried to get you on 
this $20,000, and this is embarrassing, too, what they are 
doing to your daughter, 2004 to intern with a Democrat Senator. 
But I have never seen such an attempt to go after a minority 
appointee of any administration in this fashion, and the thing 
about this----
    Chairman Waxman. The gentleman's----
    Mr. Mica [continuing]. It will discourage others from ever 
coming into the----
    Chairman Waxman. The gentleman's time has expired.
    Mr. Mica [continuing]. What you are doing here today.
    Chairman Waxman. Ms. Doan, thank you very much for your 
presentation.
    Ms. Doan. Thank you, Chairman. Thank you, Ranking Member 
Davis. Thank you, committee members.
    Chairman Waxman. We will probably ask you some further 
questions for the record.
    We are now pleased to call our next witness, Mr. Brian D. 
Miller, the Inspector General of GSA. Before assuming this post 
in 2005, Mr. Miller worked as Federal Prosecutor in the U.S. 
Attorney's Office for the Eastern District of Virginia, where 
he helped prosecute Zacharias Mousaui and John Walker Lindt. In 
this position, he also supervised numerous audits and 
investigations involving procurement, grant, and health care 
fraud.
    Mr. Miller, I thank you very much for being here. Your 
prepared statement will be in the record in full. I would like 
to ask you now to proceed with your oral statement.

                  STATEMENT OF BRIAN D. MILLER

    Mr. Miller. Thank you, Mr. Chairman, and thank you, ranking 
member, and thank you, members of this committee, for inviting 
me here to testify.
    I would also like to thank Senator Grassley for taking the 
time to testify here this morning about the importance of 
oversight and the role of an Inspector General. Indeed, it is a 
privilege for me----
    Mr. Mica. Parliamentary inquiry and procedure. Was the 
witness sworn in?
    Chairman Waxman. The gentleman is correct. It is our 
practice to swear in all witnesses, and we want to put you 
under oath, as well.
    [Witness sworn.]
    Mr. Miller. Thank you, Mr. Chairman.
    Chairman Waxman. I thank you. Now let's start all over 
again.
    Mr. Miller. OK. It is a privilege to be here this 
afternoon. I have devoted most of my professional life to 
public service. For roughly a decade-and-a-half before becoming 
Inspector General at GSA I served as a career Federal attorney. 
As a U.S. Attorney in the Eastern District of Virginia, the 
ranking member's own District, I worked on a variety of cases, 
including terrorism cases, as the chairman has noted.
    In July 2005, the Senate confirmed me as Inspector General 
of GSA, and it is, indeed, an honor for me to lead the Office 
of the Inspector General. Our audits and investigations 
safeguard the integrity of Government operations and provide 
cost avoidance for taxpayers in the billions of dollars.
    For years my office enjoyed good working relations with GSA 
managers who appreciate our work. My relationships with former 
GSA Administrator Stephen Perry and Acting Administrator David 
Bibb were excellent. They recognized that independent oversight 
was a tool for good management. And I have been trying to 
establish a good working relationship with Administrator Doan 
and will continue to do so.
    It is important for me to note here that it is my duty, as 
Inspector General, to investigate allegations of wrongdoing and 
to conduct audits. I would not be doing my job if I were to 
look the other way at credible allegations of wrongdoing or 
pass over an embarrassing audit, as Senator Grassley has noted 
this morning.
    The taxpayers and the Congress rely on IGs to do their job 
to ferret out fraud, waste, and abuse, and to help their 
agencies run more efficiently and effectively.
    At the end of the day, it is about accountability, 
accountability to the President, to the Congress, and, most 
importantly, to the American taxpayers.
    Now, this committee has asked me to address three issues in 
connection with the actions of the Administrator: first, her 
intervention in a major contract negotiation, SUN Microsystems; 
second, her sole source award of a contract to a friend; and, 
third, her alleged role in encouraging use of GSA resources for 
partisan political purposes.
    Six months ago GSA awarded a contract extension to SUN 
Microsystems. Our auditors showed that it was a bad deal for 
the Government. The contracting officer thought it was a bad 
deal. All of GSA's management, up to and including Commissioner 
Jim Williams, agreed it was a bad deal. And a notice was sent 
to SUN that the contract would end.
    But then Administrator Doan found out and word went out 
that SUN was a strategically important vendor and that the 
Administrator wanted the contract awarded. The contracting 
officer could not extend it, so a new contracting officer was 
assigned. Eight days later, the contract was renewed.
    Why is this such a bad deal? Well, the auditors warned that 
SUN's past charges looked fraudulent and told GSA management. 
Frankly, the deal should have been terminated when allegations 
of potential fraud first surfaced.
    I agree with Senator Grassley that once the potential for 
serious fraud was identified, the deal should have been slowed 
down, at the very least. Instead, it was speeded up. None of 
this would have happened if Administrator Doan had not 
intervened and directed GSA to make the award.
    Now, turning to the Public Affairs Group contract, 
Administrator Doan was wrong in attempting to award a sole 
source contract to the company of a personal friend, Edie 
Fraser. She was wrong to keep trying to get this project 
awarded to her friend, even when told the first contract was 
improper. And she was wrong to try and cover up the extent of 
her improper efforts.
    Administrator Doan has tried to say that she did nothing 
improper and that, anyway, it wasn't a contract, but that is 
not what her own General Counsel has told her. Administrator 
Doan has claimed that she did everything she could to clean up 
the mess, but that is not what her own General Counsel told 
this committee.
    Turning to the Hatch Act issue, when my investigators 
received credible information about a potential Hatch Act 
violation, we referred the matter to the appropriate 
investigatory agency, the Office of Special Counsel. That is 
our duty.
    Now, in tandem with these events, the Administrator has 
advocated for reduced oversight and has made many statements to 
that effect. Unfortunately, the Administrator has demonstrated 
a disregard for the very contracting rules that oversight is 
meant to detect.
    I notice my time is out. I would like to thank the 
committee, and I stand ready to answer questions.
    Thank you.
    [The prepared statement of Mr. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] 40153.136
    
    [GRAPHIC] [TIFF OMITTED] 40153.137
    
    [GRAPHIC] [TIFF OMITTED] 40153.138
    
    [GRAPHIC] [TIFF OMITTED] 40153.139
    
    [GRAPHIC] [TIFF OMITTED] 40153.140
    
    [GRAPHIC] [TIFF OMITTED] 40153.141
    
    [GRAPHIC] [TIFF OMITTED] 40153.142
    
    [GRAPHIC] [TIFF OMITTED] 40153.143
    
    [GRAPHIC] [TIFF OMITTED] 40153.144
    
    [GRAPHIC] [TIFF OMITTED] 40153.145
    
    [GRAPHIC] [TIFF OMITTED] 40153.146
    
    [GRAPHIC] [TIFF OMITTED] 40153.147
    
    [GRAPHIC] [TIFF OMITTED] 40153.148
    
    [GRAPHIC] [TIFF OMITTED] 40153.149
    
    [GRAPHIC] [TIFF OMITTED] 40153.150
    
    [GRAPHIC] [TIFF OMITTED] 40153.151
    
    [GRAPHIC] [TIFF OMITTED] 40153.152
    
    [GRAPHIC] [TIFF OMITTED] 40153.153
    
    [GRAPHIC] [TIFF OMITTED] 40153.154
    
    [GRAPHIC] [TIFF OMITTED] 40153.155
    
    [GRAPHIC] [TIFF OMITTED] 40153.156
    
    [GRAPHIC] [TIFF OMITTED] 40153.157
    
    [GRAPHIC] [TIFF OMITTED] 40153.158
    
    [GRAPHIC] [TIFF OMITTED] 40153.159
    
    [GRAPHIC] [TIFF OMITTED] 40153.160
    
    [GRAPHIC] [TIFF OMITTED] 40153.161
    
    [GRAPHIC] [TIFF OMITTED] 40153.162
    
    [GRAPHIC] [TIFF OMITTED] 40153.163
    
    [GRAPHIC] [TIFF OMITTED] 40153.164
    
    [GRAPHIC] [TIFF OMITTED] 40153.165
    
    Chairman Waxman. Mr. Davis.
    Mr. Issa. Mr. Chairman, he will be right back. Do you want 
us to begin?
    Chairman Waxman. Why don't you just finish your statement. 
We did give Ms. Doan additional time, and I think it would be 
only fair to let you have additional time to complete your 
statement.
    Mr. Miller. Thank you, Mr. Chairman. There is not much 
left.
    In fact, she may have violated basic rules of conduct for 
an agency head while, at the same time, worked to pare back the 
mechanisms for uncovering such violations. What may explain 
both is the lack of respect for law and law enforcement.
    I would be happy to answer questions.
    Chairman Waxman. Thank you very much.
    Mr. Davis, I am going to recognize you to control 15 
minutes, and we will let you go first, then our side will 
control 15 minutes.
    Mr. Davis of Virginia. Mr. Miller, I heard you say that you 
are accountable to the White House, to the Congress, and to the 
American people.
    Mr. Miller. That is correct, Congressman.
    Mr. Davis of Virginia. Aren't you also, under the statute, 
accountable to the head of the agency to keep the establishment 
and the Congress fully informed?
    Mr. Miller. Indeed.
    Mr. Davis of Virginia. You mentioned that?
    Mr. Miller. Yes, sir.
    Mr. Davis of Virginia. You didn't mention that.
    Mr. Miller. Well, I would be happy to mention it now.
    Mr. Davis of Virginia. And you are not an accountant; is 
that correct?
    Mr. Miller. Pardon me?
    Mr. Davis of Virginia. You are not an accountant; is that 
correct?
    Mr. Miller. That is correct.
    Mr. Davis of Virginia. You are not a CPA; is that correct? 
You are a prosecutor by career, right?
    Mr. Miller. Correct.
    Mr. Davis of Virginia. Your prepared statement today takes 
credit for saving the Government a lot of money. How much did 
the investigation of this diversity study cost in your own 
staff time and expense? Any idea?
    Mr. Miller. Congressman, I don't have that number right 
now, but let me tell you that when this complaint originally 
came in, it came in with documentation to our office. It was a 
credible complaint. We looked at it. We decided that it was 
credible. We had to interview the Administrator.
    I personally went up and told the Administrator that we had 
received this complaint and that my agents would have to go up 
and interview her.
    Mr. Davis of Virginia. You didn't save any money on this 
one, though, did you, because it was canceled? Am I right? You 
didn't save any money on this one?
    Mr. Miller. Part of our job, Congressman, is----
    Mr. Davis of Virginia. Just yes or no.
    Mr. Miller [continuing]. Is to investigate----
    Mr. Davis of Virginia. Is that a yes or a no? Did you save 
any money on this investigation? The answer is no, isn't it?
    Mr. Miller. I believe it----
    Mr. Davis of Virginia. Because the contract was never----
    Mr. Miller. There was no money paid on that contract. That 
is correct.
    Mr. Davis of Virginia. Now let me ask you this. What 
obligation does the IG and his investigators and his staff have 
to prevent disclosure of investigative information to outside 
sources in ongoing investigations? Can you tell us what your 
responsibility there is under the statute?
    Mr. Miller. I will, but I hadn't finished my answer to the 
last question.
    Mr. Davis of Virginia. I have limited time and I want to 
have the answer to this question.
    Mr. Miller. OK. The question is responsibilities to 
safeguard confidential information. We do have a responsibility 
to do that and we do take measures to safeguard confidential 
information, Congressman.
    Mr. Davis of Virginia. Now, do you think that the premature 
disclosure of investigative information, even when permitted by 
law, can cause substantial harm to an ongoing investigation?
    Mr. Miller. It is possible, Congressman.
    Mr. Davis of Virginia. Do you think that the GSA IG 
investigative information in the ongoing investigation of 
Administrator Doan was provided to the Washington Post 
reporters who authorized the January 19, 2007, article 
entitled, ``GSA Chief Scrutinized for Deal with Friend?''
    Mr. Miller. Congressman, we did not disclose any part of 
the investigative file to anyone who is not authorized to see 
it. I don't know how the Post reporters got that information. I 
was surprised to see it.
    Mr. Davis of Virginia. Did you do any investigation to see 
how it might have gotten out of your office?
    Mr. Miller. Well, we did ask around. In fact, we received a 
call in January, January 25th, from Mr. Nardoti, Administrator 
Doan's private attorney. He called our lead investigator and 
said that on January 19th the Washington Post reporters had 
documents, they showed Administrator Doan documents that came 
out of the investigative file. I think they claimed it was her 
supplemental statement correcting mis-statements in the 
earlier----
    Mr. Davis of Virginia. That information, under the law, 
shouldn't get out; isn't that correct?
    Mr. Miller. That is correct, Congressman.
    Mr. Davis of Virginia. And your office--you are under 
oath--had nothing to do with this?
    Mr. Miller. I am confident that my office had nothing to do 
with it. If I may finish, we immediately looked into this. Mr. 
Nardoti said that the Post reporter showed the information to 
Administrator Doan and to the acting General Counsel. When we 
heard this, we immediately interviewed the acting General 
Counsel, who said that didn't happen, that the Post reporters 
did not show him any documents from the investigative file, and 
that to his knowledge they had not.
    Mr. Davis of Virginia. What did you do to investigate the 
leak at that point, though? It is clear that something had been 
leaked, correct?
    Mr. Miller. Well, at that point the head of my 
investigations said that the allegation by Administrator Doan's 
attorney was not credible. In fact, the lead agent called him 
back and told him that.
    Mr. Davis of Virginia. So there was no documents that were 
leaked to the Post that shouldn't have been out there; is that 
correct?
    Mr. Miller. Congressman, they didn't come from my office.
    Mr. Davis of Virginia. Did you investigate----
    Mr. Miller. I am confident my office did not disclose any--
--
    Mr. Davis of Virginia. What did you do to ensure that it 
didn't? Did you do an investigation in your office to make sure 
that they didn't? Did you talk to employees, put anybody under 
oath, or anything?
    Mr. Miller. Well, Congressman, I am trying to answer your 
question----
    Mr. Davis of Virginia. I want you to answer it.
    Mr. Miller [continuing]. As best I can. It is a little 
involved, and I ask you to bear with me, but at that point our 
lead agent called Mr. Nardoti back and told him what the 
General Counsel said, and he gave a nervous laugh and said, 
Well, gee, I will have to go talk to my client again. Well then 
he calls back on February 1st with a changed story, and the 
revised story said that Ms. Doan saw the statement in the Post 
reporter's hands, and that he also talked to another party that 
indicated subpoenaed e-mails had been turned over to the press, 
and he then told us he was filing a PCIE complaint.
    Now, part of the mystery was solved 2 weeks later on 
February 13th. The attorney for PAG--Public Affairs Group--sent 
a letter to us saying they were producing an e-mail for the 
first time to us because they had learned that it had been 
leaked to the press. That is before it even got to our office. 
PAG tried to characterize it as outside the scope of our 
request, but it was a September 6th e-mail ending in 309.
    At any rate, that second half of Mr. Nardoti's statement 
was clearly explained that it came from the Public Affairs 
Group.
    Mr. Davis of Virginia. OK.
    Mr. Miller. I am trying to answer in the sense that we also 
learned that there was a complaint filed with the PCIE, and we 
did not want to interfere with the investigation of the PCIE.
    Now, we also asked the Administrator for copies of 
documents that she was producing to this committee relating to 
the PAG investigation, and in connection with that Mr. Nardoti 
wrote us a letter saying she would not produce them in light of 
the PCIE complaint.
    I responded to her, in response, preparing for that 
response, I did ask everyone who had access to those documents, 
whether or not they had disclosed them to anyone except other 
Governmental officials with a legitimate interest in the 
investigation. So we did make inquiries. We did not--if your 
question is did we take sworn statements, the answer is no.
    Mr. Davis of Virginia. OK. The first public disclosure of 
the problems between you and the Administrator were revealed in 
a Post article December 2nd. Do you remember that article?
    Mr. Miller. I do generally.
    Mr. Davis of Virginia. The Post stated that they had 
obtained notes from a private meeting you had with the 
Administrator. One of your assistants took notes in that 
meeting, and those notes found their way to the Post. The Post 
wrote that, according to these notes, the Administrator 
compared Miller and his staff to terrorists. Do you know 
anything about that leak?
    Mr. Miller. I don't know where the Post reporters got those 
notes. I do----
    Mr. Davis of Virginia. You don't think they got them from 
Ms. Doan, do you?
    Mr. Miller. I don't think that they got them from Ms. Doan.
    Mr. Davis of Virginia. Is it appropriate----
    Mr. Miller. They did not----
    Mr. Davis of Virginia. Is it appropriate for the notes of 
one of your staff to appear in the Washington Post in a meeting 
like that?
    Mr. Miller. Congressman, those notes--we did share some of 
those comments and those notes the congressional staff, and I 
don't know where the Post----
    Mr. Davis of Virginia. Which congressional staff? when did 
you do that?
    Mr. Miller. We shared them with congressional staff, maybe 
in October.
    Mr. Davis of Virginia. OK. Which congressional staff?
    Mr. Miller. I believe that I shared them with 
Representative Platts' staff.
    Mr. Davis of Virginia. OK.
    Mr. Miller. I may have shared them with other oversight 
staff.
    Mr. Davis of Virginia. You think they may have leaked it? 
Of course, this meeting that we are talking about here, these 
notes that found their way, you are assuring me they didn't 
come from your office?
    Mr. Miller. Congressman, as far as I know, those notes did 
not come from my office to the Post reporters.
    Mr. Davis of Virginia. And you hadn't talked to the Post 
reporters prior to the article on December 2nd; is that 
correct?
    Mr. Miller. Well, they did call me and asked me to confirm 
the read out of the notes, and I said, look, I am not going to 
confirm or deny, I am not going to comment on the relationship, 
my relationship with the Administrator. And then I talked about 
the positive mission of my office.
    I did have one prior conversation with the Post reporters 
several months before that about how GSA contracts operate, in 
general.
    Mr. Davis of Virginia. Did you initiate that conversation 
or did they initiate that conversation?
    Mr. Miller. I believe they did.
    Mr. Davis of Virginia. OK.
    Mr. Miller. And we talked about firm fixed price contracts 
versus time and material contracts. There was not one word 
mentioned about my relationship with the Administrator or any 
of the issues going on between me and the Administrator.
    Mr. Davis of Virginia. Now, you say that Allen Swindeman, 
General Counsel, told this committee that he asked the 
Administrator several times to terminate the contract and that 
she refused. That was your briefing to the committee; is that 
correct?
    Mr. Miller. I'm sorry. I didn't hear you.
    Mr. Davis of Virginia. That Mr. Swindeman told this 
committee that he had asked the Administrator several times to 
terminate the contract and that she refused, talking about the 
$20,000 contract?
    Mr. Miller. Yes, I believe that is on the Web site in the 
chairman's letter.
    Mr. Davis of Virginia. But he never told the committee any 
such thing that we are aware of. Are you aware of him telling 
the committee that, or did you get that off the Web site?
    Mr. Miller. I got that off of the Web site and the 
chairman's letter.
    Mr. Davis of Virginia. So you getting the information from 
the majority in this case. OK.
    Have you given any information about the committee's 
investigation that you have included in your report and 
testimony today, have you been given any information about the 
committee's investigation that you have included in your report 
and testimony today besides that?
    Mr. Miller. I would have to go back and look at the report. 
We did look at the chairman's letter, and I would have to go 
back and take a close look and see----
    Mr. Davis of Virginia. How much of your testimony comes 
from what the majority has put on their Web site and how much 
of it comes from your independent investigation, because the 
information about Mr. Swindeman's discussion, from our 
investigation, is flat out false. So what does that say about 
your credibility?
    [No response.]
    Mr. Davis of Virginia. You don't have any independent 
investigation; you just took it off the majority Web site. That 
is what you are saying?
    Mr. Miller. That is not correct, Congressman. Most of my 
testimony is taken from our----
    Mr. Davis of Virginia. I asked about that particular issue.
    Mr. Miller. Most of the report is based on the 
investigation that my office did.
    Mr. Davis of Virginia. Most of it?
    Mr. Miller. Most of it is----
    Mr. Davis of Virginia. But not all of it?
    Mr. Miller. There----
    Mr. Davis of Virginia. Thank you.
    Mr. Miller. The statements that Mr. Swindeman----
    Mr. Davis of Virginia. It seems that a significant----
    Chairman Waxman. Wait. Give him a chance to answer.
    Mr. Davis of Virginia. He has answered it. He just took 
this off your Web site. Am I wrong? That is where you said you 
got the information?
    Mr. Miller. Well, the statements that I was referring to 
that Mr. Swindeman made, I actually said he said to this 
committee----
    Mr. Davis of Virginia. Correct. That is why I was moving 
off. I'm not going to let him run the clock out on us.
    Let me just ask this: it seems that a significant area of 
disagreement between you and the Administrator centers on the 
OIG's performance of contract support audits; is that fair to 
say?
    Mr. Miller. I don't believe so.
    Mr. Davis of Virginia. The disagreement between you and the 
Administrator, is it your view that it is important that your 
office provide this audit assistance on contract support?
    Mr. Miller. Mr. Congressman, I think my disagreement with 
the Administrator is more on oversight. She has made numerous 
statements that she would like to reduce oversight.
    Mr. Davis of Virginia. But you have also, in your own 
testimony you went after this SUN Microsystems, and that is 
contract support, correct? I mean, a significant part of your 
testimony today----
    Mr. Miller. Sure.
    Mr. Davis of Virginia [continuing]. Was focused on that. So 
all I was saying is a significant area of disagreement was on 
contract support. Now, my understanding is that in most 
agencies they either use DCAA or auditors that do acquisition 
support exclusively, as opposed to auditors from the IG's 
office. Isn't that true in a lot of agencies?
    Mr. Miller. I don't know what the practice is at other 
agencies.
    Mr. Davis of Virginia. You don't?
    Mr. Miller. I know that many of them do use DCAA.
    Mr. Davis of Virginia. Thank you.
    Mr. Miller. What is different about our agency is that 
there was a GAO report, and the GAO recommendation was that--
and it was agreed to by GSA. It was actually an arrangement 
developed and established by the Office of Management and 
Budget. It was a Bush administration initiative to set up this 
reimbursable agreement for us to do these pre-award price 
audits.
    Mr. Davis of Virginia. But it doesn't happen that way in a 
lot of agencies. That is my only point.
    Mr. Miller. That is correct.
    Mr. Davis of Virginia. OK. Is your office paid by the GSA 
contracting activities for this audit support?
    Mr. Miller. There is a reimbursable arrangement where they 
reimburse us for our audit activities.
    Mr. Davis of Virginia. How much per year does your office 
receive for these services, ball park?
    Mr. Miller. Ball park, it is between $4 and $5 million.
    Mr. Davis of Virginia. What is your total budget?
    Mr. Miller. Total budget for last year was around--I would 
have to get back to you with the specific number.
    Mr. Davis of Virginia. Ballpark, $40 million?
    Mr. Miller. About $43, maybe more, maybe less.
    Mr. Davis of Virginia. Is it your understanding that your 
office's role in providing pre-and post-award contract audit 
reports is to support the contracting officer?
    Mr. Miller. Yes, generally.
    Mr. Davis of Virginia. That is not an oversight role in 
that sense, correct?
    Mr. Miller. I'm sorry?
    Mr. Davis of Virginia. Your role in providing pre-and post-
award contract audit reports is to support the contracting 
officer who makes the decision. You are not vested with making 
the decision?
    Mr. Miller. That is correct, Congressman.
    Mr. Davis of Virginia. You were advisory, correct?
    Mr. Miller. That is correct.
    Mr. Davis of Virginia. I mean, do they always take your 
advice?
    Mr. Miller. No, they don't always.
    Mr. Davis of Virginia. OK. So it is not odd for a 
contracting officer to say thank you very much but I'm going to 
settle it, correct?
    Mr. Miller. They have a warrant and they are responsible 
to----
    Mr. Davis of Virginia. Correct.
    Mr. Miller [continuing]. Exercise their own judgment.
    Mr. Davis of Virginia. In our acquisition system, it is the 
contracting officer that makes the final decision to award a 
contract, exercise an option, or take any other contract 
action, correct?
    Mr. Miller. Yes.
    Mr. Davis of Virginia. As I understand it, one of the roles 
of the Office of the Inspector General is to impartially 
evaluate the agency's programs and functions. Do you see any 
tension between the evaluation role and the role of advisor to 
the contracting officer in a particular acquisition?
    Mr. Miller. Do I see any conflict between----
    Mr. Davis of Virginia. Any tension, not conflict. Do you 
see any tension between your evaluative role and the role of 
advisor to the contracting officer in a particular acquisition?
    Mr. Miller. Congressman, I think I would have to think 
about that question.
    Mr. Davis of Virginia. That is fine. You can get back to us 
on it.
    I think my time is up now. We will have more questions. 
Thank you.
    Mr. Miller. Mr. Chairman, may----
    Chairman Waxman. Yes.
    Mr. Miller [continuing]. I explain, I guess, an answer a 
little more fully? We did interview Mr. Swindeman. The report 
of his interview is in our investigative report, so we did rely 
on those statements from Mr. Swindeman, as well. I would like 
to point that out.
    Chairman Waxman. Thank you.
    Mr. Davis of Virginia. Wait a minute. I am looking at the 
list of witnesses and exhibits for today, and I don't see it. I 
have a number of others. I am looking here at the report of 
investigation for official use only. This is on page 26, if you 
want to move to page 26. That is your list of witnesses and 
exhibits, and I see a number of exhibits but I do not see that.
    Mr. Miller. With the Chair's indulgence may I consult 
with----
    Mr. Davis of Virginia. Sure. Please. And maybe you could be 
confusing Moentrip, who was the acting General Counsel. Is that 
what happened?
    Mr. Miller. OK. I will withdraw.
    Mr. Davis of Virginia. That is fine. For the record, we 
just----
    Mr. Miller. Thank you, Congressman.
    Chairman Waxman. The gentleman's time has expired.
    The Chair will recognize himself to pursue some questions.
    By the way, your investigation of the leak was more 
extensive than the White House investigation of the outing of 
the CIA agent which was involving national security. They did 
nothing. We had a hearing on that a couple weeks ago. They did 
absolutely nothing. They didn't ask any of the employees, 
didn't ask anybody who had access to this information how it 
got out, how it was being marketing to different press people, 
even though it affected national security and might have 
threatened the life of a covert CIA agent.
    Mr. Davis of Virginia. Maybe they could transfer Mr. Miller 
to the White House and everybody would be happy here.
    Chairman Waxman. Then he could make political presentations 
about the upcoming Republican campaigns.
    I want to ask you about a statement that you made regarding 
the SUN contract. You said that Ms. Doan's actions were a 
breach of GSA's fiduciary duty to U.S. taxpayers. Why did you 
say this?
    Mr. Miller. Well, because for the first SUN contract--there 
were two contracts with SUN prior to that were consolidated 
into one SUN contract. We did a post-award audit. We did two 
post-award audits on that and learned that SUN had overcharged 
us by $27 million, so the first SUN contract cost $27 million 
in defective pricing. To push through another contract with SUN 
following that is what I was trying to express was not in the 
best interest of the taxpayer, especially when we had done a 
pre-award audit indicating that the rates, the discounts that 
SUN was offering were not the best discounts to the Government. 
They were offering commercial customers better discounts than 
they were to the U.S. taxpayers.
    Chairman Waxman. And that was inconsistent with the rules, 
wasn't it?
    Mr. Miller. It was. Yes, sir.
    Chairman Waxman. Now, you also said it is the first time we 
are aware of in which an administration has personally 
intervened in this way. Why did you say that?
    Mr. Miller. My staff is not aware of an Administrator 
becoming involved in any negotiation in the same way at any 
time in the past.
    Chairman Waxman. Well, she says she wasn't involved.
    Mr. Miller. Our office has not been aware of any 
Administrator being involved, even in the way that she says she 
was involved, with the e-mails and with talking with the 
Commissioner of FAS, and certainly with the word going out that 
this was a strategically important contract and needed to go 
through. On August 29th she called an impromptu meeting with 
the head of audits of my staff and with my counsel, and at that 
meeting she told them how important the SUN contract was and 
that it needed to go through.
    They attempted to explain the programs with the SUN 
negotiation----
    Chairman Waxman. And this was with Ms. Doan, herself?
    Mr. Miller. With Ms. Doan, herself.
    Chairman Waxman. Never would have thought that.
    Mr. Miller. She cut them off when they tried to explain the 
problems with the SUN negotiation.
    Chairman Waxman. Now, they were trying to explain to her 
what her own contracting officers had said, that if they go 
ahead with this contract the taxpayers were going to have to 
pay millions of dollars in additional funds for a service than 
otherwise would be the case; is that right?
    Mr. Miller. That is right.
    Chairman Waxman. So she acted as if she wasn't involved in 
this. I guess the question is what does involved mean. It is 
sort of like what is a briefing. A briefing seems to be in her 
mind only a sit-down meeting where charts and pointers are 
involved. But you actually had a sit-down meeting with her, or 
was it a telephone conversation?
    Mr. Miller. Actually, it was the head of my audits, Andy 
Pagent.
    Chairman Waxman. Yes.
    Mr. Miller. He was the Assistant Inspector General for 
Auditing and the Counsel for the Inspector General, who went up 
and briefed her on this, at very short notice.
    Chairman Waxman. Yes. Well, if they didn't give this 
contract to SUN Microsystems, wouldn't they have had other 
bidders come in and have some competition and see if somebody 
else could do the job at a cheaper amount?
    Mr. Miller. Mr. Chairman, that was our position. In fact, 
our Deputy Inspector General suggested that one way to resolve 
the impasse was for GSA to team up with NASA, the NASA soup, to 
force SUN to give the Government better discounts, because by 
joining forces with NASA we have more leverage on SUN and we 
would be able to push the discounts to get greater discounts at 
a better price for the taxpayer.
    Chairman Waxman. Well, that would have been good. Did Ms. 
Doan seem to worry that NASA might provide a contract with SUN 
Microsystems and that she wouldn't get the money that GSA gets 
for that contract; is that right?
    Mr. Miller. Well, that is what I understand was her point 
to the head of my auditing and to the counsel. She did mention 
the NASA soup. Now, I wasn't there so I can't say for sure what 
was said.
    Chairman Waxman. Well, the only comment I would make to 
that is her job is to protect the taxpayers, not to have the 
taxpayers pay more just so she could get a percentage for her 
agency.
    Mr. Miller. Well, at GSA, obviously, if the price goes up 
GSA gets a commission, so to speak, a fee, and so the revenues 
going into GSA actually increase, but if the price goes down 
the fee decreases. By our pre-award audits, we can actually 
push. If the contracting officer accepts our recommendations, 
the prices can actually go down and it may result in fewer 
funds going into GSA.
    Chairman Waxman. How are NASA soup prices compared to 
GSA's? I am told NASA's are often better. Is that the case?
    Mr. Miller. Mr. Chairman, I don't know personally. I 
understand that NASA soup may actually adopt GSA's price 
negotiations. I'm not sure.
    Chairman Waxman. Now, this is a schedule that goes out 
Government wide, and GSA is supposed to bargain tough, hard----
    Mr. Miller. Yes.
    Chairman Waxman [continuing]. And negotiate the lowest 
prices, because otherwise that is what everybody in the 
Government assumes they have done when they go out and take 
advantage of a contract negotiated by GSA; isn't that correct?
    Mr. Miller. That is correct. And it does have an impact to 
resellers, as well. The price negotiation drives the price, the 
discount that resellers of the same product sell to Government 
agencies, so it can have a massive impact.
    Chairman Waxman. Well, that involved money. Now let me ask 
you about a third statement you made involving Edie Fraser 
contracting.
    Mr. Miller. Yes, sir.
    Chairman Waxman. And I gather that didn't go through, but 
in your testimony you said that the record paints quite a 
different picture than what Administrator Doan told the OIG 
investigators. This sounds like you are saying that she was not 
candid. Why did you say this?
    Mr. Miller. Well, as I was trying to explain to the ranking 
member, but I didn't get a chance to explain, was the 
allegation came in. We thought the agent would simply interview 
the Administrator and we would close the report, write a letter 
or report to the White House liaison, but instead she told a 
story to our agents that could not possibly be true. As a 
result, we had to go forward with our investigation of the 
Administrator.
    Now, several days later her attorney sent a letter trying 
to explain that the statements she made were incorrect, 
inaccurate.
    Chairman Waxman. What did she say that was not true?
    Mr. Miller. Well, as I recall, I wasn't actually at the 
interview, but what the agents told me about the interview was 
she denied signing the contract and she actually folded up the 
paper to say that it wasn't this, it was something like 
something else, and she folded it up, and when you put those 
pieces of paper together you get two paragraphs that have the 
same number, and it just was not a plausible story.
    Other statements are statements that it wasn't a contract, 
that she also minimized her relationship with Ms. Fraser.
    Chairman Waxman. What is the significance? I know she said 
a lot today that it wasn't really a contract. What is 
significant? Why does she keep on denying this is a contract? 
She said it was a draft outline of the work to be performed, 
but she has difficulty saying that the document was a binding 
contract. I find it surprising a person coming from a business 
background, as Ms. Doan does, would have so much trouble 
understanding whether or not she has entered into a contract. 
Was it a contract or was it not a contract?
    Mr. Miller. I believe it was a contract, Mr. Chairman. 
Also, the General Counsel at the time, Allen Swindeman, 
believed it was a contract, as did the now Acting General 
Counsel, Lenny Loewentritt. In fact, that was the reason why 
there had to be a letter of termination. In fact, when asked 
about the letter of termination, I believe Ms. Doan said that 
was to correct the perception on the part of Ms. Fraser that 
there was a contract, when, in fact, we saw e-mails back and 
forth between her and John Felts after the termination letter 
went out where John Felts says, Well, I will have to tell Edie 
that we have more work to do on our end to get this moving 
forward.
    Chairman Waxman. You started to say before that she 
minimized her relationship with Ms. Fraser. What is the 
significance of that?
    Mr. Miller. Well, over a 3-year period Ms. Doan has paid 
over a half million dollars to Edie Fraser's Public Affairs 
Group, to Ms. Fraser for consulting and other----
    Chairman Waxman. That is interesting, because under 
questioning from the Republicans they made the statement that 
Ms. Doan--so Ms. Doan did pay money to her, so she was working 
for Ms. Doan?
    Mr. Miller. That is correct. It was for sponsorships and 
consulting. The consulting services was to promote Ms. Doan 
personally and as President of NTMI, and the fee for that was 
$20,000 a month, and it is interesting to note that the fee 
that Ms. Doan fixed was $20,000, and she said that she decided 
that on her second or third day at GSA.
    Chairman Waxman. We are told over and over again $20,000 is 
a small sum of money, and, besides, it didn't happen. She 
didn't actually enter the contract. So do you think it is a big 
deal or not?
    Mr. Miller. Mr. Chairman, I think what the problem is, as I 
explained, we thought that our agents would interview her, she 
would accept responsibility and admit the mistake. Instead she 
did not. She told a story and it forced us to continue to 
investigate. It forced us to issue subpoenas. We had to wait 
for documents to come back on subpoenas.
    I think the issue is that of candor, of accepting 
responsibility, of being truthful with law enforcement. She 
mentioned that--and I think she said publicly--that she worked 
hard to terminate the contract, the relationship, when, in 
fact, the e-mails and the documents that I believe are in the 
committee's possession show that she was still trying to get 
this going as late as, I believe, early September, September 
4th or so.
    I mentioned the August e-mail where----
    Chairman Waxman. That is astounding. You are saying she 
wasn't candid with law enforcement. Are you saying law 
enforcement is your independent investigation?
    Mr. Miller. Yes. I meant our agents.
    Chairman Waxman. Your agents?
    Mr. Miller. Yes.
    Chairman Waxman. OK.
    Mr. Miller. And the statement from her attorney admits that 
she made mis-statements to our agents. That explains the need 
for the supplemental statement.
    Chairman Waxman. Yes. Can you explain the leadership role 
the GSA Administrator plays in the Federal acquisition 
community and why it is important for her to demonstrate a 
familiarity with the Federal acquisition regulations? Your 
investigation concluded that when she awarded this contract she 
ignored several of the most basic rules of Federal contracts, 
such as a principle that contracts should be awarded on a 
competitive basis.
    Mr. Miller. Yes, Mr. Chairman. As head of the premier 
civilian procurement agency, it is important that the chief of 
that agency follow the procurement rules. As Inspector General, 
our job is to make sure that everyone follows those rules and 
procedures.
    Chairman Waxman. That is a basic principle of Government 
contracting that you award a contract based on what is best for 
the Government, not based on your friendship with somebody; 
isn't that a correct statement?
    Mr. Miller. That is correct, Mr. Chairman. And, you know, 
at the time, Public Affairs Group was owned, I believe 
ultimately, by General Electric, so it was a subsidiary of 
General Electric at the time.
    Chairman Waxman. Now let me just conclude, because I see 
the yellow light is on. You raised these concerns. It sounds 
like you had a pretty acrimonious relationship with her. You 
didn't feel she was being candid with you and your agency, even 
though she has an obligation to be. Her response was to try to 
cut your budget, wasn't it?
    Mr. Miller. Mr. Chairman, there were efforts on the part of 
the Administrator to try and cut our--actually, prevent us from 
presenting our budget to OMB, and she actually stopped and said 
I had a proposal to add criminal investigators, and she simply 
would not----
    Chairman Waxman. You felt that was a recrimination against 
your criticism? Yes or no, and then I have one last question 
before my time is up.
    Mr. Miller. I don't want to go there.
    Chairman Waxman. OK. The last question I want to ask you 
is: are you concerned about the slides that involved a 
political presentation on the premises of GSA that was 
Republican partisan from the political person at the White 
House about how people ought to get involved, or at least know 
what is happening for Republicans, and about her statement that 
a number of witnesses gave to us that she said, How can we help 
our candidates in this next election?
    Mr. Miller. As I have said, a confidential source told our 
agents all that, and it was very concerning. We did our duty, 
which was to refer to the appropriate investigatory agency, the 
Office of Special Counsel.
    Chairman Waxman. Do you know whether everybody does this? 
It sounded to me from her defenders was that everybody does it, 
all the agencies do that, all administrations do that. Do you 
know that to be the case, and does that mean everybody violates 
the law?
    Mr. Miller. I certainly hope that is not the case, Mr. 
Chairman. As Inspector General, I have sworn an oath to follow 
the law. As Administrator, she has sworn an oath to follow the 
law. I hope that other officials follow the law.
    Chairman Waxman. Thank you very much.
    We will now proceed to Mr. Platts for 5 minutes.
    Mr. Platts. Thank you, Mr. Chairman.
    First, Inspector General Miller, I appreciate your 
testimony and also your service at GSA.
    Mr. Miller. Thank you, Congressman.
    Mr. Platts. I apologize for being in three other places at 
the same time and having to run back out of here, but I know 
the one issue was raised about the documents that were shared 
with my committee staff and then of the same topic was 
addressed in a Post story.
    One, I appreciate the Inspector General having met with my 
staff, as we sought to, I would say, take a similar approach as 
Senator Grassley to try to diminish the problems that were 
between the IG's office, Administrator, and my staff had 
conversations with OMB, with Clay Johnson's office to try to 
resolve these issues.
    Mr. Miller. Thank you.
    Mr. Platts. But I wanted to make clear that, in the 
documents that were shared by you--and I appreciated your 
working with us--that, neither prior to the story being 
published or since have any of my staff that were part of that 
meeting or I shared any of those documents with the Post or any 
other journalist to address this issue through the media. I 
think it is important that we understand our efforts were in a 
similar vein to Senator Grassley to just trying to have a good 
Government resolution of the issue.
    Mr. Miller. Sure.
    Mr. Platts. But I do appreciate your service and efforts in 
taking your responsibilities seriously.
    I apologize that I am not able to stay. I am going to yield 
the balance of my time to the ranking member.
    Mr. Miller. Thank you.
    Mr. Platts. Thank you.
    Mr. Miller. Congressman, I appreciate your help and your 
staff's help on these issues. Thank you.
    Mr. Davis of Virginia. Mr. Miller, let me ask who else did 
you brief besides Mr. Platts, because you threw his office out 
there. Did you brief Mr. Grassley's staff at that time?
    Mr. Miller. I believe I--it is hard for me to reconstruct.
    Mr. Davis of Virginia. Well, we are trying to reconstruct 
where the documents came from, and Mr. Platts has said he 
didn't. Did you brief Mr. Waxman's staff at that point?
    Mr. Miller. I don't believe I did. You are asking me to 
think back from July through----
    Mr. Davis of Virginia. Correct. If you don't remember, you 
don't remember.
    Mr. Miller. When did the story come out? December?
    Mr. Davis of Virginia. Correct.
    Mr. Miller. And I met with oversight, I met with Senate 
oversight staff, Homeland Security and Governmental Affairs.
    Mr. Davis of Virginia. Let me ask you this. You were on the 
invite list for the January 26th brown bag lunch. Did you 
attend?
    Mr. Miller. I did not.
    Mr. Davis of Virginia. Did anyone from your office attend? 
Were there any Schedule C's that attended?
    Mr. Miller. No, sir.
    Mr. Davis of Virginia. You made a referral to the Office of 
Special Counsel, correct?
    Mr. Miller. That is correct.
    Mr. Davis of Virginia. Did the referral include the White 
House for the slides, or did you just include Administrator 
Doan?
    Mr. Miller. The referral referred the allegations. As I 
understand it, a confidential source talked to agents in my 
office. They contacted agents at the Office of Special 
Counsel----
    Mr. Davis of Virginia. Correct. I am just saying----
    Mr. Miller [continuing]. Telling them what the allegations 
were.
    Mr. Davis of Virginia. In terms of the allegations, were 
the allegations directed at the Administrator or were they also 
to Mr. Jennings at the White House who gave the political slide 
that has been the subject today?
    Mr. Miller. I would have to go back and look at the file, 
Congressman. I believe I gave a copy of the referral to the 
chairman on his written request.
    Mr. Davis of Virginia. We have not received a copy of the 
referral, Mr. Waxman, from your staff. It would be helpful to 
have that.
    My question here is was this labeled just at Administrator 
Doan or was it the White House, as well? And you don't 
remember?
    Mr. Miller. I don't know, Congressman.
    Mr. Davis of Virginia. Can you ask your staff? Would anyone 
here know?
    Mr. Miller. I think----
    Mr. Davis of Virginia. So you supplied it to Chairman 
Waxman's staff, but you haven't provided it to us, basically?
    Mr. Miller. Well, the chairman wrote a letter to me asking 
for it.
    Mr. Davis of Virginia. Right. And he copied me.
    Mr. Miller. I don't know if he copied you or not.
    Mr. Davis of Virginia. Generally you do.
    Chairman Waxman. Yes, we always copies letters to you and 
we always share the information we get in response to those 
letters, so I can't explain it.
    Mr. Davis of Virginia. OK. We would like to know that.
    Chairman Waxman. We will check our files.
    Mr. Miller. I will provide a copy of the referral to you.
    Mr. Davis of Virginia. I just want to know if it is aimed 
at Administrator Doan or if it is also aimed at the White 
House, who, after all, called the meeting. It was not called by 
Administrator Doan, correct?
    Mr. Miller. Congressman Davis, I wouldn't say that it was 
directed to any one person or another person.
    Mr. Davis of Virginia. So you are not even saying here it 
was directed at the Administrator?
    Mr. Miller. What we got were credible allegations that 
appeared to be a violation of the Hatch Act. My investigations 
office referred it over to the Office of Special Counsel.
    Mr. Davis of Virginia. But the media reports and the other 
allegations seemed directed just at her, and she didn't call 
the meeting, and at the same time she didn't make the 
presentation, which if you have watched today has really been 
the subject of some controversy, whether the administration was 
right to come in and make these presentations in a Federal 
building. She wasn't the one who originated this.
    So my question would be--and I guess this goes over to Mr. 
Waxman--is there a retaliation going on or anything. Was this 
directed at her or was it directed at the whole presentation, 
and you don't know the answer to that is what you are telling 
me? You made a referral to the Justice Department or just the--
not to Justice, or did you just make it----
    Mr. Miller. Office of Special Counsel.
    Mr. Davis of Virginia. Just to the Special Counsel on Hatch 
Act?
    Mr. Miller. Yes. As I explained earlier--I think you may 
have been out of the room--I have to do my duty as Inspector 
General.
    Mr. Davis of Virginia. I agreed with that. I am just asking 
if that included the White House or just the Administrator.
    Mr. Miller. When we get credible allegations in, we refer 
them to the appropriate investigatory agency.
    Mr. Davis of Virginia. I understand, but my question is, 
the allegations, if you look at this, would have included both, 
would they not?
    Mr. Miller. Well, as I understand it, the Hatch Act issue 
is within the sole jurisdiction of the Office of Special 
Counsel.
    Mr. Davis of Virginia. Correct. But the referral----
    Chairman Waxman. Mr. Jennings could well have been exempt 
from the Hatch Act.
    Mr. Davis of Virginia. He may or may not have. Do you know 
if Mr. Jennings was exempt from the Hatch Act or not?
    Mr. Miller. I am not an expert in the Hatch Act.
    Mr. Davis of Virginia. Exactly my point. Actually, Ms. Doan 
has some exemptions under the Hatch Act, as well, as the 
Administrator.
    Mr. Miller. The Office of Special Counsel is, and that is 
why, when we----
    Mr. Davis of Virginia. But you understand my point. My 
point is was this inclusive of the entire presentation and the 
slides from the administration, or was this just about Ms. 
Doan, and you don't know the answer?
    Mr. Miller. I think what happened was someone told our 
agents that this happened, it looked like it was wrong, and 
that it may violate----
    Mr. Davis of Virginia. What happened?
    Mr. Miller. I think the allegation--and, again, I wish I 
had the referral in front of me, but----
    Mr. Davis of Virginia. You knew this was the subject when 
you came here today, so I am----
    Mr. Miller. Well, as I understand it, I also knew that my 
office was not very involved in this, that we handed it off to 
the Office of Special Counsel. But, as I understand, the 
confidential source said that there was a presentation on some 
sort of election results, maybe. I don't quite remember what--
then, again, I would rather just go back and check the 
documents and then respond.
    Chairman Waxman. We will hold the record open to receive 
it.
    Mr. Davis of Virginia. I just wanted to get him while he 
was under oath though to get it, because when he sends them 
later I don't know if that applies, and I just want to make 
sure you don't know the answers right now. You will get back to 
us?
    Mr. Miller. Yes, I will get back to you.
    Mr. Davis of Virginia. OK.
    Chairman Waxman. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I am going to continue a little bit along that line. When 
you were speaking to Chairman Waxman and you referred to law 
enforcement officers----
    Mr. Miller. Yes?
    Mr. Issa [continuing]. Now, that term is really a term from 
your years as a U.S. Attorney, Assistant U.S. Attorney, isn't 
it? And, in fact, that is really your career? You are a career 
prosecutor, you are not an accountant?
    Mr. Miller. No, sir.
    Mr. Issa. You don't understand how to deal with 
bureaucracies, where the problems are? I know you are smiling, 
but I want to understand this. You are not just about the Hatch 
Act. In fact, that is not within your jurisdiction. Your 
jurisdiction is supposed to be to find the waste, fraud, and 
abuse within the GSA, right?
    Mr. Miller. Correct, and to investigate credible 
allegations of wrongdoing.
    Mr. Issa. OK. And it seems like we are spending an awful 
lot of time on a $20,000 non-contract, but let me just run you 
through a couple of questions here, because I want to 
understand it related to Administrator Doan.
    She could have taken $200,000 worth of her employees' time 
and had them do research and prepare and try to consult, right? 
She has the ability to have those people work for her and do 
what she needs to do?
    Mr. Miller. Congressman, first of all, I do believe it was 
a contract. I believe that is what the General Counsel then 
concluded, Allen Swindeman, and also the acting----
    Mr. Issa. I appreciate that, but----
    Mr. Miller [continuing]. The acting General Counsel, Lenny 
Loewentritt.
    Mr. Issa. Right. I appreciate that, but that is a personal 
service contract, if we are going to put the word contract on 
it. It was a request for a service that would cost $20,000 
which she wanted done in order to further the office's ability 
to execute things. And I want to simply ask you, she could 
have, in fact, gone to her people and said, go study and read 
and spend $200,000 accomplishing the same thing? Wouldn't have 
been a problem at all, right? She has the ability to use her 
own resources, millions and millions of dollars worth of human 
beings' time, to do that? As the IG, I am assuming you can 
answer that with some credible validity.
    Mr. Miller. Well, Congressman, I would assume that she 
would also look at the in-house capability to do that job, as 
well----
    Mr. Issa. Right. I asked you a question----
    Mr. Miller [continuing]. And she would follow all the 
procurement rules.
    Mr. Issa. No. You know, the point is I am asking the 
questions, I would like the answers to my questions.
    Mr. Miller. Sure.
    Mr. Issa. I believe that you have been on a witch hunt and 
that this is, in fact, an IG who, instead of looking at the 
waste, fraud, and abuse, is going after one person, a big 
prosecution, if you will, of one individual, and that is my 
opinion. We will see in the long run how it pans out. But I do 
see $20,000 in an agency of $54 billion, and I am going back to 
my questions. You are not really comfortable looking into the 
nuances of all the contracts. You picked this $20,000 service 
agreement in order to go after; is that correct?
    Mr. Miller. That is not correct, Congressman. I would 
really like the opportunity to try and explain to you----
    Mr. Issa. My time is very short. It is 5 minutes, so when I 
ask a question that is a yes or no I will take a yes or no, and 
you are welcome to it, or a little beyond that.
    Mr. Miller. Absolutely not. It is not a witch hunt.
    Mr. Issa. OK. What other areas are you working on in the 
$54 billion that is being spent by the GSA?
    Mr. Miller. Well, we recently settled a case with Oracle 
and PeopleSoft for $98.5 million. That was settled in October. 
I am Vice Chair of the National Procurement Fraud Working Group 
in the Department of Justice.
    Mr. Issa. Is that as a result of your position, or is that 
something you had before you came to this position?
    Mr. Miller. I was appointed to that when it was formed in 
October.
    Mr. Issa. You know, look, I have no question you are a fine 
prosecutor with a great history of being able to do those 
things. I am just trying to understand why a mistake which was 
corrected by the GSA, itself, the contract, if you call it 
that, was canceled, even though there is nothing in that 
contract that says it would be canceled, it was canceled 
without a penny being spent.
    My real question is: when you said earlier if Ms. Doan had 
said, oh, I made a mistake, you implied that would have been 
the end of it. Now, in your years as a prosecutor, do cases end 
if you think they are criminal or wrong? Do they end because 
somebody says I am so sorry? And her belief that it wasn't a 
contract and she didn't do anything wrong, does that somehow 
change the facts on the ground for you, because that is what 
you said here under oath today was that, in fact, if she had 
just apologized it would have been OK, if she had just admitted 
that.
    Mr. Miller. Well, Congressman, first of all, I didn't say 
if she just apologized. My point was that this was a credible 
allegation. We have a responsibility. I don't have a choice. I 
have a duty to followup on credible allegations of wrongdoing. 
This was a credible allegation. It came complete with 
documents.
    Mr. Issa. Because my yellow light is on, I just want to do 
one followup. She, in fact, said she didn't think it was a 
contract. As such, she wasn't apologetic for it, and that is 
what caused you to continue on with the prosecution, is what 
you said here today.
    Chairman Waxman. The gentleman's time is expired. You will 
be given opportunity now to answer the question.
    Mr. Miller. Thank you, Mr. Chairman. I think that is not 
what I said, Congressman. What I said and what I meant was that 
we have a duty to followup on allegations. I went up to her 
personally and say, you know, I'm sorry, but our agents are 
going to have to come and interview you. We have this 
complaint.
    We fully expected that she would be totally forthcoming 
with our agents and that would explain the whole matter, there 
would not be any other leads to followup on, and that we would 
just close it out. I was actually wondering who do I write the 
letter to--is it the White House liaison--because this does not 
happen very often. And the agents come back and said no, she 
told a story that they did not believe was a correct story, an 
accurate story, and then we had to make a decision. We had the 
followup to see, gee, what are the facts here. I do have an 
obligation to follow the facts.
    Chairman Waxman. Thank you.
    Mr. Miller. And no more, but no less.
    Chairman Waxman. Thank you, Mr. Issa.
    Mr. Mica, I think you are next.
    Mr. Mica. Thank you, Mr. Chairman.
    Sorry I didn't get to hear all of it. I heard your 
testimony, but not all of the questions. I hope I don't repeat 
any.
    Mr. Miller, one of your responsibilities as the Inspector 
General is to look at things that aren't going right or 
problems with contracts within GSA; is that correct?
    Mr. Miller. Generally, yes, sir.
    Mr. Mica. Were you aware of, like, say, in a human 
resources situation, it may or may not have been important to 
you, but were you aware of some of the failings as far as GSA 
in getting--I guess they were going to get a failing score or 
they got a failing score on some of the diversity issues in 
regard to GSA. Were you aware of that?
    Mr. Miller. We were aware of that issue and that problem, 
yes, sir, and----
    Mr. Mica. Did you investigate it, or was there any review 
by you? Did you ever see the memo that was referred to that Ms. 
Doan did not read but she was briefed on, by Mendosa?
    Mr. Miller. Congressman, I am not exactly sure what you are 
referring to, but there is an SBA score card----
    Mr. Mica. Yes.
    Mr. Miller [continuing]. That I believe came out in 
December 2006, that gave an F rating to the GSA.
    Mr. Mica. A failing. But, again, this wouldn't be a 
concern, but you were not aware of it?
    Mr. Miller. To the extent that we are part of the agency, 
we are concerned about that. It doesn't fall within the mission 
of the Office of the Inspector General.
    Mr. Mica. Well, again, I think one of the things that 
Administrator Doan, her concern, and probably rightfully so, an 
African American female Administrator of agency, one of her 
concerns was to come in here in this position from the private 
sector and see the public sector getting a failing score, or 
about to get a failing score, maybe for a second time. I guess 
she was really trying to push this contract to get a review 
through this group. Was it Diversity Best Practices, Ms. 
Fraser? She was really pushing that, wasn't she?
    Mr. Miller. Congressman, for her to be involved in those 
issues is perfectly fine. I understand that. Our concern was we 
got an allegation----
    Mr. Mica. But she was trying----
    Chairman Waxman. Would the gentleman yield? Just one point 
for the record.
    Mr. Mica. Yes.
    Chairman Waxman. That failing score wasn't something that 
motivated it. That failing score was after this contract had 
fallen through.
    Mr. Miller. That is what I understand, Mr. Chairman.
    Mr. Mica. It is my understanding that GSA already had a 
reputation for a failing score, that this isn't like a new 
revelation, and she was briefed that they were going to get a 
failing score and was trying to do something about it, but it 
wasn't very important to you, but she was really pushing this 
because I think even the General Counsel had advised her. She 
had signed off on this contract, but was the contract executed, 
fully executed?
    Mr. Miller. I believe it was, Congressman.
    Mr. Mica. But she was really pushing this to get this 
diversity study? And you advised her not to, or was that the 
General Counsel, Mr. Allen Swindeman--is it Swindeman?
    Mr. Miller. I believe Allen Swindeman strongly counseled 
her----
    Mr. Mica. You did not advise her? It was Mr. Swindeman?
    Mr. Miller. That would have been the General Counsel's 
role.
    Mr. Mica. OK. And Mr. Swindeman or the General Counsel 
allegedly told the committee that they had evidence that he 
repeatedly advised that the contract be terminated; is that----
    Mr. Miller. That is my understanding.
    Mr. Mica. But you never advised that. Did he advise you 
that something was wrong?
    Mr. Miller. Mr. Swindeman.
    Mr. Mica. Yes, the General Counsel. I don't think Doan was 
going to call you.
    Mr. Miller. Well, it would not have been his role. He did 
not advise us.
    Mr. Mica. Well, how did you find out, then?
    Mr. Miller. We received a complaint, an anonymous complaint 
with documents of the contract.
    Mr. Mica. And was that before or after?
    Mr. Miller. I guess it would be after the contract was 
signed.
    Mr. Mica. After the contract was signed.
    Mr. Miller. I don't recall the precise date. I can look it 
up.
    Mr. Mica. But when did the General Counsel contact you?
    Mr. Miller. Pardon me?
    Mr. Mica. Did the General Counsel contact you?
    Mr. Miller. No.
    Mr. Mica. It was an anonymous?
    Mr. Miller. It was an anonymous----
    Mr. Mica. OK. Then did you contact him?
    Mr. Miller. Who?
    Mr. Mica. The General Counsel. You get a complaint----
    Mr. Miller. Our agency----
    Mr. Mica. First thing I would have done is call the General 
Counsel and say, I have a complaint here that she is trying to 
push this contract that has been signed, and you advised her 
against it. Did you talk to him?
    Chairman Waxman. The gentleman's time has expired, but 
please answer the question.
    Mr. Miller. My agents did interview Mr. Swindeman. They 
also interviewed Mr. Loewentritt of the General Counsel's 
office. Our obligation was to followup on the contract, on the 
allegation. We had the allegation, the complaint, and the 
contract. We then, our agents interviewed the Administrator.
    Chairman Waxman. Mr. Shays.
    Mr. Shays. Thank you.
    Mr. Miller, I believe the Inspector Generals have a vital 
role to play. I get uncomfortable when I think they focus on 
minutia and then ignore big pictures. Frankly, you know, this 
is a----
    Mr. Mica. Could you yield for just----
    Mr. Shays. Let me just make my points.
    So I have a problem with that. And the second issue I have 
a problem with is I have a problem if I feel like an Inspector 
General is just doing something to get you, and so when I look 
at this meeting that I think never should have happened and I 
know that you were invited, what I find curious is why someone 
didn't go to the chief of staff of the Secretary or the 
Administrator and say, you know, this is a really dumb idea. I 
think it borders on a bad meeting. Was it just that you knew 
there was a meeting but you didn't know what was going to 
happen in the meeting?
    Mr. Miller. That is correct. I get e-mails for these brown 
bag lunches all the time because I am a Presidential appointee 
appointed by President Bush, and I am copied on all of those--
--
    Mr. Shays. You didn't know what the purpose of the meeting 
was?
    Mr. Miller. I looked at the e-mail briefly, and went on to 
my other e-mails.
    Mr. Shays. So the answer is, like, other people come before 
you looked at the--but did it make clear in the e-mail what it 
was about?
    Mr. Miller. I think what I read was that it was Mr. 
Jennings coming over for a brown bag.
    Mr. Shays. That is it?
    Mr. Miller. That is all I recall.
    Mr. Shays. OK. The next issue I just want to ask you, with 
the issue of the contract, the diversity contract, basically I 
look at it and say no contract, no service performed, no money 
transferred, end of story. What am I missing in this?
    Mr. Miller. Thank you for asking that. I think what you are 
missing is when our agents interviewed the Administrator they 
received a story that couldn't possibly be true, which forced 
us to continue to investigate to find out what happened.
    Mr. Shays. To me, no contract, no money spent, no service 
performed. That is the way I look at it.
    But let me yield to my colleague, the ranking member. Did 
you want to quickly get something?
    Mr. Mica. The committee doesn't have the Special Counsel's 
memorandum, the----
    Mr. Davis of Virginia. Yes, do you have notes from the 
interview of Mr. Swindeman?
    Mr. Miller. I believe we do.
    Mr. Davis of Virginia. Could you make those available? And 
here is why I ask. Our information--we interviewed him--is that 
he wrote one memo to the Administrator. There are no phone 
calls and no e-mails. That is at variance with what you are 
representing. We just need to see if we can get that squared.
    Let me ask a couple other questions.
    You assumed your duties as the GSA IG in July 2005?
    Mr. Miller. Correct.
    Mr. Davis of Virginia. And in June 2006, Administrator Doan 
assumed her duties. The GSA at that point was experiencing 
serious fiscal challenges, with the possibility of Anti-
Deficiency Act violations; is that correct?
    Mr. Miller. Congressman, I don't believe that is correct. I 
believe they were running a surplus of over--I would have to 
check into it, but I believe they have always run a surplus, 
and last year it was over $400 million.
    Mr. Davis of Virginia. OK. So you don't think that there 
were serious fiscal challenges?
    Mr. Miller. There are always serious fiscal challenges, and 
I applaud Administrator Doan's attempts to exercise fiscal 
discipline.
    Mr. Davis of Virginia. Did you take any actions in your 
office to address the fiscal challenges, or did you feel that 
wasn't your problem, that was part of the rest of GSA? I guess 
that goes to the nub of it.
    Mr. Miller. No. We obviously had a very serious fiscal 
problem, because Administrator Doan informed us that our 2007 
money was going to be terminated, and so all of the sudden we 
had $5 million or $2.5 million----
    Mr. Davis of Virginia. I know she----
    Mr. Miller [continuing]. Taken out of our current operating 
budget.
    Mr. Davis of Virginia. But had you done anything else to 
streamline your budget in response to her request to tighten 
the budget?
    Mr. Miller. Well, we tightened all around. We had to 
tighten.
    Mr. Davis of Virginia. What did you do to tighten?
    Mr. Miller. Pardon me?
    Mr. Davis of Virginia. What did you do in your office to 
tighten the belt?
    Mr. Miller. Well, we reduced hiring. We actually looked 
at----
    Mr. Davis of Virginia. Did you put a freeze on?
    Mr. Miller [continuing]. Two dozen auditors were in danger 
of RIF, of reduction in force, so we were looking at those.
    Mr. Davis of Virginia. That was under her rules, not under 
yours. What did you do? What did you do?
    Mr. Miller. No, that was my--I mean, I was looking at how 
to manage the office without the reimbursable moneys.
    Mr. Davis of Virginia. But, aside from the reimbursable 
moneys, notwithstanding that, if the agency was undergoing 
fiscal constraints did you come forward and say, Look I don't 
think you need to take away that money. I will do these to 
reduce operations. That is what I am asking. As a loyal member 
of the team----
    Mr. Miller. OK. I understand your question now. I believe 
that I am duty bound, as an Inspector General, to make sure 
that we have the resources to do our job.
    Mr. Davis of Virginia. Doesn't everybody? So the answer is 
you didn't do anything?
    Mr. Miller. May I explain?
    Mr. Davis of Virginia. Yes, but my red light is on. I just 
wanted to make sure. You can answer that, but also do this. I 
think every agency head feels it is their job to do that, and 
if everybody does that, when the Administrator comes down and 
says, can you tighten up, can you let this go, you are all 
going to say no and you are all going to complain.
    Mr. Miller. I believe the point you are missing here is we 
have a separate appropriate.
    Mr. Davis of Virginia. Right.
    Mr. Miller. The money that goes to our office is a separate 
appropriate. Our request or our budget requests are attached to 
the GSA budget. Never before has any Administrator said no, we 
are not going to pass it on to OMB and to the Congress or 
extensively edited what we said, taking out phrases like fraud, 
waste, and abuse. So it is not coming out of the GSA budget. It 
is a separate budget.
    Mr. Davis of Virginia. Are you the only separate line in 
GSA? Aren't there other agencies that have separate lines in 
the budget, as well?
    Chairman Waxman. That will have to be the last question. 
Would you answer it, and then I think we have to conclude this 
hearing.
    Mr. Miller. I believe other IGs have separate 
appropriations.
    Mr. Davis of Virginia. But within GSA are there other 
separate lines of appropriation?
    Mr. Miller. I do not know the answer to that, Congressman.
    One very last point is that the $5 million that the 
Administrator was taking was still going to be spent. It was 
not a budget-cutting issue at all. It was going to be spent. It 
was simply going to be spent on small contractors. So it was 
not a budget issue.
    Mr. Davis of Virginia. Let me----
    Chairman Waxman. Thank you very much.
    Mr. Davis of Virginia. Mr. Chairman, let me just ask if we 
could keep the record open on that just to clarify some 
questions and inconsistencies.
    Chairman Waxman. Thank you very much, Mr. Miller. We 
appreciate your testimony. We may have further questions that 
we will submit in writing to you, and we would appreciate a 
response in writing for the record.
    Mr. Miller. Thank you, Mr. Chair. Thank you, ranking 
member. Thank you, Members.
    Chairman Waxman. Let me just conclude, and I will give Mr. 
Davis a chance if he wants to say anything to conclude, but I 
think that the basic rules of Government is that Federal 
agencies are not to be used for Government politicking. The 
rules for anybody heading up an agency is that they have to 
follow the rules that say that Government resources are not to 
be used for partisan politics, they can't give no-bid contracts 
to their friends, and they should listen to their career staff 
and auditors when it involves millions of dollars out of 
taxpayers' pockets.
    I just want to close by pointing out what Senator Grassley 
said. This investigation is not only worthwhile, but that we 
would be ignoring our constitutional oversight responsibilities 
if we didn't hold these hearings. I think that it is clear in 
my mind that Senator Grassley was correct. GSA involves 
billions of dollars, and if we are seeing millions of dollars 
squandered I think we ought to speak up about it, because if 
money is being squandered it comes out of the taxpayers' 
pockets, and it may be millions today but it could be billions 
tomorrow if people just don't follow the rules.
    Thank you.
    Mr. Davis, any concluding statements?
    Mr. Davis of Virginia. Mr. Waxman, let me just say of 
course it is appropriate oversight for this committee to look 
at how all of our agencies, including GSA, operate. I would 
have basically favored a hearing today that would have been 
more programmatic in terms of looking at the issues in GSA. 
There are a lot of issues there. We have the merger of FTS and 
FSS and how that has operated. I think the issue in terms of 
SUN Microsystems could be an interesting exercise. But I think 
it has become way too personalized in this particular case.
    Mr. Miller, I hope that you and the Administrator can patch 
it up and work together. We count on everybody working as a 
team. That clearly hasn't happened in this case. I am not going 
to throw brick bats in terms of who is to blame, but if we 
leave here today, if we can focus and recognize you have a 
reporting responsibility to her and you also have independence, 
and balancing that appropriately is something we rely on you 
all to do. When it gets to this stage, I think it becomes way 
too personal.
    Let me just say, in terms of Government politicking, I 
don't know how you take politics out of Government, but we will 
look at these issues as we move forward. Mr. Waxman and I have 
talked about some issues raised today that are not personal to 
the Administrator. But I can tell you Cabinet officers are all 
the time out campaigning for and against Members. I am sure 
their staffs are part of that. I had a Cabinet Secretary come 
in and campaign against me in my reelection in 1996. I am not 
sure what the appropriate balance is. We will explore this in 
future hearings.
    I thank you for being here.
    Chairman Waxman. We do have laws.
    Mr. Davis of Virginia. Yes, we do.
    Chairman Waxman. And the laws say that you can't, on 
Government time, at Government resources, go out and campaign. 
When Cabinet Secretaries go out and campaign, they do it at the 
expense of the campaign. It may be personal to Ms. Doan because 
she is the one heading this agency, but we have had a Senator 
and her Inspector General, and I must say my own conclusion is 
that she is not always being very candid in telling us the 
truth, and that makes her problems much worse, because she has 
to be honest.
    Mr. Davis of Virginia. There is no evidence here that she 
campaigned at all on Government time. She was sitting there at 
a meeting that was called by the White House, and participated 
in that.
    Mr. Mica. Mr. Chairman, as you summarize, I do think some 
positive things could come out of this. I did not know that the 
White House could videoconference in this fashion. We might 
want to look at that, because I am now learning that this went 
on, and even Mr. Miller said he participated or was invited to 
participate. That is one thing. I did not know the GSA 
Administrator didn't have discretion to do a contract for 
$20,000 and was prohibited from doing that.
    The third thing I think----
    Chairman Waxman. Mr. Mica, ignorance of the law is no 
excuse. The law is there. The rules are there. She has to 
follow it.
    Mr. Mica. Absolutely.
    Chairman Waxman. Would you make your concluding statement 
so we could adjourn?
    Mr. Mica. Absolutely. But another thing I would like to 
look at is diversity in some of these agencies.
    Chairman Waxman. Great.
    Mr. Mica. This agency----
    Chairman Waxman. We will do that.
    Mr. Mica [continuing]. Failed.
    Chairman Waxman. Thank you very much. The meeting is 
adjourned.
    Mr. Mica. They failed. And you failed, too.
    [Whereupon, at 3:25 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
